<html>
<title> - RFID TECHNOLOGY: WHAT THE FUTURE HOLDS FOR COMMERCE, SECURITY, AND THE CONSUMER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



RFID TECHNOLOGY: WHAT THE FUTURE HOLDS FOR COMMERCE, SECURITY, AND THE 
                                CONSUMER

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2004

                               __________

                           Serial No. 108-108

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-455                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)
?



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Bruening, Paula J., Staff Counsel, Center for Democracy and 
      Technology.................................................    24
    Dillman, Linda M., Executive Vice President and Chief 
      Information Officer, Wal-Mart Stores, Inc..................    13
    Galione, William, Vice President and General Manager, 
      Marketing and Sales Americas, Philips Semiconductors.......    30
    Hughes, Sandra R., Global Privacy Executive, Procter & Gamble 
      Company....................................................    20
    Laurant, Cedric, Policy Counsel, the Electronic Privacy 
      Information Center.........................................    42
    McLaughlin, Mark, Senior Vice President, Naming and Director 
      Services Division, VeriSign, Inc...........................    40
    Molloy, John, Managing Director, ViaTrace, LLC...............    49
    Sarma, Sanjay, Associate Professor, Mechanical Engineering, 
      Massachusetts Institute of Technology......................     7
    Steinhardt, Barry, Director of the Technology and Liberty 
      Program, the American Civil Liberties Union................    34
Additional material submitted for the record:
    Grocery Manufacturers of America, prepared statement of......    66
    Retail Industry Leaders Association, prepared statement of...    69

                                 (iii)

  

 
RFID TECHNOLOGY: WHAT THE FUTURE HOLDS FOR COMMERCE, SECURITY, AND THE 
                                CONSUMER

                              ----------                              


                        WEDNESDAY, JULY 14, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:36 a.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Shadegg, Issa, 
Otter, Barton (ex officio), Schakowsky, McCarthy, and 
Strickland.
    Staff present: Chris Leahy, majority counsel and policy 
coordinator; David Cavicke, majority senior counsel; Shannon 
Jacquot, majority counsel; Brian McCullough, majority 
professional staff member; Will Carty, majority legislative 
clerk; William Harvard, majority staff assistant; Jonathan 
Cordone, minority counsel; and Ashley Groesbeck, minority 
research assistant.
    Mr. Stearns. Good morning, everybody. Welcome to our 
subcommittee hearing entitled ``Radio Frequency Identification 
(RFID) Technology: What the Future Holds for Commerce, 
Security, and the Consumer.''
    My colleagues, technology is only constrained by the limits 
of our imagination and our ingenuity. And whether it's an 
incremental step or the next high-tech revolution, trying to 
deal with the policy implications that technology brings is 
something that challenges us all as policymakers and 
legislators more frequently now than ever before. Do you have 
the volume up enough on this? If you can, just a little bit.
    Today, I'm pleased to say that this subcommittee will 
attempt to get out in front and conduct the first congressional 
hearing on a very exciting and a complex new technology 
application.
    As we will learn, Radio Frequency Identification, or RFID, 
as it is commonly known, is frankly a World War II-era 
technology that has begun to find new commercial and government 
application in just the last few years. In basic terms, the 
most common commercial application of RFID used radio waves to 
transmit data from a transmitting device called a ``tag'' to a 
scanning device called a ``reader'' which can be networked with 
a computer data base. These RFID tags can be attached to 
products and packaging individually.
    Readers are able to activate tags via radio signals and 
receive tag data without ``line-of-sight'' scanning, which is a 
limitation for the common barcode. One of our expert witnesses, 
Dr. Sarma of the Massachusetts Institute of Technology, will 
provide us with a brief demonstration of RFID technology at the 
beginning of his testimony. It's nice to have this room 
modified for this, too.
    In terms of the data embedded in the tags, work is being 
done to develop common standards known as the Electronic 
Products Code or ``EPC'' to create unique numerical identifiers 
for individual items. This would allow RFID readers to receive 
EPC data from tags on items and products that can be matched 
through a data base for identification and for other purposes.
    My colleagues, this is a global effort and, in theory, 
could lead to a seamless supply chain and logistics management 
in global trade. While still far off, such possibilities have 
led some to comment that because EPC identifies a product much 
like an IP address identifies a computer, RFID and EPC, in 
effect, are creating an internet for physical items rather than 
just for data. Think about that.
    For manufacturing and retail applications, RFID technology 
is gradually being rolled out for tracking large bulk 
containers and pallets along the supply chain. And if technical 
and cost feasibility issues can be addressed, RFID readers, for 
example, could have the ability to read instantaneously not 
only pallets but also each unique individual product they 
contain. This could be done without having to unload any 
product contents, with inventory being updated in real time.
    Forecasting would become obsolete, shelves would always be 
stocked with the most popular brands, and cost savings would be 
passed on to the consumer. Now this is just one possibility, 
future possibility. Currently, RFID technology is being used in 
such diverse applications as automatic traffic tolls, like the 
E-Z Pass system that I use when I come from my hometown to 
Orlando to get to the airport, and in anti-theft immobilizers 
on the latest automobiles.
    There also are plans to use RFID technology for counterfeit 
drug detection as well as tracking port cargo and hazardous 
substances for homeland security purposes. One possible future 
application that seems to generate excitement for anyone who 
has ever stood endless in line at the grocery store, involves 
using readers at checkout. In this application, readers placed 
at checkouts would allow customers to pass straight through 
with their RFID tagged items loaded in their shopping carts. 
Customer accounts would be automatically updated leaving them 
free to head straight for the parking lot--without even 
stopping for so much as a candy bar at the checkout or buying 
that little magazine.
    However, it is just this type of point-of-sale application 
that raises significant privacy issues and serious questions 
for average consumers and their everyday lives. To take my 
favorite example at the grocery story--will RFID tagged items 
in my cart be clearly labeled? Will I be able to disable or 
remove them at point of sale? What happens to the data 
harvested from all these purchases of myself and my family? How 
secure is that data, and what prevents third parties from 
misusing it or acquiring readers for invasive purposes? These 
are all important questions and I look forward to discussing 
them. And it's also not just in the grocery industry. It could 
be in the video, Blockbusters, it could be anywhere and 
everywhere.
    Like every new technology and application, RFID technology 
has the power to benefit all of us. It also presents a number 
of serious issues if it is misused, it could be harmful. So it 
is our job to cut through this hype, get the facts about RFID, 
learn more about its applications, and examine the public 
policy issues generated by its use and widespread deployment. 
And to help us learn more about the technology and its policy 
implications, we are especially pleased to have such a 
distinguished panel of witnesses from academia, business and 
consumer privacy organizations as well.
    We have nine of you, I think, so we appreciate your 
patience here. I'd like to thank the witnesses and with that, I 
recognize my distinguished colleague, Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Chairman Stearns for holding 
this hearing today on Radio Frequency Identification, an old 
technology with new applications being discovered every day.
    Once again, our subcommittee is contending with issues that 
arise at the intersection of technological innovation and 
consumer privacy. How we choose to respond to the potential 
uses and threats of RFID will be pivotal to consumers, civil 
liberties and commerce.
    Although around since World War II, we are hearing about 
RFID, a micro chip that can transmit unique information easily, 
more today than ever. Most often, RFID is being touted as the 
technological solution to inventory and supply tracking. Using 
RFID tags to inventory items will allow for real time supply 
chain tracking and we will never have to see an out of stock 
sign again.
    What we are also hearing about, however, are the 
potentially serious Orwellian possibilities of RFID technology. 
Because of the flexibility of RFID, suppliers and retailers are 
exploring the possibility of using RFID chips not only on 
shipping crates and pallets, but on individual items as well. 
It's possible to have RFID tags in everything from individual 
pieces of clothing as Bennetton proposed to tanks as the 
Defense Department is already doing.
    It is also being quietly suggested as Mr. Steinhardt from 
the ACLU will detail in his testimony that RFID tags could be 
used in travel documents like passports. Soon we could have Big 
Brother and Big Business tuning to the same frequency for not 
only will they know where you are, but they'll know what you're 
wearing.
    RFID tags can be small as a grain of sand. They can be 
hidden in products and documents without one's knowledge. This 
raises serious privacy concerns. Trials have already taken 
place, some without adequate consumer consent. Two companies 
represented here, Wal-Mart and Procter and Gamble conducted 
such a trial with lipstick that had RFID tags. As the Chicago 
Sun Times reported last year, every time a consumer would pick 
up a lipstick off the shelf in Broken Arrow, Oklahoma Wal-Mart, 
a video monitor would be triggered and images of the consumer 
would be sent to Procter and Gamble researchers in Cincinnati. 
Despite this, many attempt to downplay the threats to privacy 
and civil liberties. We are told that the technology to do the 
kind of tracking that privacy and civil liberty advocates 
discuss does not exist. We are told that suppliers and 
retailers aren't interested in doing the kind of surveillance 
about which I am concerned, yet the example at Wal-Mart leads 
me to believe there may be an interest. We cannot dismiss these 
concerns.
    As with so many of the technologies that we have discussed 
in our subcommittee, there are amazing positive uses for RFID. 
I do believe that RFID could be quite useful to follow products 
from manufacture to point of sale. I also believe that it could 
help ensure that pharmaceuticals are not counterfeit, have been 
handled properly en route from production to the point where 
they are dispensed.
    I appreciate the E-Z passe and SmartCards for public 
transportation. As one who has been fighting waste and abuse in 
the Department of Defense, I am pleased to hear that DOD is 
using RFID to keep better track of its purchases.
    However, I believe that we must not turn a blind eye to the 
potential for the abuse of this technology. I am not willing to 
sacrifice personal privacy and civil liberties. I believe that 
we can look into ways to regulate the use of RFID so we can 
help the industries that could benefit from this technology 
while protecting rights and liberties that are fundamental to 
our democracy.
    Again, thank you, Chairman Stearns for convening today's 
hearing with witnesses covering a broad range of the different 
stakeholders and I look forward to hearing from all of them.
    Mr. Stearns. I thank the gentlelady and the Full Chairman, 
the Distinguished Chairman, Mr. Barton.
    Chairman Barton. Thank you, Mr. Chairman. Thank you for 
this important hearing today. I want to thank our panel. I 
encouraged my subcommittee chairman to have one panel or two 
and we have extended this one panel about as far as it can go. 
I don't think we could get another person at the witness table. 
Especially, Mr. Molloy, we appreciate your patience. You're 
going to get to talk in about an hour and 15 minutes, probably. 
We appreciate you all being here.
    We know how well and how fast technology has been moving, 
so it's very good to have a hearing on a technology that's been 
around for a long time since World War II, but it's now having 
new ways to use it. This new old technology is RFID or Radio 
Frequency Identification. It works by providing a frequency-
emitting tag to a product that can be detected within its range 
by receivers. The private sector is embracing this technology 
for uses in supply chain management. This may not sound 
exciting, but the possibilities are for countless efficiencies 
for the benefit of consumers, better supply management, can 
avoid product shortages so that our favorite items are 
available when we go shopping. Grocery stores will know what 
it's stocking and also know that they're stocking only the 
freshest foods that are available.
    Lower costs to the manufacturer and retailer mean lower 
costs to the consumer. Means more competitive American products 
overseas. The Defense Department recognizes potential benefits. 
They'll be implementing the technology for its contract with 
its suppliers. The benefits for Homeland Security could prove 
to be the most important aspect of this technology to 
Americans, capability to track the imports and containers will 
enhance our ability to monitor what's coming into our country 
from overseas. Similar applications related to controlled 
substances and hazardous materials that are shipped within our 
borders will provide an additional layer of security that we 
should all welcome.
    The applications are only limited to the effectiveness of 
the technology and the ability to implement them in a cost-
effective fashion.
    However, the same benefits that improve our standard of 
living also trigger concerns regarding privacy. And I know that 
a number of witnesses today are going to testify about their 
privacy concerns.
    Similar to the application of other technologies that have 
the potential to be misused, RFID technology will present 
policy considerations as it develops and becomes more 
prevailing in our lives. Before we jump to any Orwellian 
conclusions about the applications of this technology, this 
committee will continue to examine the facts and how it's going 
to be used and distributed. We may hold additional hearings to 
explore these avenues regarding the benefits and concerns in 
terms of privacy.
    Before I yield back, Mr. Chairman, I want to say something 
that's not part of the written opening statement. We had a 
hearing yesterday in another subcommittee about security lapses 
at Los Alamos National Weapons Laboratory. We went through a 
scandal several years ago where several classified disks 
disappeared. There was a Select Committee established, 
Department of Energy and the Department of Defense agreed to 
change their security procedures. Everything was supposedly 
going to be much safer and more secure. Well last week, two 
more zip files just disappeared, just walked out of the 
building and the testimony, some of which was in closed 
session, we found out that the inventory practices of the 
Weapons Laboratory, because they have so many classified 
documents and equipment, is once a year. Once a year. And this 
material could have been missing for a year and we wouldn't 
have known it. They just happened to have an inventory April 28 
so we know that it was in its vault on April 28.
    So I'm very interested in how the technology that we're 
going to discuss today might could be used to help us do a more 
current monitoring and inventory status of our classified 
materials because I think some of those probably need to be 
inventoried, if possible, on a daily basis and this technology, 
at least appears to hold out the promise that it might could do 
that. So I'm very happy the Chairman is holding this hearing.
    Mr. Stearns. I thank the Chairman for the excellent 
example. As I pointed out earlier, there will be a 
demonstration by Dr. Sarma how this technology is being used.
    Mr. Strickland.
    Mr. Strickland. No opening statement. I look forward to the 
testimony. Thank you.
    Mr. Stearns. Thank you. Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. I have an opening 
statement which I'll submit for the record and I want to offer 
my apologies to the panel. I'm going to have to leave in a 
little bit. I hope to return later, but I will have your 
written testimony and I welcome the input that you're giving us 
here today. Thanks very much for being here.
    [Additional statements submitted for the record follow:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman, for calling today's hearing. Today this 
subcommittee has the opportunity to examine an emerging consumer 
concern which has yet to be addressed by Congress.
    I would also like to thank the many distinguished panelists who are 
present today. As the initial effort of Congress to address Radio 
Frequency Identification (RFID), I expect the testimony offered today 
to play a critical role in framing public sentiment regarding this 
important matter. I am confident the panelists who have agreed to join 
us today will provide a diverse scope of insight and expertise.
    Although the technology associated with RFID is not a new 
phenomena, recent developments in the application of RFID have caught 
the attention of manufacturers, distributors, retailers and consumers. 
Wal-Mart's recently announced requirement of its top 100 vendors to 
attach tags to pallets is a certain harbinger that this technology may 
soon be a common element in the life of the average American consumer. 
This subcommittee has recently delved quite deeply into the matter of 
consumer notification of the monitoring of their internet habits, and 
RFID technology could eventually pose conflicts similar to those 
associated with Spyware. If retailers plan to develop RFID technology 
for use in common transactions, Congress will need to assure customers 
are properly notified their spending habits may be monitored. I look 
forward to learning today what efforts vendors and retailers are 
currently making to protect consumer privacy.
    Of particular interest to me today is the potential use of RFID 
tags in food labeling. Leading homeland security experts have stated 
terrorist attack via our nation's food and water supplies is a feasible 
possibility, and RFID tags could help prevent such terrorist acts. 
Recent outbreaks of mad cow disease have made consumers highly 
cognizant of the origins of their meat supplies, and this issue has 
profoundly impacted many residents of the state I serve. Ranching has 
become a high tech industry, and I am anxious to learn today how RFID 
tags may be utilized in heard management. The ability to trace and 
monitor America's food supply will not only stabilize our nation's 
economy, but also bolster our homeland security.
    Again, I thank the Chairman for calling today's hearing and I yield 
back the balance of my time.
                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    I'd like to thank Chairman Stearns and Ranking Member Schakowsky 
for holding this important hearing. I know I've made this comment 
before in this committee, but I feel it is an important statement to 
keep in mind:
    Technology itself is not a problem when it comes to invasions of 
privacy and inconveniencing consumers. My concern lies with those who 
may use this technology for unethical purposes.
    I was a co-author of the Anti-Spam bill. I supported legislation in 
this committee that is designed to deter people from using spyware in 
ways that invade our privacy and protect consumers.
    Radio Frequency Identification Technology, as many of our witnesses 
will attest, is a technology that has been in use since World War II. 
This technology has been improved over the years to a point where 
retailers, ports, airlines, and consumers can benefit from this 
technology.
    I represent both Houston Intercontinental Airport and the Port of 
Houston. The port of Houston is the largest port in the United States 
by tonnage and Intercontinental Airport is the eighth busiest airport 
in the country. I believe RFID technology can be used to help keep our 
airport and port more secure, and more productive.
    However, I have the same concerns with this technology as I do with 
SPAM and Spyware. This committee must embrace this technology for what 
it can do for security and commerce, yet ensure consumers are protected 
from those who will seek to use this technology in ways that intrude 
our privacy and inconvenience us.
    While I commend those entities that are creating an industry 
standard for using this technology, I would also encourage industry to 
develop standards addressing the privacy issue at the onset.
    This is a rare opportunity for this committee. With SPAM and with 
Spyware, there were already millions of Americans adversely affected by 
those abusing this technology. With RFID, we have an opportunity to 
work with those stakeholders pioneering this technology for consumer 
use to ensure this technology benefits consumers, improves the 
productivity of our ports and protects consumer privacy.
    I know this is no small task. However, if we are to enhance 
productivity and convenience, we need to do so responsibly.
    Thank you Mr. Chairman, I yield back the balance of my time.

    Mr. Stearns. With that, we'll move to our panel here and 
we'll go from my left to the right. Dr. Sarma, we'll let you 
start. The opening statements are 5 minutes. We put a clock 
which you should be able to see right there on the desk. It 
goes from green to amber to red and amber tells you you're 
getting near the end and red, of course, is that over time if 
you see that. And with so many people here and we have nine, we 
hope all of you will try and stay within your 5 minutes.
    Dr. Sarma. And Dr. Sarma, we're not going to include your 
demonstration as part of your 5 minutes, so you're welcome to 
take a little extra time.

  STATEMENTS OF SANJAY SARMA, ASSOCIATE PROFESSOR, MECHANICAL 
 ENGINEERING, MASSACHUSETTS INSTITUTE OF TECHNOLOGY; LINDA M. 
    DILLMAN, EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION 
   OFFICER, WAL-MART STORES, INC.; SANDRA R. HUGHES, GLOBAL 
PRIVACY EXECUTIVE, PROCTER & GAMBLE COMPANY; PAULA J. BRUENING, 
  STAFF COUNSEL, CENTER FOR DEMOCRACY AND TECHNOLOGY; WILLIAM 
  GALIONE, VICE PRESIDENT AND GENERAL MANAGER, MARKETING AND 
   SALES AMERICAS, PHILIPS SEMICONDUCTORS; BARRY STEINHARDT, 
 DIRECTOR OF THE TECHNOLOGY AND LIBERTY PROGRAM, THE AMERICAN 
CIVIL LIBERTIES UNION; MARK McLAUGHLIN, SENIOR VICE PRESIDENT, 
 NAMING AND DIRECTOR SERVICES DIVISION, VERISIGN, INC.; CEDRIC 
  LAURANT, POLICY COUNSEL, THE ELECTRONIC PRIVACY INFORMATION 
   CENTER; AND JOHN MOLLOY, MANAGING DIRECTOR, VIATRACE, LLC

    Mr. Sarma. Thank you, Mr. Chairman and thank you to the 
Congressmen.
    Mr. Stearns. You can just move it over. They're all 
portable.
    Mr. Sarma. What I'd like to do is very quickly give you a 
description of RFID and tell you what the ECP is. Let me start 
by saying thank you for excellent introductions. I really 
wanted to show you the technology itself. Let me start by 
asking a very simple question which is what is RFID? And in 
order to explain that, I need to put up a picture. This is an 
RFID tag that I'm holding up. That is another type of RFID tag. 
An RFID tag is a chip and an antenna. It has no battery. It is 
simply a chip and an antenna. And the way an RFID tag works is 
that a reader puts out electromagnetic waves, RF waves, which 
then illuminate the antenna which powers the chip and the chip 
responds. The chip can be very small. It can be the size of a 
grain of sand. The tag which is both in the chip and the 
antenna are about the size of a credit card. So the tag is 
actually much larger.
    In order to explain how this works, it's probably best for 
me to invite Mr. Tom Sharpa who is a researcher at MIT who is 
an expert in RFID who set up the standards in Japan to show you 
how a reader and a tag work together. This is an antenna 
attached to a reader. This is the reader. What Mr. Sharpa is 
holding is an RFID tag. And what I'm going to show you now on 
the screen is the RFID tag being read. Now the first number 
shows you that one tag is being read. The second number shows 
you how often it's being read. It's being read about 50 times. 
The third number which I'll describe more is something called 
the Electronic Product Code. It is the number in the tag. And 
finally, we have some technical numbers on the screen.
    Now if Mr. Sharpa can walk backwards, you will see that as 
he walks away, the range of the tag starts hitting the limit. 
There's a limited range to which you can read these tags. It's 
about 10 feet. It varies from tag to tag. This is an evolving 
technology. It will get better, but it's only about 10 feet.
    Now Tom, if you can come back closer. Why don't you rotate 
the tag, Tom? It turns out that as you rotate the tag, it 
becomes more challenging, depending on the style of tag. Now 
Tom, if you could come closer and put the tag behind your hand. 
It turns out that when he hides it with his hand, the range 
diminishes because propagation of electromagnetic waves through 
many materials, especially water, is somewhat limited and 
certainly if he put it inside his pocket or if he turned around 
and put it behind him, he certainly couldn't read it.
    Now it doesn't mean that you can't read tags without line 
of sight. It is a science that is evolving. You need to tailor 
it and you can get it to work and you can read pallets, you can 
read cases, you can read cases on conveyors, but this is an 
evolving technology.
    Thank you very much, Tom.
    So with that now, let me go back to the EPC tag and this 
EPC term that you've heard and describe to you what it's all 
about. Inside the tag, inside the chip of the tag we saw a 
number. That is called the Electronic Product Code. And 
EPCglobal is an entity that is taking this number, the 
Electronic Product Code and taking all the standards associated 
with RFID tags, everything from the numbering scheme to the 
language the reader speaks to the tag, to the network 
infrastructure required to use RFID tags in the supply chain. 
It's taking all these elements and standardizing them so that 
the supply chain can be brought into the world, into the 
digital world, so that the supply chain which is very opaque 
today, can be endowed with the visibility that the internet is 
endowed in information.
    And where is this all leading? Well, if you take the supply 
chain today, it's very opaque and you have problems that plague 
it. Like if you walk into a grocery store and Linda Dillman may 
be able to comment about the small--if you walk into a grocery 
store, 8 percent of the time for the top selling items you'll 
find it out of stock, 4 percent lost sales. Across the supply 
chain, retailers and manufacturers carry 20 weeks of inventory. 
Counterfeit is a $500 billion problem today worldwide. 
Shrinkage theft is a $50 billion product. And what RFID lets 
you do is take the supply chain and let the partners in the 
supply chain, the manufacturers, the shippers, the retailers, 
see what's going on so they don't have to guess and second 
guess. Does guessing and second guessing--(a) it makes the 
supply chain very inefficient, and (b) it opens up loopholes 
for things like counterfeits and shrinkage.
    And the way I think about it is just as you store money in 
a bank and you can go on the internet today and see how much 
money you have in the bank, the supply chain is actually a 
series of banks. A warehouse is a bank for material. And what 
RFID lets you do and what the internet infrastructure with RFID 
and EPC lets you do is log into this bank and see how much 
inventory you have there. What's my account balance? Do I need 
to transfer money from another account?
    This is what RFID and EPC lets you do and by doing this, 
you reduce guesswork. You make the supply chain more efficient. 
You lubricate the supply chain and finally, you have profound 
impact on things like safety, health and security.
    So I'll end my comments with that. Thank you very much for 
this opportunity to present.
    And Mr. Chairman, if there are any questions, I'm happy to 
take them.
    [The prepared statement of Sanjay Sarma follows:]

  Prepared Statement of Sanjay Sarma, Associate Professor, Mechanical 
           Engineering, Massachusetts Institute of Technology

                              INTRODUCTION

    Chairman Stearns and other members of the subcommittee, thank you 
for inviting me to testify today. The subject you have chosen is one of 
great importance to the conduct of business around the world. I am 
delighted to share my views.
    When I say that the topic of RFID Technology--and the EPCglobal 
Network it makes possible--is one of great importance for business 
around the world, I understand the need to be as clear as possible in 
explaining what I mean by that. I hope that my testimony today will 
serve that purpose.
    The new communications network--a real-time mechanism for providing 
visibility in the global supply chain--we are discussing will have a 
vast impact. It will save billions of dollars and has the potential to 
save many lives. It has dozens of exciting applications that are 
already in development--from identifying counterfeit drugs to 
facilitating product recalls.
    What I'm talking about is a communications network that will 
essentially be an ``Internet of products.'' In this network, inanimate 
objects--chiefly pallets or cases of manufactured goods--will have the 
ability to be identified wherever they are. Much as a dark room becomes 
luminous when lights are switched on, the historically opaque supply 
chains on which so much of the world's economic activity is built will 
become ``visible.'' At any moment, we will be able to tell where a 
given shipment is, the history of its movements through the chain, the 
number of items in the chain, and much more.
    This system represents an enormous advance over bar code 
technology, in part because it is not based on lasers and therefore 
does not require that objects be within the line of sight of the device 
needed to detect them. Instead, the system relies on radio waves that 
can be instantly interpreted by a nearby ``reader'' device with its own 
antenna. Thus, for example, a truckload of inventory delivered to a 
retail warehouse could be read at once instead of having to 
individually identify each pallet and case of product.
    This system offers huge benefits to manufacturers, retailers, 
distributors, and--importantly--consumers. Manufacturers will be able 
to track high-value items, reducing shrinkage, and increasing their 
speed-to-market; they'll also be able to accelerate and better target 
their product recalls. Distributors will see their shipping and 
receiving processes grow in accuracy as they fall in price. Retailers 
will be able to monitor inventories in real time, enabling them to keep 
stocks fresh and cut transportation costs.
    All these improvements will result in substantial benefits for the 
consumer. Consumers will benefit from increased product availability 
and faster removal of recalled products. There's potential for 
increased cost savings as efficiencies gained throughout the supply 
chain are passed along to the consumer.
    The technology also has the potential to save lives. The system can 
help solve the growing challenge of counterfeit drugs, for example, by 
offering a drug tracking and tracing capability. Improved food safety 
is another positive consequence, allowing manufacturers and retailers 
to implement product recalls swiftly and precisely, avoiding potential 
health consequences and improving the integrity of the world's food 
chain.
    There will be benefits in the public sector as well, as evidenced 
by the key sponsorship of RFID by the Department of Defense. DOD 
understands the potential for more efficient purchasing and supply 
tracking. Other organizations are running RFID pilots in critical 
applications like port security.

                    HOW RFID AND EPC TECHNOLOGY WORK

    Radio Frequency Identification (RFID) has been around since World 
War II, when it was used to identify friendly aircraft. Today it is 
used in a variety of applications from office security passes to pay-
at-the-pump convenience services.
    But the use of RFID on the scale now envisioned in the EPCglobal 
Network had to await other advances, such as the computer revolution 
and the Internet.
    Because of these advances, it is now possible to store on a 
microchip a series of zeroes and ones--digital bits--that can uniquely 
identify trillions of different objects--the way bar codes identify 
many of today's products, but with potentially much more information 
about a particular shipment of products. This unique series of digital 
bits is called the Electronic Product Code, or EPC.
    Attach a tiny radio antenna to this microchip and you have an EPC 
``tag,'' a cheaper version of a toll pass which, when asked, can signal 
its assigned number. The tag is not transmitting information actively. 
Secure devices called readers that comply with global standards 
developed through EPCglobal send out radio frequency waves that ``wake 
up'' the tag for a short period of time, enabling it to transmit 
information stored on the tag--namely the Electronic Product Code. The 
EPC can then be matched to the specific product information contained 
in a corresponding database, which is accessed through a secure 
network: the EPCglobal Network.
    With that link complete, manufacturers and their trading partners 
have the ability to interpret not only what the tag is directly telling 
them--the EPC--but all kinds of additional background information, such 
as when it was made and shipped, what lot it came from, and other 
important information related to the movement of global commerce. The 
inventory is completely ``visible,'' assuming you have permission to 
access the data. And, this information can be made as secure as any 
Internet banking application.
    Security of the EPCglobal Network is of primary concern. Even in 
this early stage of development, significant consideration and effort 
has been given to developing the specifications and standards for 
implementing security for all aspects of the network. There are already 
inherent security measures built in to the network. For example, when 
EPC tags pass through EPC readers throughout the supply chain, the only 
information collected is the EPC and the time, date and location of the 
read. Thus, the EPC tag, in and of itself, does not communicate 
meaningful information. All information associated with an EPC is found 
in the network and is only accessible to authorized users behind 
firewalls, encoding and other security measures.
    The process for capturing information is very similar to that used 
by today's bar code technology. What is different is that the 
technology can capture and distribute information more efficiently. For 
example, in a warehouse or distribution center environment, multiple 
tag numbers can be collected at one time through one pass and without 
manually locating and scanning the tag like bar codes.
    The EPC tag also allows for greater depth of serialization 
providing the capacity to uniquely identify one product from another. 
And finally, the information captured can be shared in a secure manner 
across existing networks and information systems, enabling companies to 
identify where products are in the supply chain at any given point in 
time.
    The speed at which this information can be captured, shared, and 
distributed has positive implications for consumers and industry alike. 
Consider this: the bar code, which was standardized by EAN 
International and the Uniform Code Council, Inc. (UCC), is scanned more 
than 10 billion times daily.
    In the same way the bar code revolutionized the global supply 
chain, the EPCglobal Network promises to significantly improve the 
consumer shopping experience and the way organizations move goods from 
one place to the other. It puts the power of RFID to work to provide 
better shopping experiences for consumers and to improve efficiency all 
across the global supply chain.

                    THE AUTO-ID CENTER AND EPCGLOBAL

    In 1999, the Uniform Code Council, Inc. (UCC), a not-for-profit 
standards making body based in Lawrenceville, N.J., which had 
spearheaded the adoption of bar code technology, joined with Procter & 
Gamble and The Gillette Co. in helping establish the Auto-ID (Automatic 
Identification) Center at the Massachusetts Institute of Technology 
(MIT). Sponsorship of the center soon grew to more than 100 global 
companies, and research spread beyond MIT to five other great research 
universities around the world: at the University of Cambridge in the 
United Kingdom; the University of Adelaide in Australia; Keio 
University in Tokyo, Japan; Fudan University in Shanghai, China; and 
the University of St. Gallen in Switzerland. The center's mission was 
to develop RFID for use across the global supply chain.
    The vision was simple: harness the capability of RFID to create a 
world in which we can effectively track products throughout the supply 
chain using a single, global network as products move from one company 
to another, one country to another. The idea behind this vision was to 
make it as easy for one company to read another company's ``tags'' as 
it is for IBM computers to communicate with Apple machines over the 
Internet.
    One focus of the center's work was the development of the 
identification system for objects in the system--the EPC. Another was 
the development of the entire system in which EPC tags could be used--
the EPCglobal Network.
    To develop a universal, open network that can be applied across all 
industries and across all countries--so that individual objects could 
be tracked through the entire global supply chain--requires common 
standards and a common infrastructure, much as commonality is demanded 
by the Internet.
    By November, 2003, enough progress had been made in these efforts 
to create a new organization, called EPCglobal Inc., with the mission 
of developing the technical standards pertaining to the EPCglobal 
Network and driving their adoption across industries and across the 
world. The Auto-ID Center at MIT evolved into the research-focused 
Auto-ID Lab, while EPCglobal took on what had been the center's 
administrative responsibilities. The formation of EPCglobal signaled 
the beginning of the road to the commercialization of EPC technologies.
    EPCglobal is a joint venture of the UCC and EAN International, a 
global, Brussels-based not-for-profit organization similar in purpose 
to the UCC, and which played a key role in the adoption of the bar code 
in Europe. Such parentage provides EPCglobal with a background in user-
driven standards development that is unmatched.
    EPCglobal is supervised by a board of governors drawn from its 
parent organizations, as well as the faculty of MIT and some of its end 
users representing multiple industries, from healthcare to high tech to 
consumer packaged goods.
    The organization is working collaboratively with end-users 
(companies implementing the technology) and solution providers 
(companies building the technology) to build the infrastructure for the 
EPCglobal Network. It is also providing comprehensive implementation 
support, including standards development and maintenance, education and 
training, and certification and compliance programs.

                   THE IMPORTANCE OF GLOBAL STANDARDS

    The key to commercializing EPC is the development of global 
standards. The significance of common standards cannot be overstated. 
The absence of such standards today is the most prominent barrier to 
explosive development of the network. In the absence of common 
standards, organizations could incur high costs to give their products 
multiple-standards compatibility, leading to higher prices.
    Creating an open, global network for RFID based on a set of common 
global technical standards means that companies investing in systems 
can have confidence that the EPC tags they put on their products can be 
read by trading partners across the country or around the world. It 
also means the manufacturers of EPC solutions can make equipment in 
vast quantities, since that equipment will work with anyone's system. 
These economies of scale will reduce equipment prices, giving companies 
an equal opportunity to reap the enormous benefits EPC can bring. All 
companies benefit from an open system.
    A recent Capgemini report estimated that global standards can help 
boost productivity improvements--with 1 percent to 3 percent of supply 
chain costs gained. When you consider that we have a $10 trillion 
supply chain, you can begin to see the magnitude of what's at stake. 
The improvement potential is comparable for both retailers and 
manufacturers, and applies to companies of all sizes.
    Subscribers to the EPCglobal Network have the opportunity to 
participate in the development of network standards. EPCglobal, like 
its parent organizations, UCC and EAN International, is open and 
neutral, as well as highly user driven. The standards development 
process works through a submissions track, which is designed to ensure 
that business requirements are captured, and a standards track, 
designed to create them, test and eventually ratify them.
    Much of the work is done through Working Groups and Action Groups 
who comprise international users from a variety of industries who are 
charged with defining business and technical requirements for the 
EPCglobal Network. Action groups, for example, help develop the 
foundational building blocks of the EPCglobal Network, working toward 
the creation of industry standards and commercial adoption.
    Current action groups that have been established include:

 The Business Action Group, which is comprised of representatives from 
        companies that currently use or plan to use EPCglobal Network 
        technology. The group's aim is to establish business 
        requirements and use cases across multiple industries to 
        facilitate supply chain efficiency.
 The Hardware Action Group, which develops specifications for key 
        hardware interface components of the EPCglobal Network, 
        including the air, interface protocols between readers and 
        tags.
 The Software Action Group, which creates the system software 
        architecture and system specifications for reader management, 
        middleware, and EPC Information Services, which connect trading 
        partners for secure data queries.
    This thorough and collaborative standards development process is 
open and inclusive. The organization leads a neutral, consensus-based 
process where every company has the opportunity to contribute.

                      PUBLIC POLICY CONSIDERATIONS

    For the EPCglobal Network to reach its full potential, certain 
protections must be built into the system. It is EPCglobal's position 
that addressing concerns, such as consumer privacy, is as important as 
anything the organization is doing. Reflecting that understanding, the 
sponsors of the network adopted guidelines for use by all companies 
engaged in the large-scale deployment of EPC. These guidelines are 
intended to complement the national international laws and regulations 
dealing with consumer protection, consumer privacy, and related issues. 
The guidelines state:

 Consumers will be given clear notice of the presence of EPC on 
        products on their packaging.
 Consumers will be informed of the choices they have to discard, 
        disable, or remove EPC tags from the products they acquire. (It 
        is anticipated that for most products, the EPC tags would be 
        part of disposable packaging or would be otherwise easy to 
        discard.)
 Consumers will have the opportunity to easily obtain information 
        about EPC and its applications, as well as information about 
        advances in the technology. Companies using EPC tags at the 
        consumer level will cooperate in appropriate ways to 
        familiarize consumers with the EPC logo and to help consumers 
        understand the technology and its benefits.
 Companies will use, maintain, and protect records generated through 
        EPC in compliance with all applicable laws.
    These guidelines demonstrate that EPC participants are committed to 
addressing the issue of consumer privacy and engaging in a constructive 
and on-going dialogue with interested parties. The overriding goal of 
the guidelines is to provide a responsible basis for the use of EPC 
tags on consumer items. Under the auspices of EPCglobal, these 
guidelines will continue to evolve as advances in EPC and its 
applications are made and consumer research is conducted.
    To foster continued dialogue with key audiences about public policy 
and other important areas, EPCglobal and some of the industry sectors 
with which it's working have also formed the EPC Public Policy Steering 
Committee (PPSC). The committee and its working groups will include 
representatives of industries and trade associations worldwide, from 
healthcare, technology, food, consumer products, retail and others. The 
PPSC owns responsibility for the Consumer Policy Guidelines and will be 
working closely with industry, consumers, and government leaders to 
communicate the benefits of the technology, as well as understanding 
the complex issues surrounding consumer privacy.

                               CONCLUSION

    The EPCglobal Network will be focused on the supply chain--and, in 
the first few years, almost entirely at the case and pallet level, in 
factories, back-rooms, distribution centers, and warehouses. As the 
price of implementation falls, EPC applications will spread to the 
consumer unit level, where it can be used to manage shelf inventory and 
identify counterfeit products.
    The savings to the economy will be significant. Accenture, a 
consulting firm, estimated that RFID could eliminate 15 to 30 percent 
of missing inventory. Estimates are that the retail industry alone 
loses more than $50 billion a year to theft, paperwork errors, and 
vendor fraud. Product counterfeiting costs another $500 billion a year 
worldwide. At the same time, it's estimated the technology can increase 
revenues by 1 to 2 percent, by reducing out-of-stock items.
    Consumers should benefit from these reduced costs. And, in the case 
of product recalls, the merchandise can be tracked quickly. Their 
medicines will more likely be genuine; today, according to the World 
Health Organization, 7 percent of global pharmaceuticals are 
counterfeit.
    As with any technology, however, it is impossible to anticipate the 
full spectrum of uses to which RFID Technology and the EPCglobal 
Network will be placed. This testimony has been focused entirely on the 
supply chain, because that is where the interest primarily now lies and 
what the current technology is capable of providing.
    Thank you for the opportunity to present EPCglobal's position on 
the many benefits associated with this exciting technology and the 
organization's commitment to protecting consumer privacy.

    Mr. Stearns. And I thank you.
    Ms. Dillman.

                  STATEMENT OF LINDA M. DILLMAN

    Ms. Dillman. Good morning, Mr. Chairman, members of the 
committee. I have submitted written testimony to go in the 
record. If I may, I'd like to read a summary of that testimony.
    Mr. Stearns. Sure, sure. All of your statements are part of 
the record by unanimous consent and they're all in there and if 
you want to read them, you can, or you don't have to.
    Ms. Dillman. I'm the Executive Vice President and Chief 
Information Officer for Wal-Mart. Wal-Mart is the Nation and 
world's largest retailer, with facilities in all 50 states and 
10 countries. Wal-Mart was the first retailer to join MIT's 
AUTO-ID lab in 1999 because we recognized that RFID had the 
potential to reduce out of stock conditions through the 
introduction of what has now become known as an Electronic 
Product Code or EPC.
    In July 2003, we asked our top 100 suppliers to begin using 
RFID tags on cases and pallets of products destined for our 
North Texas Distribution Centers by January 2005. It's 
important to note that we chose to focus on case and pallet 
level tagging. We did not and are not requesting item level 
tagging.
    On April 30, 2004, Wal-Mart moved EPCs from our laboratory 
environment to an actual field pilot program. Currently, we 
have cases and pallets of 21 products from 8 suppliers destined 
for 1 distribution center and 7 super centers in North Texas 
being tagged.
    While the pilot is less than 2 months old, we have found 
that EPCs help us gain visibility into the supply chain process 
and improve our merchandise availability. We are so confident 
in the application of this technology that we have asked our 
next top 200 suppliers to begin tagging cases and pallets of 
product by January 2006.
    We further expect to have all of our more than 20,000 
domestic suppliers participating in the program within the next 
30 months.
    Retailers such as Wal-Mart focus significant effort on 
ensuring items are in stock and ready for sale. During peak 
shopping times, such as a Saturday afternoon, it is a challenge 
to keep items that sell quickly like health and beauty aids in 
stock and actually on the shelf. With RFID tags attached to the 
cases and readers placed strategically throughout the stores 
back room, we can tell the last reader that a case went by and 
to help us determine whether the case went out to the floor to 
be stocked or it's still in the back room.
    Concerns have been raised about potential privacy abuses 
with RFID technology. Wal-Mart is committed to protecting the 
privacy of our customers. There is no additional information 
about individuals, available or collected, via RFID because 
Electronic Product Codes identify products and not people.
    During 2004 to 2006, Wal-Mart will continue to focus on 
case and pallet level tagging. However, because some cases also 
serve as consumer packaging, there will be instances where a 
consumer could purchase a product which bears an RFID tag. We 
have currently three products in our pilot program that are 
exactly that, two HP printers and one HP scanner. Because of 
that, we have ensured that the tags are on the outermost 
packaging, so not on the product itself and adhering to the EPC 
global privacy guidelines are marked with an EPC global symbol.
    Additionally, we place signage near the front doors of our 
stores participating in the pilot, more signage on the shelves 
where the products are sold, and we placed tearaway leaflets 
that provide additional consumer education on EPCs on the same 
shelf. The leaflets explain the project and inform consumers 
that they have the option to keep the tag or discard it at any 
point post-purchase.
    Currently, EPCs will help us address the merchandise 
availability issue. In the future, EPCs have the potential to 
help us minimize wait time at checkouts, expedite returns and 
warranty processing and more effectively handle recalls. They 
also have the very real potential to make substantial progress 
in the fight against counterfeit pharmaceuticals. To realize 
all of these benefits to the fullest extent possible, however, 
EPCs will ultimately need to move to the individual item level. 
We believe that's at least 10 years away.
    As the Chief Information Officer for Wal-Mart, I spend a 
great deal of time working to ensure the privacy of our 
customers. There is definitely an inherent responsibility for 
companies using RFID to address privacy issues. We believe 
that's best done through adherence to the EPC global guidelines 
which champion consumer notice and consumer choice.
    As you review the potential of RFID technology, the most 
effective action that Congress could take is to underscore to 
any organization employing the technology that the substantial 
privacy protections already in place are not to be ignored in 
written or as in spirit. It's also important for Congress to 
support EPC global efforts to ensure a single global standard 
for RFID technology so that American companies can effectively 
compete around the world and American consumers can receive all 
the potential benefits.
    Thank you.
    [The prepared statement of Linda Dillman follows:]

Prepared Statement of Linda Dillman, Executive Vice President and Chief 
               Information Officer, Wal-Mart Stores, Inc.

    On behalf of Wal-Mart Stores, Inc., I appreciate the opportunity to 
provide written comments to the House Committee on Energy and Commerce 
Subcommittee on Commerce, Trade and Consumer Protection concerning the 
expansion of radio frequency identification (RFID) technology into new 
industries and the potential impact on consumers.
    Based in Bentonville, Arkansas, Wal-Mart is the nation and world's 
largest retailer, with facilities in all 50 States and 10 countries. 
The Company operates more than 3,030 discount stores, Supercenters, 
Neighborhood Markets and more than 530 SAM'S CLUBS in the United 
States. Internationally, the Company operates in Argentina, Brazil, 
Canada, China, Germany, Mexico, Puerto Rico, South Korea, and the 
United Kingdom. Wal-Mart also owns a 37.8 percent interest in Seiyu, 
Ltd, a leading retailer in Japan with options to purchase up to 66.7 
percent of that company. Wal-Mart employs more than 1.2 million 
associates in the United States and more than 300,000 internationally.

                       INTRODUCTION AND OVERVIEW

    As a leader in the use of technology to enhance the consumer 
experience, Wal-Mart was the first retailer to become involved with 
RFID technology. Our interest is focused around developing a method by 
which to improve the efficiency of our supply chain.
    It should be noted that RFID technology is not new. In fact, it was 
first employed during World War II when it was used to help identify 
allied planes from opposition aircraft. Over the past half century, 
many consumers have come to use RFID technology--most recently in 
cashless toll booths and keys that significantly reduce automobile 
theft.
    Many industries, including retail, have been keeping abreast of 
these developments to learn if RFID technology can help solve existing 
challenges that continuously frustrate customers, including lost 
baggage during air travel and out-of-stocks when shopping at a retail 
outlet. Today, through the hard work of the Massachusetts Institute of 
Technology's (MIT) AUTO-ID Center and its successor, EPCglobal, along 
with the support of companies like Wal-Mart that have encouraged their 
research, it is clear that RFID technology can help companies solve 
these problems.
    Wal-Mart's efforts are focused on trying to enhance the customer 
experience inside the store. It is important to understand that Wal-
Mart does not adopt a technology and then create uses for it. Instead, 
we seek technology to help us tackle existing and potential challenges 
that prevent us from delivering complete customer satisfaction.

                      HOW WAL-MART BECAME INVOLVED

    Wal-Mart was the first retailer to join MIT's AUTO-ID Center in 
1999. We, along with others, funded research on the potential of using 
RFID in the retail and consumer packaged goods sector. We began testing 
in 2000 and after reviewing the state of this technology in 2001, we 
created our own RFID lab in Rogers, Arkansas. We did our own research 
in addition to supporting the AUTO-ID Center. We consulted with 
experts. We reviewed RFID uses already in place. We did all of this to 
determine whether this technology could help us solve themerchandise 
availability issue. We recognized after reviewing RFID that it had the 
potential to significantly help reduce out-of-stock conditions through 
the introduction of what has now become known as an Electronic Product 
Code or EPC. In June 2003, convinced that it could, we challenged our 
top 100 suppliers--representing some of the most innovative companies 
in America--to begin using RFID tags on cases and pallets of products 
destined for our three North Texas distribution centers by January 
2005. These distribution centers ship products to 150 of approximately 
3500 Wal-Mart stores. It is important to note that we chose to focus on 
case- and pallet-level tagging. We did not, and are not, requesting 
item-level tagging.
    We believe this challenge not only set direction for a new era in 
merchandise availability but also spawned a new market for technology 
companies, both those long established and others in their infancy, to 
be at the forefront of this revolutionary effort. Since Wal-Mart 
announced its EPC goals, other retailers, such as Albertsons and 
Target, have announced similar projects as well. The U. S. Department 
of Defense has also announced a similar RFID initiative.
    On April 30, 2004, Wal-Mart moved EPCs from the laboratory 
environment to an actual field pilot program. Currently, cases and 
pallets of 21 products <SUP>1</SUP> from eight suppliers <SUP>2</SUP> 
destined for one distribution center and seven Supercenters 
<SUP>3</SUP> in North Texas are being tagged. At our Sanger, Texas, 
distribution center, we have placed readers at our receiving doors, 
above our conveyor belt systems, and at our shipping doors. At the 
seven Supercenters, we have placed readers at the receiving doors, at 
strategic points throughout the stores' backrooms, at the door to the 
sales floor, and at the trash compactor. There are no readers on the 
sales floor, at the check stands, or at customer entryways or exits. 
The readers assist Wal-Mart in knowing when a product is received, 
where it is stored, when it goes out to the sales floor, if it returns 
for any reason, and when the case is submitted for recycling. This 
information is shared with our suppliers to assist them with their 
inventory planning.
---------------------------------------------------------------------------
    \1\ The products include various brands of computer printers, 
scanners, paper towels, lotion, cat food, shampoo, feminine hygiene 
products, laundry detergent, deodorant, shaving cream, soap, 
toothpaste, and peanuts.
    \2\ The eight suppliers are The Gillette Company, HP, Johnson & 
Johnson, Kimberly-Clark, Kraft Foods, Nestle Purina PetCare Company, 
The Procter & Gamble Company, and Unilever.
    \3\ Specifically in the communities of The Colony, Decatur, Denton, 
Hickory Creek, Lewisville, and Plano.
---------------------------------------------------------------------------
    While the pilot is less than two months old, it has demonstrated 
that EPCs can help us gain additional visibility into the supply chain 
process and improve merchandise availability. We are so confident in 
the application of this technology, that we have challenged our next 
top 200 suppliers to begin tagging cases and pallets of products by 
January 2006. We further expect to have all of our more than 20,000 
domestic suppliers participating in the program within the next 30 
months.

                 THE NEED FOR MULTI-INDUSTRY STANDARDS

    With the introduction of any new technology there are factors that 
can accelerate its adoption rate. At the heart of this is the need for 
multi-industry standards. While you will hear more about the technology 
itself from others here today, let me share that, in the simplest 
terms, an EPC can be thought of as a better barcode, a staple of retail 
that just celebrated its 30th anniversary last month. An EPC contains 
the same Universal Product Code (UPC) number as a barcode plus a 
specific identifier--a license plate, if you will--that allows us to 
tell one box of product from another, something that could prove 
especially useful during product recalls. Another potential future use 
of this tag will be in tracking food safety and ensuring that fresh and 
frozen items have been maintained at safe temperatures from the time 
the package is prepared, through the distribution process, to the time 
that is sold to the consumer.
    Electronic product code information is stored on a microchip that 
is then attached to a tag that also includes antennae. The RFID tags 
carrying the EPC at Wal-Mart are passive tags, meaning they contain no 
internal power source. A ``reader'' sends radio waves to the tag, 
activates the chip, and allows it to then transmit its data back to the 
reader and onto the appropriate internal computer system. The reader is 
an FCC Part 15 compliant device that transmits with only 1 watt per 
channel. Wal-Mart is using the 900 MHz radio frequency range for our 
case and pallet deployment. This radio frequency is similar to those 
used by some cordless telephones. The Federal Communications Commission 
regulates both the wattage and the frequency spectrum assigned to the 
readers and tags.
    We can look to the implementation of the bar code in the retail and 
consumer package goods sectors and learn an important lesson. The 
creation of an international body to develop multi-industry standards 
is critical for the adoption rate. You will hear more today about 
EPCglobal, the organization that was formed in 2003 for these purposes. 
It is a not-for-profit organization entrusted by industry to establish 
and support the Electronic Product Code (EPC) Network as the global 
standard for immediate, automatic, and accurate identification of any 
item in the supply chain of any company, in any industry, anywhere in 
the world. The retail industry needs low-cost tags for the limited 
amount of data that is recorded and transmitted during the supply chain 
process. The creation of an international standards body is the 
foundation.

                        MERCHANDISE AVAILABILITY

    Retailers must insure that any item is in-stock and on the shelf 
when the consumer is ready to purchase it. Today, we know how many 
items are in the store, but we do not know where they are located. 
Fully one-third of our inventory in a store is not on the shelf. It may 
be at the receiving dock and in the process of being unloaded. 
Thousands of items may be stored in the mini-warehouse in the back of 
the store. Some of them may have been temporarily relocated to another 
area for space reasons. Today we do not have an adequate ability to 
know whether those cases were taken out to the sales floor or placed on 
a storage shelf.
    During peak shopping times, such as Saturday afternoon, it is a 
challenge to keep items that sell very quickly, such as health and 
beauty aids, in stock and on the shelf. Wouldn't the consumer have a 
better shopping experience if the stock clerk was notified in time to 
avoid an out-of-stock condition and where to find the replacement 
merchandise? With RFID tags attached to the cases and readers placed 
strategically throughout the store's backroom, we can tell the last 
reader those cases passed by, helping us determine whether the cases 
went out to be stocked or are just 15 feet away from the dock door 
through which they arrived.
    The lack of merchandise availability at the point of sale, referred 
to as ``out-of-stock'' in the retail industry, is a tremendous 
opportunity. According to a study of this issue done by Emory 
University in 2002, the average retailer loses 4 percent of its sales 
due to out-of-stock conditions. An empty shelf represents 
disappointment and frustration to the consumer, a lack of a sale for 
both retailer and the supplier, and the potential loss of future 
business for that particular store and product brand. Retailers, such 
as Wal-Mart, focus significant effort on ensuring items are in-stock 
and ready for sale. We recognize that the entire supply chain process 
needs to be optimized. There is room for improved efficiencies in 
distribution centers as well as in the store's receiving process. The 
ability to track items through-out the supply chain will provide 
benefits to the suppliers and their upstream manufacturers. The fact 
that the issue remains a challenge for the industry demonstrates that 
more needs to be done and that it must be a collaborative effort 
involving retailers, suppliers, and technology providers.

                    CONSUMER PROTECTION AND PRIVACY

    Concerns have been raised about potential privacy abuses with RFID 
technology. It has been said that retailers, for example, will be able 
to track customers and know when they open a can of soda inside their 
homes. Opponents of this technology are wrong for two reasons. First, 
the technology does not exist for a retailer to drive through a 
neighborhood, 40 feet from a home, and read passive RFID tags--the kind 
being used by the retail industry--through walls. The power required to 
generate such a read could end up destroying the tag if it were even 
able to reach it. Second, and more importantly, there is no desire on 
the part of retailers to be able to do that. Our efforts are focused on 
trying to enhance the customer experience inside the store. Wal-Mart is 
committed to protecting the privacy of our customers. There is no 
additional information about individuals available or collected via 
RFID because electronic product codes identify products, not people.
    During 2004 to 2006, Wal-Mart will continue to focus on case-and 
pallet-level tagging. However, because some cases also serve as 
consumer packaging <SUP>4</SUP>, there will be instances where a 
consumer could purchase a product which bears an RFID tag. We currently 
have three products in our pilot program--two HP printers and one HP 
scanner--where this is the case. These tags are on the outermost 
packaging of the product and, adhering to EPCglobal privacy guidelines, 
are marked with an EPCglobal symbol. Additionally, we have placed 
signage at the front doors of our stores participating in the pilot, 
more signage on the shelves where these products are sold, and we have 
placed tear-away leaflets that provide additional consumer education on 
EPCs on those same shelves. The leaflets explain the project and inform 
consumers that they have the option to keep the tag or discard it at 
any point post-purchase.
---------------------------------------------------------------------------
    \4\ This is especially true for electronic items such as 
televisions and computer equipment. It also is true for large products 
such as lawnmowers and bicycles.
---------------------------------------------------------------------------
    The local Dallas/Fort Worth news media has spoken independently 
with customers visiting these stores about Wal-Mart's EPC effort. Those 
interviews <SUP>5</SUP>, which can be culled from the papers and TV 
broadcasts, reveal that consumers are open to the new technology and 
the benefits it can bring them.
---------------------------------------------------------------------------
    \5\ Specifically the May 6th KXAS-TV NBC Channel 5 broadcast.
---------------------------------------------------------------------------
    Currently, EPCs will help us address the merchandise availability 
issue. In the future, EPCs have the potential to help us minimize wait 
times in checkout lines, expedite returns and warranty processing, and 
more effectively handle recalls. They also have the very real potential 
to make substantial progress in the fight against counterfeit 
pharmaceuticals. In fact, Wal-Mart is currently working on a small 
trial to track Class II pharmaceuticals with several prominent 
pharmaceutical suppliers and in cooperation with the Federal Drug 
Administration.
    To realize all of these benefits to the fullest extent possible, 
EPCs will ultimately need to move to the individual item level. 
However, that is at least 10 years away. First, technology prices must 
come down such that it is economically feasible to place a tag on a 20-
cent package of chewing gum. Second, mass adoption of the technology 
will be required to achieve a benefit at the check stand. And third, 
consumers will have to embrace the technology.
    The concerns mounted to RFID by privacy groups are reminiscent 
those associated with the birth of the barcode 30 years ago. If you 
remember back then, there were concerns about the barcode being able to 
track data and how prices would no longer be marked on shelves but 
rather made available to consumers only upon checkout. Those fears 
proved unfounded.
    As Chief Information Officer for Wal-Mart, I spend a lot of time 
working to ensure the privacy of our customers <SUP>6</SUP> (see 
attached). We do not seek to gather huge amounts of personal data about 
our customers. Instead, our focus is on trying to do correctly the most 
basic of things: Have the right merchandise on the shelves when 
customers want to buy it at a price they can afford in places 
convenient for them to shop. EPCs and RFID will help us do that.
---------------------------------------------------------------------------
    \6\ Wal-Mart's complete Privacy Policy can be found at 
www.walmartstores.com under the link Privacy and Security.
---------------------------------------------------------------------------
    There is definitely an inherent responsibility for companies using 
RFID to address privacy issues. We believe that is best done through 
adherence to existing EPCglobal guidelines, which champion consumer 
notice and consumer choice. EPCglobal has established a Public Policy 
Advisory Committee. This committee maintains, reviews and updates EPC 
Guidelines, develops an effective oversight role in conjunction with 
the proper use of EPC Guidelines and dialog with consumer advocacy 
groups. Committee membership is made up of senior level executives from 
companies deploying EPC and an independent privacy expert. The 
committee reports directly to the CEO of EPCglobal who is invited to 
all meetings. The committee involves both retailers and manufacturers 
and is geographically dispersed.

                               CONCLUSION

    As you review the potential of RFID technology, the most effective 
action that Congress could take is to underscore to any organization 
employing RFID technology that the substantial privacy protections 
already in place are not to be ignored as written or in spirit. It is 
also important for Congress to support EPCglobal efforts to ensure a 
single global standard for RFID technology so that American companies 
can effectively compete around the world and so that American consumers 
can receive all of the potential benefits this technology has to offer.
    Wal-Mart appreciates the opportunity to present our views. We are 
prepared to assist members of the Subcommittee in any manner as it 
continues to consider the important impact RFID technology will have on 
American consumers.
                                 ______
                                 
     Wal-Mart Stores, Inc. Privacy Policy for Customers and Members
    One of Wal-Mart's Three Core Basic Beliefs is ``Respect for the 
Individual.'' Accordingly, we (Wal-Mart Stores, Inc. and our 
Affiliates--SAM's Club, Walmart.com, Samsclub.com, and any other 
companies in which we have a majority ownership interest) will collect 
and use personal information of customers and members only as follows:
Our purpose in collecting personal information.
    Personal information means information about you which is, or can 
be, tied to you as an individual.
    We collect personal information to:

 deliver the products and services you want;
 administer our businesses;
 develop and communicate special offers;
 provide customer service; and
 respond to legal process (such as subpoenas and warrants).
What information we collect and how we collect it.
    The information we collect may include:

 contact information, identification numbers, account numbers, product 
        preferences, and other information you provide when you do 
        business with us, either online, in our stores, or at our 
        membership warehouse clubs, or sign up for certain services, 
        such as a gift registry or personalized website account;
 technical information (such as your Internet Protocol address, your 
        computer's operating system and browser type, and the address 
        of a referring website, if any, and the path you take through 
        our web pages) when you visit our websites; and
 financial and health care information provided by you and third 
        parties (such as credit bureaus, health care providers, 
        insurers, etc.) in connection with your transactions.
    When you visit our websites, we may place a ``cookie,'' a small 
computer file, on your computer to help us recognize and serve you 
better when you return. You may delete this cookie from your computer. 
You may also set your Internet browser to reject cookies, however, 
doing so may limit the functionality of our websites.
    At some stores and clubs we may record your presence on security 
monitors for safety and security purposes.
How we use personal information.
    We do not sell or rent personal information to others.
    We do not use cookies to track movements on websites other than our 
own.
    We do not disclose personal information to non-Affiliates except in 
the following situations:

 when you request or give us permission to do so;
 when we use service providers and contractors (such as credit card 
        issuers, check cashing bureaus, or data processors, mailing and 
        fulfillment houses, customer service or research companies, 
        etc.) for limited purposes to assist us in completing our 
        transactions with you, maintaining or conducting our business, 
        or doing customer research;
 when appropriate to prevent harm or injury (such as for product 
        recalls, preventing fraud, or handling claims or other 
        liabilities), or to comply with valid legal process and 
        applicable laws.
    We may share information with Affiliates for these same reasons and 
also to let you know about special offers, new products and services, 
Rollbacks, and other great values, unless such sharing is prohibited by 
law. We may share with Affiliates and non-Affiliates statistical 
information that does not identify you individually.
We take reasonable steps to protect your personal information.
    We maintain reasonable physical, technical, and procedural measures 
to limit access to personal information to authorized individuals with 
appropriate purposes.
Financial, health care, and international data.
 Financial Information: If you are a check cashing customer, you will 
        receive a separate policy concerning personal information we 
        receive in that relationship.
 Health care information: In addition to the policies discussed above, 
        we have more detailed information about how we handle your 
        health care information in our Notices of Health Care 
        Information Privacy Practices. Wal-Mart has a separate Health 
        Insurance Portability and Accountability Act (HIPAA) Privacy 
        Policy that is available by contacting the addresses listed 
        below.
 International customers and members: If you provided information to 
        us from a country other than the United States, your 
        information may be transmitted to, and processed by us or our 
        service providers in the United States or other countries other 
        than your own. If you provided information from a country that 
        grants specific additional privacy rights, contact us at the 
        addresses listed below to exercise your rights.
Modifications to our privacy policies.
    We reserve the right to change our privacy policies at any time, 
except as may be prohibited by law. We will post revisions online and 
in locations in our stores and clubs that we consider appropriate. Use 
of our websites or services or the purchase of products after posted 
changes means that you consent to the privacy policies as changed.
Contact us for more information about our privacy policies.
    If you have questions about our privacy policies, contact us at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d3d3f243b2c2e340d3a2c2160202c3f39632e2220">[email&#160;protected]</a> or Wal-Mart Stores, Inc., Attention: Privacy 
Office, 702 S.W. 8th Street, Bentonville, AR 72716-0860.

    Mr. Stearns. Thank you.
    Ms. Hughes, welcome.

                  STATEMENT OF SANDRA R. HUGHES

    Ms. Hughes. Thank you, Chairman Stearns and members of the 
subcommittee for the opportunity to testimony today on this 
important issue. My name is Sandy Hughes and I am the Global 
Privacy Executive for the Procter & Gamble Company. I oversee 
P&G's global privacy program and am a member of P&G's 
Electronic Product Code team or EPC team.
    As background, Procter & Gamble manufacturers and markets 
over 300 consumer product brands to people in 140 countries. 
These brands include Tide, Crest, Pantene, Pampers, Vicks, Olay 
and Prilosec. Hopefully, you recognize a couple of those. We 
have over 90,000 employees worldwide and are headquartered in 
Cincinnati, Ohio.
    Procter & Gamble is pursuing the use of Electronic Product 
Code or EPC to create efficiencies in the supply chain.
    Today's supply chain systems are outdated and not meeting 
the needs of our consumers. It is frustrating when you go to 
your local supermarket to buy your favorite flavor of Pringles 
and the shelf if bare. It can result in a lost sale for P&G and 
for the retailer. Theft and counterfeiting are growing problems 
as well. Worldwide theft costs retailers $50 billion a year and 
counterfeiting is a $500 billion problem.
    Since the inception of EPC in 1999, we have moved from the 
laboratory to testing the technology in real world supply chain 
situations. We are conducting pilot tests with pallets and 
cases with partners Wal-Mart and Target in the U.S. and Metro 
in Europe. In this test phase, we are still working to resolve 
technical issues with EPC. For example, the speed at which 
tagged cases and pallets pass by readers as well as the type of 
products, such as liquids and metallic packaging, affect the 
readability and reliability of the technology to read 
information about the product.
    P&G is also a member of a pharmaceutical industry group 
supported by the FDA, to test how EPC can help prevent drug 
shortages and counterfeiting and make product recalls easier 
and more efficient. EPC is a powerful tool to deal with 
expiration date management, diversion, reduction in medication 
errors, product security and consumer safety, all important 
issues for the pharmaceutical industry.
    Down the road as P&G learns more about the technology, 
there may be opportunities to eliminate costs and generate 
additional benefits for the supply chain and consumers through 
item level tagging. We believe it will be several years before 
the technology is affordable enough and the benefits great 
enough to be used on individual consumer product items. Like 
any new technology, as has been the case with the internet, 
responsible use requires considerable forethought by those 
developing and using the technology. That is why we have worked 
at these early stages to address privacy concerns associated 
with item level tags.
    P&G recognizes that in order for consumers to accept EPC, 
they must understand the benefits for them and be confident 
that their privacy will be protected. P&G has a long history of 
responsible treatment of personal information and commitment to 
good privacy practices. As a consumer products manufacturer, we 
rely on information about our consumers to better understand 
their needs in order to produce superior products, information 
and services to meet them. P&G has an enormous stake in 
fostering an environment of trust in which consumers 
confidently share their information with us. Creating this 
climate of trust includes making sure that our practices meet 
or exceed consumer expectations and contributing to industry 
and policy initiatives that enable other companies to do the 
same.
    I must emphasize that EPC tags do not contain or collect 
personal information, nor are they intended to. But there is a 
perception that the technology could be used in this way. That 
is why we are working so hard to educate consumers about the 
facts versus the myths surrounding EPC.
    We worked with our EPC global partners to craft usage 
guidelines for item level EPC in the fall of 2003. To 
complement these guidelines, P&G's internal position based on 
the pillars of fair information practices are as follows: Clear 
and accurate notice should be provided where EPC is being used 
and consumers should be informed as to whether products they 
are buying contain EPC tags. Consumers should have a choice to 
permanently disable or discard the EPC tag on products that 
they buy and this should be done without incurring cost or 
penalty. They should also have a choice as to whether 
personally identifiable information about themselves is 
electronically linked to the EPC number on products they buy 
beyond what is done with barcodes today.
    We will not pursue item level tagging with partners who are 
not able to ensure privacy protection for consumers. We serve 
consumers. To do otherwise would not meet our core mission or 
business objectives.
    P&G is informing our consumers about the pilot tests we are 
conducting. Up-to-date information about current tests, 
locations, brands and type of test, whether it's a pallet/case 
or case/item, can be found on our company website at 
www.pg.com. And I would be happy to address the Congresswoman's 
issues about the lipstick test during Q and A.
    In any pilot where a consumer could come in contact with an 
EPC tag, P&G affixes a label to the case that notifies the 
consumer of the presence of the tag. P&G, along with other end 
users and EPCglobal have participated in a Federal Trade 
Commission workshop on RFID. The FTC has played an important 
role in educating consumers on issues such as safe internet 
surfing, on-line shopping tips and protecting consumers against 
ID theft. We are enthusiastic about the potential for FTC to 
contribute to consumer education and outreach on RFID as well.
    In summary, I want to emphasize that EPC is in the early 
stages of development. The success of EPC depends on 
collaboration, global standards and affordable technology. We 
need the on-going support and involvement of retailers, 
manufacturers and other industry bodies to adopt the EPC 
system. EPC must become the single global standard in order for 
the full efficiencies of the technology to be realized and we 
believe the U.S. Government can help with this.
    Procter & Gamble is working hard to ensure that EPC will be 
a win-win for all.
    Thank you.
    [The prepared statement of Sandra R. Hughes follows:]

   Prepared Statement of Sandy Hughes, Global Privacy Executive, The 
                        Procter & Gamble Company

    Thank you, Chairman Stearns and members of the Subcommittee, for 
the opportunity to testify today on this important issue. My name is 
Sandy Hughes and I am Global Privacy Executive for The Procter & Gamble 
Company. I oversee P&G's global privacy program and am a member of 
P&G's Electronic Product Code (EPC) team.
    As background, Procter & Gamble manufactures and markets over 300 
consumer product brands to people in 140 countries. Two billion times a 
day, P&G brands touch the lives of people around the world. These 
brands include Tide, Crest, Pantene, Pampers, Vicks, Olay and Prilosec. 
We have over 90,000 employees worldwide and are headquartered in 
Cincinnati, Ohio.
    I will briefly explain why P&G is investing in Electronic Product 
Code technology and how we are using EPC. We are currently in the early 
phases of testing and learning about the costs and benefits of the 
technology and we are working to gain consumers' confidence and trust 
in EPC and ensure that their privacy is protected.

                      WHY P&G IS INVESTING IN EPC

    Procter & Gamble is pursuing the use of Electronic Product Code 
(EPC) to create efficiencies in the supply chain. As you have heard 
from Dr. Sarma, EPC is a way to uniquely identify a pallet, case or 
individual product using radio frequency identification (RFID) 
technology. It's similar to today's bar code, but with many more 
potential uses and benefits. P&G is a founding sponsor of MIT's Auto-ID 
Center because we realized the enormous potential to improve processes 
in the entire supply chain--from our plants to retail distribution 
centers to store shelves. The real time, automated, accurate 
information that EPC generates will benefit manufacturers, retailers, 
suppliers and most importantly, consumers.
    Today's supply chain systems are outdated and not meeting the needs 
of our consumers. EPC offers potential solutions for problems like out-
of-stocks, theft and counterfeiting, as well as reducing inventory 
levels. We know that out of stock levels are higher than we, our retail 
partners and our consumers want. It is frustrating when you go to your 
local supermarket to buy your favorite flavor of Pringles and the shelf 
is bare. It can result in a lost sale for P&G and for the retailer. To 
guard against out of stocks, we keep an average of 65 days worth of 
product inventory, which costs us $3 billion a year. Theft and 
counterfeiting are growing problems as well. Worldwide theft costs 
retailers $50 billion a year and counterfeiting is a $500 billion 
problem.

                     TESTING AND LEARNING ABOUT EPC

    Since the inception of EPC in 1999, we have moved from the 
laboratory to testing the technology in real world supply chain 
situations where we are conducting pilot tests with pallets and cases 
with partners Wal-Mart and Target in the US and Metro in Europe. The 
technology is still evolving and we are continuing to learn about EPC. 
In this test phase, we are still working to resolve technical issues 
with EPC. For example, the speed at which tagged cases and pallets pass 
by the readers as well as the type of products, such as liquids and 
metallic packaging, affect the reliability of the technology to read 
information about the product.
    P&G is also a member of a pharmaceutical industry group, supported 
by the FDA, to test how EPC can help prevent drug shortages and 
counterfeiting and make product recalls easier and more efficient. EPC 
is a powerful tool to deal with expiration date management, diversion, 
reduction in medication errors, product security and consumer safety, 
all important issues for the pharmaceutical industry.
    Down the road as P&G learns more about the technology, there may be 
opportunities to eliminate costs and generate additional benefits for 
the supply chain and consumers through item level tagging. We believe 
it will be several years before the technology is affordable enough and 
the benefits great enough to be used on individual consumer product 
items. Like any new technology, as has been the case with the Internet, 
responsible use requires considerable forethought by those developing 
and using the technology. That is why we have worked at these early 
stages to address privacy concerns associated with item level tags.

                             PRIVACY ISSUES

    P&G recognizes that in order for consumers to accept EPC, they must 
understand the benefits for them and be confident that their privacy 
will be protected. P&G has a long history of responsible treatment of 
personal information and commitment to good privacy practices. Why? As 
a consumer products manufacturer, we rely on information about our 
consumers to better understand their needs in order to produce superior 
products, information and services to meet them. As a result, P&G has 
an enormous stake in fostering an environment of trust in which 
consumers confidently share their information with us. Creating this 
climate includes making sure that our practices meet or exceed consumer 
expectations and contributing to industry and policy initiatives that 
enable other companies to do the same.
    P&G's approach to privacy is guided by two fundamental principles:

(1) We strive to treat information provided by individuals as their 
        own, which has been entrusted to us; and
(2) We strive for transparency with consumers about how their 
        information is used. We inform people about how we handle 
        information they provide us and give them choices about further 
        communication with us and further use of the data.
    Our privacy policy is global and we extend the same high level of 
protection to information from all individuals who provide personal 
information to us (consumers, shareholders, employees, job applicants, 
etc), to all locations where we do business and to all channels of 
contact, such as the Internet, direct mail, telephone, and wireless.
    EPC does not contain or collect personal information, nor is it 
intended to. But there is a perception that the technology could be 
used in this way. That is why we are working so hard to educate 
consumers about the facts versus the myths surrounding EPC.
    Based on extensive consumer research undertaken on EPC and our own 
core mission that ``the consumer is boss,'' we worked with our 
EPCglobal partners to craft usage guidelines for item level EPC in the 
fall of 2003. To complement these guidelines, P&G's internal position, 
based on the pillars of fair information practices, are as follows:

(1) Clear and accurate notice should be provided where EPC is being 
        used and consumers should be informed as to whether products 
        they are buying contain EPC tags;
(2) Consumers should have a choice as to whether EPC tags in the 
        products that they buy can be permanently disabled or 
        discarded, and this should be done without incurring cost or 
        penalty;
(3) Consumers should have a choice as to whether personally 
        identifiable information about themselves is electronically 
        linked to the EPC number on products they buy beyond what is 
        done with barcodes today.
    Consumers will make choices based on benefits they perceive from 
the technology. We are working aggressively to identify and communicate 
these benefits as well as to identify options to implement these 
principles together with our partners in the supply chain. We will not 
pursue item-level tagging with partners who are not able to ensure 
privacy protection for consumers. We serve consumers. To do otherwise 
would not meet our core mission or business objectives.
    In this phase of testing and learning about EPC in 2004, P&G is 
informing our consumers about the pilot tests we are conducting. Up-to-
date information about current tests, locations, brands and type of 
test (whether pallet/case or case/item) can be found on the company 
website, www.pg.com. In any pilot where a consumer could come in 
contact with an EPC tag, P&G affixes a label to the case that notifies 
the consumer of the presence of a tag. In addition, some retail outlets 
are providing further information on EPC to consumers in the form of a 
tear-off card on the store shelf that explains EPC, the symbol, and how 
the tag can be removed from the carton, and directs consumers to 
www.EPCglobalinc.org for more information.

                      NEED FOR CONSUMER EDUCATION

    Consumer research shows a very low awareness and understanding 
level of EPC at this time. P&G along with other end users in EPCglobal 
recognize the importance of education in gaining consumers' trust in 
the technology and their understanding of the benefits. Last month we 
participated in the Federal Trade Commission's workshop on RFID. FTC 
has played an important role in educating consumers on issues such as 
safe Internet surfing, online shopping tips, and protecting consumers 
against ID theft. We are enthusiastic about the potential for FTC to 
contribute to consumer education and outreach on RFID.

               EPC IS IN THE EARLY STAGES OF DEVELOPMENT

    In summary, I want to emphasize that EPC is in the early stages of 
development. The success of EPC depends on collaboration, global 
standards and affordable technology. We need the ongoing support and 
involvement of retailers, manufacturers and other industry bodies to 
adopt the EPC system. EPC must become the single global standard in 
order for the full efficiencies of the technology to be realized. 
Standards enable cost effective, interoperable technology. And finally 
EPC technology needs to be affordable. The cost of tags and readers 
must continue to decline in order to deliver a value proposition at the 
case and pallet level. Item level tagging for consumer products 
requires tags to cost one cent or less, a threshold that is some years 
away.
    EPC is designed to benefit the consumer. It will help ensure that 
the right product is in the right place, at the right time and at the 
right price. In order for EPC to be successful, it must be accepted by 
consumers, be perceived as offering consumers benefit and be used in 
ways that provide privacy protection for consumers. Procter & Gamble is 
working hard to ensure that EPC will be a ``win/win'' for all.
    Thank you for the opportunity to appear before the Subcommittee. I 
will be happy to answer the Subcommittee's questions.

                 STATEMENT OF PAULA J. BRUENING

    Ms. Bruening. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to speak with you today about the 
privacy implications of Radio Frequency Identification 
technology. My name is Paula Bruening and I am Staff Counsel 
for the Center for Democracy and Technology, a nonprofit, 
public interest organization that advocates for civil liberties 
in the digital age.
    RFID promises to offer consumers benefits ranging from 
enhanced drug safety to better security to lower costs through 
streamlined inventory and delivery systems. We join others here 
today in looking forward to the realization of that promise. At 
the same time, the power of RFID and the infrastructure 
necessary to make the technology work also poses privacy issues 
that must be resolved if it is to be accepted by consumers.
    First, RFID introduces a new method of information 
collection and sharing in an environment that is already rich 
with the collection, retention and sharing of personal 
information. But unlike the information collection technologies 
with which we've become familiar, the internet, the customer 
loyalty cards or barcodes, RFID tags are invisible. Inserted 
into the sleeve of a blouse or the hem of a pair of trousers, 
consumers may not know at all that these items are being used.
    RFID also enables the collection of information without the 
active engagement of the consumer. When I used a credit card, I 
am actively deciding to turn over certain information that will 
make it possible to complete a transaction. I receive a bill at 
the end of the month reminding me of the details of that 
transaction. RFID data collection is passive with respect to 
the consumer. It does not actively engage the consumer at all 
and provides the consumer with no record that the data 
collection ever happened. The kind of information potentially 
collected using RFID is also unique. While we've become 
somewhat accustomed to the concept of personal profiles that 
are based on our buying habits, travel activities and 
demographics, RFID potentially allows much more fine grained 
data collection than previously possible.
    RFID tags can contain globally unique identifiers that 
distinguish, for example, this particular bottle of Crystal 
Geyser water from all the other bottles of here at the table or 
for that matter throughout the world.
    When that globally unique ID is linked to the information 
that uniquely identifies me as a consumer, a company will be 
able to know, with specificity, not only that I bought a copy 
of the novel, the Rule of Four, but will know which specific 
copy of the novel belongs to me. As RFID sensors proliferate, 
the abundance of data collection points also increases, making 
it possible to track my movements with the book.
    Second, in spite of the unique character of RFID technology 
and data collection, the emergence of RFID and the privacy 
concern it raises presents yet another example of the need for 
baseline technology-neutral privacy legislation, based on well-
established principles of fair information practices that would 
clearly delineate the responsibilities of businesses that 
deploy technologies to collect personal information. Despite 
on-going public concern about privacy and despite the fact that 
privacy issues arise with each new technology that collects 
personally identifiable information, the United States still 
lacks baseline privacy legislation that would address privacy 
concerns raised by the collection of this information.
    Enactment of this kind of law would not only be an 
important step in addressing privacy in RFID, but it would also 
provide the basis for implementation in a privacy respectful 
way of the next emerging technology.
    CDT joins other consumer and privacy advocates also in 
calling for a full scale technology assessment of RFID. Such an 
assessment would provide accurate and timely information as 
well as in-depth neutral analysis that would establish a sound 
foundation for making policy decisions about the technology.
    Finally, the Federal Government has taken a leadership role 
in adopting and deploying RFID technology to cut down on fraud 
and waste. While these efforts are laudable and needed, little 
or no emphasis has been placed on the privacy concerns 
attendant to the implementation of this technology. The 
concerns are particularly acute in government implementation of 
RFID as the technology will likely be tied to services that 
individuals have no option to receive elsewhere.
    CDT calls upon government agencies seeking to deploy RFID 
to develop privacy guidance for agency use of the technology as 
they have in the case of electronic authentication. Congress 
should also explore whether current privacy laws that apply to 
government collection of information adequately cover the use 
of RFID by government agencies.
    I thank the subcommittee for allowing me to be here today 
and of course, I'll be happy to answer any questions.
    [The prepared statement of Paula J. Bruening follows:]

Prepared Statement of Paula J. Bruening, Staff Counsel, The Center for 
                         Democracy & Technology

    Mr. Chairman and members of the Subcommittee, the Center for 
Democracy & Technology (CDT) is pleased to have this opportunity to 
speak to you about both the promise and the possible privacy risks of 
radio frequency identification (RFID) technology.
    CDT is a non-profit, public interest organization dedicated to 
preserving and promoting democratic values in the digital age. A core 
CDT goal is to enhance privacy protections for individuals in the 
development and use of new technologies. We have long advocated the 
view that privacy considerations are best addressed early in the 
technology development process, and we applaud the Subcommittee for 
holding early hearings on this nascent, but potentially revolutionary, 
technology.
    Creative applications of radio frequency identification (RFID) 
devices hold possibilities for consumers, businesses and government. 
They can reduce costs in inventory management, improve drug safety, 
help to reduce error rates and save lives in hospitals, and better 
track luggage and cargo at airports to increase homeland security.
    There are many possible applications of RFID that do not pose major 
privacy concerns. But to the extent that RFID devices can be linked to 
personally identifiable information, RFID raises important privacy 
questions. In an era of widespread collection of data about 
individuals, RFID heightens concerns about the ability of businesses 
and government using these technologies to create deep, rich profiles 
about people and their travels, lifestyles, interests and activities.
    In our testimony today, we wish to emphasize six principle points:

 RFID technology poses significant and novel privacy concerns.
 At the same time, well-established principles of fair information 
        practice provide a ready framework to address many of these 
        issues.
 The privacy concerns raised by RFID can be addressed, but they must 
        be handled early. This will require the engagement and 
        commitment of the companies involved. Good work is already 
        being done, but privacy guidelines for RFID must be specific 
        and clear.
 The privacy concerns with the federal government's use of RFID need 
        considerably more attention.
 Technology-neutral baseline privacy legislation could answer many of 
        the basic concerns posed by RFID without creating technology 
        mandates. Legislation aimed specifically at RFID technology is 
        probably undesirable. Companies should not be deploying RFID 
        devices in situations that involve correlation of personally 
        identifiable information until the rules are clear.
 A comprehensive technology assessment is needed at this time. Such an 
        assessment would provide critical information that would help 
        lawmakers, privacy and consumer advocates, technology 
        developers and businesses to avoid serious potential pitfalls.

                 1. NOVEL PRIVACY ISSUES RAISED BY RFID

    Discount cards, other ``customer loyalty cards'' and credit cards 
already collect information about individuals, providing a rich store 
of information about our likes and dislikes in cars, clothing, travel 
and many other preferences. The extent to which RFID tags possess the 
ability to further enhance those profiles by tracking an individual's 
movements--whether through a store or through the world--will raise new 
and deeper concerns. The freedom to move freely and without being 
monitored is basic to the American concept of individual autonomy.
    These concerns are further heightened as the wall between 
government and business collection of information becomes increasingly 
porous, and as government looks increasingly to commercial databases as 
a resource for homeland security and law enforcement.
    Information gathering using RFID differs from other kinds of data 
collection in at least three significant ways:

 First, it is invisible to consumers: unless the consumer is made 
        aware of the technology, he or she will likely not know that 
        the devices are in use. Data collection occurring with a 
        loyalty card or a bar code involves a visible device that the 
        user can see and touch when the collection takes place. RFID 
        raises the specter of data collection via a device of which the 
        consumer may not even be aware in the sleeve of a blouse or the 
        hem of a pair of trousers.
 Second, the information collection is passive with respect to the 
        consumer. A consumer using a credit card actively relinquishes 
        either the card or the account number to a business to make 
        payment for goods or services. In the act of giving the credit 
        card or number, the consumer actively decides to engage in a 
        system that collects certain information about the transaction, 
        not only about the account, but also about the nature of the 
        goods purchased, and when and where the transaction occurred. 
        The consumer is reminded of the event when he receives a 
        statement at the end of the month that specifies when the card 
        was used and what charges were incurred. In contrast, 
        information can be collected by RFID absent any active step on 
        the part of the consumer to turn over the information, and no 
        record of the collection is provided to the consumer.
 The kind of information potentially collected using RFID is unique. 
        While we have become somewhat accustomed to the concept of 
        personal profiles that are built on our buying habits, travel 
        activities and demographics, RFID potentially allows much more 
        fine-grained data collection than previously possible. RFID 
        tags can contain globally unique IDs that distinguish a 
        particular book from all other copies of that book. As RFID 
        sensors proliferate, the abundance of collection points--and 
        the detail of location data that can be gathered--also 
        increases.
    Together, these changes enable data collection and sharing 
scenarios that are currently impossible. For example, today, the use of 
``frequent buyer'' cards (also known as ``customer loyalty cards'') 
allow stores to keep records of consumer purchases over time, even when 
payments are made with cash. With RFID, however, it is possible to 
track not just what items consumers leave the store with, but also 
where they go with such items and for how long they keep them. If RFID 
were built into consumer ``loyalty cards'' it would also be possible to 
tell not only what you bought but also what you looked at. RFID 
transfers to the brick and mortar world the type of very specific 
tracking of interests that is possible online. Without notice, 
consumers would not necessarily be aware that this kind of tracking was 
going on.
    Similarly, the proliferation of RFID technology raises heightened 
concerns about data sharing and centralization. There is a strong 
analogy in this case with our experience with ``cookies.'' While 
cookies were originally designed to allow consumers to have a 
consistent experience within a single website, the spread of the 
technology eventually gave rise to information from across websites 
being linked through third-party cookie systems. Similar problems could 
arise with RFID, because an RIFD reader can typically read any tag. As 
readers proliferate in stores, libraries, hospitals, and public places, 
there will be strong incentives for companies to share and link 
information about the tags they distribute and the tags they read.
    The comments of technologists at recent events sponsored by the 
National Academy of Sciences and Department of Commerce indicate that 
while the power of this technology is currently limited, developers are 
working to increase the amount of information the tags can hold, 
enhance the effectiveness of the readers, lower the cost of the 
technology, and make the infrastructure far more ubiquitous.

                     2. FAIR INFORMATION PRACTICES

    RFID implementation must be guided by principles of fair 
information practice that give consumers control over the collection 
and use of their personal information.
    In 1973, at the beginning of the computer revolution, principles of 
fair information practices were articulated as guidelines for 
protecting privacy. These principles form the basis of the Privacy Act 
of 1974 and similar laws enacted at the state level. They also serve as 
the foundation of laws enacted at the federal level to address privacy 
in specific sectors, notably in credit, medical, and financial records. 
They have been incorporated into industry codes of best practices and 
form the underpinnings of international agreements on data protection. 
The principles are intended to give individuals control over their 
personal information, limit data collection, and place responsibilities 
on data collectors.
    While exact formulations of fair information practices differ, the 
common elements are relatively standard. They include:

 Notice: Information collection and use should be open and 
        transparent.
 Purpose specification: Personal data should be relevant to the 
        purposes for which it is collected.
 Use limitation: Data should be used only for the purpose for which it 
        was collected.
 Accuracy: Personal data should be accurate, complete, and timely.
 Security: Personal data should be protected by reasonable security 
        safeguards against risk of loss, unauthorized access, 
        destruction, use, modification or disclosure.
 Access: Individuals should have a right to view all information that 
        is collected about them to correct data that is not timely, 
        accurate, relevant or complete.
 Accountability: Record keepers should be accountable for complying 
        with fair information practices.
    In November of last year, CDT joined with a broad coalition of 
privacy and civil liberties organizations in calling for the 
application of fair information practices to RFID.<SUP>1</SUP> These 
principles should apply to the gathering of information using RFID and 
to the handling of that information. They provide a starting point for 
all ongoing and future efforts to understand and address the RFID 
privacy issue.
---------------------------------------------------------------------------
    \1\  The``Position Statement on the Use of RFID on Consumer 
Products'' November 14, 2003 was issued by: Consumers Against 
Supermarket Privacy Invasion and Numbering (CASPIAN), Privacy Rights 
Clearinghouse, American Civil Liberties Union (ACLU), Electronic 
Frontier Foundation (EFF), Electronic Privacy Information Center 
(EPIC), Junkbusters, Meyda Online, PrivacyActivism and endorsed by many 
others including CDT. It is available at http://www.privacyrights.org/
ar/RFIDposition.htm.
---------------------------------------------------------------------------
    Determining how fair information practices can be applied in a 
practical, useful and meaningful way will require work on the part of 
stakeholders.

   3. ADDRESSING PRIVACY AT THE OUTSET: INDUSTRY ENGAGEMENT AND BEST 
                               PRACTICES

    If companies and government are to successfully and responsibly 
deploy RFID technology, they need to address upfront the significant 
trust issues the technology raises. Using RFID in pallets to assist 
distribution processes and inventory control does not raise major 
privacy concerns. But as soon as RFID tags are related directly to 
individual product items, it will be extremely important that consumers 
clearly understand that the technology is in use, what information is 
being collected, how it is collected, and how it is used. If consumers 
are to accept the use of this technology, it is critical that they have 
assurances that information collected through RFID is managed and used 
in a responsible fashion.
    Experience has shown that when new information collection 
technologies are deployed, consumers want to know specifics about what 
and how data about them is being gathered. They want to know upfront 
from the organization collecting the information, and not through the 
popular media. It is critical with RFID, as in other emerging 
technology, that privacy protections are built in at the beginning.
    Technology developers and businesses often raise the issue of the 
cost of building privacy into new technology. CDT would caution that it 
is more effective and efficient to begin at the outset of the 
development process to create a culture of privacy that incorporates 
sound technical protections for privacy and that establishes the key 
business and public policy decisions for respecting privacy in RFID use 
before RFID is deployed, rather than building in privacy after a 
scandal or controversy erupts publicly.
    Work toward developing principles that would address privacy 
concerns raised by RFID is ongoing. For example, CDT applauds EPC 
Global for their work on public policy guidelines that address privacy 
issues.<SUP>2</SUP> However, for these principles to be successful in 
protecting privacy, it is critically important to concretely determine 
how these principles are applied in practice.
---------------------------------------------------------------------------
    \2\ ``Guideline on EPC for Consumer Products'' is available at 
http://www.epcglobalinc.org/public_policy/
public_policy_guidelines.html.
---------------------------------------------------------------------------
    For example, notice and public education are often pointed to as 
key to sound privacy protection for RFID data collection. This is 
undoubtedly true. But while we may easily agree on this point, it will 
be extremely important to understand how notice can be effectively 
provided in the RFID environment, in a manner that is consistent and 
balanced, where information collection is arguably invisible and 
passive. How to provide notice effectively, and in a manner that is 
consistent for consumers and presented in a balanced, neutral way, will 
be a critical challenge.
    Similar issues are raised as steps are taken to provide consumers 
with choice about collection of information through RFID. How do we 
provide meaningful choice for consumers? How do we make it easily 
accessible and exercisable in this kind of technology environment? How 
can we assure that consumer choice has been respected?

4. GOVERNMENT USE OF RFID RAISES SPECIAL CONCERNS AND REQUIRES SPECIAL 
                             CONSIDERATION

    Federal, state and local governments have taken a leadership role 
in the deployment and use of RFID technology. Some governments have 
used the launch of RFID applications as an opportunity to balance 
privacy concerns with the use of the technology. For example, the 
Office of the Information and Privacy Commission of Ontario has 
released ``Guidelines for Using RFID Tags in Ontario Public 
Libraries.'' <SUP>3</SUP> U.S. governments have undertaken little of 
this important work.
---------------------------------------------------------------------------
    \3\ http://www.ipc.on.ca/docs/rfid-lib.pdf
---------------------------------------------------------------------------
    The Department of Defense has been a leader in the RFID field and 
is engaging in innovative uses of the technology for tracking items 
within its warehouses.<SUP>4</SUP> Other federal agencies are following 
suit with projects outside of the warehouse, such as the Department of 
Homeland Security's enormous US-VISIT contract.<SUP>5</SUP> While the 
government should be encouraged to develop uses of RFID technologies to 
increase efficiency and cut down on fraud and waste, little or no 
emphasis has been placed on the privacy concerns attendant to the 
deployment of the technology. The concerns are particularly acute in 
government implementation of RFID, as the technology will likely be 
tied to services that individuals have no option to receive elsewhere.
---------------------------------------------------------------------------
    \4\ Andrew T. Gilles, ``Pentagon: Rough RFID Ride Ahead,'' 
Forbes.com, July, 7, 2004, http://www.forbes.com/technology/
enterprisetech/2004/07/07/cz_ag_0707beltway.html
    \5\ Jonathan Krim, ``U.S. May Use New ID Cards At Borders,'' 
Washington Post, June 5. 2004, page E1.
---------------------------------------------------------------------------
    CDT calls upon the Office of Management and Budget (OMB), General 
Services Administration (GSA) and National Institute of Standards and 
Technology (NIST) to develop privacy guidance for agency use of RFID, 
as they have for electronic authentication technologies. Congress 
should also explore whether current privacy laws, such as the Privacy 
Act, Computer Matching and Privacy Protection Act and Section 208 of 
the E-Government Act, whether these laws adequately cover use of RFID 
by government agencies.

5. BASELINE PRIVACY LEGISLATION WOULD ADDRESS MANY OF THE ISSUES POSED 
                                BY RFID

    Despite ongoing public concern about privacy, and despite the fact 
that privacy issues arise with each new technology that collects 
personally identifiable information (e.g., cookies, spyware), the 
United States still lacks baseline privacy legislation that would 
address privacy concerns raised by the collection of personally 
identifiable information in new digital media.<SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ See the testimony of CDT President Jerry Berman before the full 
Senate Commerce Committee on October 3, 200 at http://www.cdt.org/
testimony/001003berman.shtml. His testimony addressed S. 2606, a bill 
that passed the Committee that year and would have created a baseline 
standard for privacy on the Internet and allowed the FTC to create 
regulations for offline privacy in the retail and marketing space.
---------------------------------------------------------------------------
    In our view, in the absence of such legislation and in the absence 
of clear, specific industry guidelines, it is unwise for companies to 
deploy RFID technologies in consumer applications that involve 
personally identifiable information. Implementing RFID without this 
guidance raises the risk that it will be necessary to impose rules 
after the technology has been deployed, when rules may be more 
cumbersome and less effective, and when it is less likely that 
technical protections for privacy can be optimally integrated into the 
technology. It is for this reason that CDT and others have said that 
RFID should not be deployed at the consumer level in ways that can be 
linked to personally identifiable information until privacy guidelines 
are put in place, either by industry, the Congress or state 
legislators.
    CDT believes that it would not be appropriate to enact legislation 
specially regulating RFID. To enact legislation specifically for RFID 
would risk technology mandates that are ill-suited to the future 
evolution of the technology. On the other hand, technology-neutral 
baseline privacy legislation would ensure that retail and marketing 
uses of the technology in conjunction with personal information were 
bounded by fair information practices. Location information, whether 
generated by cell phones, by mobile computing, or by RFID, also merits 
stronger privacy protections.<SUP>7</SUP> These two crucial privacy 
issues should be addressed in technology-neutral ways.
---------------------------------------------------------------------------
    \7\ See the testimony of CDT Executive Director James Dempsey 
before the Subcommittee on the Constitution of the House Judiciary 
Committee on September 6, 2000 at http://www.cdt.org/testimony/
000906dempsey2.shtml. His testimony addresses H.R. 5018, a bill that 
passed the Committee that year and would have increased location 
standards for the use of information by law enforcement.
---------------------------------------------------------------------------

                 6. THE NEED FOR TECHNOLOGY ASSESSMENT

    While specific regulation of RFID technology may be inappropriate, 
a technology assessment conducted by an expert panel is sorely needed. 
Such an assessment could be conducted under the auspices of the 
National Academy of Science, the Federal Trade Commission (FTC), or the 
National Institute of Standards and Technology (NIST).
    Already legislatures are beginning to look at RFID and the privacy 
concerns the technology raises. Both industry and consumer groups are 
developing privacy guidelines for use of the technology. But 
stakeholders on all sides of the debate share a concern about 
institutionalizing solutions that stifle innovation and have unintended 
and unwanted consequences for privacy and for RFID technology. Any 
decision about privacy must be based on sound analysis, the input of 
all stakeholders, reliable information, and a clear understanding of 
the technology--both its potential benefits and the risks it raises.
    CDT believes that a technology assessment could provide critical 
information that would help legislators, policy experts, technology 
developers and businesses to avoid these pitfalls. Technology 
assessment--an analysis of RFID that explores the technology, how it 
works, its potential to serve individuals, the vision for the future of 
the technology, how its use may proliferate and develop and the risks 
it raises for privacy--could provide the analytical underpinnings to 
make possible the best possible resolution of privacy concerns. 
Technology assessment could also surface concerns that are not 
immediate but that are raised through the establishment of an 
infrastructure for RFID.
    Such an assessment would bring to bear the expertise of 
technologists, academics, privacy advocates, consumer advocates, 
manufactures, retailers, security experts and other potential users of 
RFID technologies. Many of these efforts are already ongoing in public 
interest organizations and in business research, so that many of the 
individual pieces of a technology assessment are already in progress. A 
formal technology assessment would capitalize on these efforts, draw 
this work together and provide neutral, balanced analysis.
    It is important to note that when done well, technology assessment 
does not arrive at facile solutions. When done fairly, it does not 
yield simple answers to satisfy a single interest group. Rather, it 
provides policy options based on the richest, most accurate store of 
information about the issue possible and the most balanced analysis 
available. Timeliness is, of course, always a concern when developing 
technologies are at issue. The online tools at our disposal should make 
it possible to engage in the assessment exercise in a timely manner 
that serves both the needs of business for prompt input and the needs 
of all stakeholders for a chance to bring their concerns to the 
discussion.I89Conclusion
    CDT urges Congress to continue to closely monitor the privacy 
concerns raised by RFID. Business, technologists and consumer advocates 
must continue to address this issue as the technology and its 
applications are developed. Additional Congressional hearings would 
reinforce the need for ongoing work in the private sector to develop 
and institute best practices for privacy in RFID use. Baseline privacy 
legislation would help address significant privacy concerns raised by 
RFID, as well as by other developing technologies. While it is possibly 
unwise to create RFID specific regulation at this time, we urge 
Congress to request that the National Academy of Sciences or another 
neutral, expert body conduct a technology assessment that would provide 
the technical and policy underpinnings for the best possible 
legislative solution, when it is timely and appropriate. We look 
forward to working with the Committee on this critical issue.

    Mr. Stearns. I thank the gentlelady.
    Mr. Galione.

                  STATEMENT OF WILLIAM GALIONE

    Mr. Galione. Mr. Chairman, members of the committee, I 
thank you for the opportunity to testify on behalf of Philips 
Semiconductors on the very important subject of Radio Frequency 
Identification technology. In my brief comments this morning, 
I'd like to focus on from the perspective of the leading 
semiconductor designer and manufacturer of RFID products, 
basically what it is and where it's used.
    Just for some context, Philips Semiconductors is a division 
of Royal Philips, so we're a $5 billion division of the $35 
billion that is Royal Philips. Philips is a large consumer 
electronics, lifestyle, healthcare and technology company. 
We're the semiconductor arm with more than 100 sales offices. 
We operate in 50 countries, many, many manufacturing locations 
around the world. But to amplify the point that this is not a 
new technology, Philip Semiconductors has shipped more than one 
billion contactless ICs in the history of that product 
portfolio, so it's been around for a while, commercialized over 
the past 15 to 20 years, but it's been around as was stated 
previously for many, many years.
    Basically, there are two types of identification products. 
The first one is contactless smart cards, things like this, 
credit card size things. The key to these and I'll pass these 
around later to members of the committee, if you'd like it, the 
key is that this securely identifies people, to grant people 
access to services so therefore very short range, three to four 
inches away from the reader. But the key is that it is secure 
information about people. RFID tag, on the other hand, these 
tags and labels, again, I'll pass these around if you'd like 
them, are for to track and trace goods, much longer range 
vicinity, 10 to 20 feet as was stated previously.
    So again, in terms of the contact with smart card 
technology, it's a card form factor, a combination of security 
and convenience, short operating distance, but very, very 
secure and it can be for moderate to strong security, but the 
strongest security involves some very advanced encryption 
technologies and algorithms, password protection and mutual 
authentication between the card and the reader. The cost of 
these things, because they are fairly sophisticated, 
semiconductor designs, would be between $1 and $20. The kinds 
of applications that they find their way into are public 
transportation, more than 200 cities around the world are 
currently using these. Five hundred million cards are deployed 
around the world. Payment, companies like Visa, Mastercard, 
American Express and of course loyalty programs, access 
controls, so you can get into a building, car and mobilization 
is an emerging application for these, event ticketing and 
identification of individuals and evolving into, in fact, 
passports in the future.
    The RFID technology, again, the tags and labels here, 
it's--that's the form factor of it. Carries a unique 
identification number as previously said, plus optional read/
write memory, can communicate to the tag, not just have 
information from the tag, low to moderate security features 
because it is goods, not people, but does have a unique destroy 
feature, so as we evolve into the item world at the option of 
the consumer, it can be destroyed, rendered totally disabled 
once you would leave the store and then the operating distance, 
as I said previously, is about 20 feet. Very low cost, going 
from just a few cents, in fact, to a couple of dollars, 
depending on application and the key applications are 
identifying and tracking goods and logistics, kinds of 
applications, supply chain management, manufacturing and 
warehouse automation, parcel services. We'll see that evolving 
into baggage tagging and tracking and tracing. Asset 
management, we're seeing applications in library automation, 
livestock management and in fact, things like in the future 
even laundry automation so your red socks don't get combined 
with your white shirt when you have a smart washing machine.
    So overall, those are the applications. That's the 
perspective from the way we see it as a semiconductor maker. 
We're aware of the privacy concerns raised by consumers over 
the use of this technology and are working very closely with 
privacy organizations and government officials around the world 
to ensure a responsible roll out of RFID and we look forward to 
assisting the committee in any way that you see appropriate in 
the future.
    [The prepared statement of William Galione follows:]

   Prepared Statement of William Galione, Vice President and General 
     Manager, Marketing and Sales Americas, Philips Semiconductors

    Mr. Chairman, thank you for this opportunity to testify on behalf 
of Philips Semiconductors on Radio Frequency Identification (RFID) 
technology. Philips Semiconductors is a product division of Philips 
Electronics, well-known throughout the world for its innovate consumer 
electronics, lifestyle and healthcare products. Philips is the world's 
leader in the design and manufacturing of contactless identification 
chips, with nearly one billion chips sold to date. Philips' contactless 
identification technology is used across a diverse set of 
applications--such as supply chain management and logistics functions, 
including pharmaceutical and livestock tracking, as well as in various 
transport, banking and security applications--to provide consumers with 
greater convenience and safety.
    Philips offers its contactless identification technology as an open 
platform and is an active promoter of global standards to build the 
foundation for widespread adoption. With new applications in the 
consumer retail market on the horizon, Philips has built a complete 
catalog of contactless chip technology that spans the application range 
of tags, contactless smart cards, car immobilizers, and the 
corresponding reader components.
    I'd like to provide a brief overview of the two most common 
applications of contactless identification technology: identifying 
goods and granting people access to services. The term ``RFID'' is 
broadly used to describe a ``smart tag'' or ``smart label'' or simply 
``RFID tag'' used to identify goods or products. You may also have 
heard the term ``smart card,'' which is essentially a personal RFID 
device used by people to identify themselves, for example, when 
entering a building or using the Washington, D.C. Metro system. Simply 
put, a smart card carries a secure chip with advanced encryption, 
computing power and a contactless RF--interface that provides consumers 
with a high degree of functionality with enhanced personal privacy and 
security.

            CONTACTLESS IDENTIFICATION TECHNOLOGY AND GOODS

    Almost every item sold through retailers and supermarkets around 
the world today has a barcode printed on it. These codes are used 
extensively throughout distribution chains and are unique to the 
general type of item being sold. However, in recent years barcodes have 
begun to show their limitations, and a replacement approach based on 
RFID technology is gaining momentum.
    RFID technology relies on small computer chips and antennas 
integrated into a paper or plastic label--called a tag--that can be 
scanned by an electronic reading device. The scan allows automatic 
collection of data on the chip, which can include information on 
warranty, where the product was manufactured, or product details such 
as quantity, size, color, etc. First developed in the 1940's, RFID 
technology has proven itself reliable over time, with falling cost 
structures and further technology refinement allowing it to be used in 
more common applications today.
    Unlike barcodes, RFID tags are insensitive to dirt or scratches and 
can be scanned from a distance--from a few inches to upwards of 20-25 
feet--all without requiring direct line of sight. RFID technology also 
allows multiple tags to be scanned simultaneously, even through 
external packaging. This presents a significant advantage over barcodes 
in distribution and retail environments, which is where the new 
generation of RFID technology is making major inroads.
    Adoption of RFID technologies is spearheading revolutionary gains 
in supply chain management, allowing businesses to improve supply chain 
logistics and customer service. Major retailers--including co-panelist 
Wal-Mart and other organizations such as the Department of Defense--
that manage huge inventories are leading the supply chain transition to 
RFID technology.
    The Wireless Data Research Group predicts that the RFID market for 
hardware, software, and services is expected to increase by a 23 
percent compound annual growth rate worldwide from more than $1 billion 
in 2003 to about $3 billion in 2007. According to analyst firm IDC, 
RFID spending for the U.S. retail supply chain will grow from $91.5 
million in 2003 to nearly $1.3 billion in 2008. This increase is due in 
large part to the mandates by leading retailers and the U.S. government 
to incorporate the technology, and also to increasing RFID adoption in 
many other application areas.
    A recent report by AMR Research on the supply chain results 
achieved by early adopters of RFID technology in the retail and 
consumer packaged goods arena showed cost savings of 5 percent of 
sales. This included savings of 1 percent of sales due to reductions in 
product loss. The retailers also reduced their expenses by 65 percent 
in the receipt of goods arena and 25 percent in stocking.
    RFID tracking of pallets and shipping cases--from the manufacturer, 
to the warehouse, to the distribution center, to the final 
destination--is expected to deliver increased efficiency, more timely 
and accurate management of inventory, greater responsiveness to product 
recalls, and reductions in theft and counterfeit goods entering the 
retail arena. Pharmaceutical companies are also planning to use RFID 
systems to ensure the quality of their goods. Recent headlines about 
the need for livestock tracking reports related to disease prevention 
underscore the need for accurate real time information, which RFID can 
provide.
    In addition to the consumer applications cited earlier, RFID tags 
are also being considered for item-level identification of goods 
purchased by consumers once the cost structure is low enough. Many 
item-level identification benefits can be found in the retail 
environment following successful implementation within a supply chain. 
Retailers will be able to pass on the savings to their customers and 
also provide consumers with greater convenience, value, choice, and 
protection. Co-panelists Wal-Mart and Procter and Gamble can provide 
more information on plans for item-level identification.

            CONTACTLESS IDENTIFICATION TECHNOLOGY AND PEOPLE

    Contactless identification technology is also used for personal 
identification, including in so-called ``smart cards.'' Smart cards 
typically come in a credit card form factor and carry sensitive, 
personally identifiable data. American consumers are likely to 
encounter smart cards and similar RF-enabled personal identification 
devices in their daily lives through applications such as secure access 
cards for building entry, speedy gasoline purchasing such as the Exxon 
Speedpass, vehicle anti-theft systems, and in transportation systems 
all over the world, including in the Minneapolis, San Francisco, 
Seattle, San Diego (in Subcommittee member Congressman Issa's 
district), Houston, and other systems.
    Smart cards are essentially RFID systems with advanced computing 
power, storage, and strong encryption accelerators, offering advanced 
services with enhanced security and privacy protection.
    In fact, smart cards are so powerful that the Department of Defense 
(DoD) and other government agencies are adopting the technology to 
secure access to their facilities and computer networks, even storing a 
picture and fingerprint of the cardholder on the card for enhanced 
security control. The DoD makes worst case scenario assumptions about 
the cards falling into the wrong hands and having large resources at 
their disposal to crack the card--standards that advanced smart cards 
have met through the use of encryption, secure design, and other 
measures.
    The United States and leading countries all over the world are 
presently working on the specification and deployment of contactless 
smart card technology for the use in passports. Like the DoD's Common 
Access Card, these passports will carry biometric credentials such as 
fingerprints, pictures and/ or iris-scans to securely identify and 
authenticate the passport holder.

                                PRIVACY

    Philips is aware of some of the privacy concerns raised by 
consumers over the use of RFID technology. For consumers, for whom 
item-level identification benefits are perhaps several years away, 
there has already been concern expressed regarding the ways in which 
the information on the tag will be used. Manufacturers have responded 
with a feature that can destroy the tag at checkout, and have 
increasingly recognized the need for education on the technical 
capabilities of the technology and privacy implications. This includes 
communicating the safeguards built in to the chips to protect against 
unauthorized scanning and tampering, as well as explaining how the 
limits of the technology prevent such impossible scenarios as satellite 
tracking of an RFID-tagged item.
    Philips is working with privacy organizations and government 
officials to ensure a responsible rollout of RFID in the retail 
environment. Philips Semiconductors co-hosted with the National Retail 
Federation a well-attended RFID privacy roundtable in Washington, D.C. 
on April 27, featuring industry, privacy advocates, and state 
legislative officials discussing privacy issues and RFID technology. 
Last year, Philips presented its views on privacy issues of RFID 
technology to the 25th International Conference of Data Protection and 
Privacy Commissioners in Sydney, Australia and fully supports the 
Conference's resolution on RFID and privacy. When the MIT hosted an 
RFID Privacy Workshop in November 2003, Philips presented the 101 of 
RFID Technology and its Applications. Philips also participated in the 
recent Smart Tags Workshop of the European Commission in Brussels, 
where it renewed its offer to help (privacy) authorities understand 
RFID-technology. Most recently, Philips served as a panelist in a RFID 
workshop hosted by the Federal Trade Commission, offering an overview 
of the technology.

                               CONCLUSION

    Mr. Chairman, thank you again for this opportunity to provide an 
overview of contactless identification technologies to the Committee. 
As the world's leader in the design and manufacturing of chips used in 
contactless smart cards and RFID tags, Philips is committed to the 
responsible rollout of RFID technology across a wide spectrum of retail 
and personal identification applications, and stands ready to provide 
you with any assistance you may need as the US Congress further studies 
this revolutionary technology.

    Mr. Stearns. I think the gentleman, Mr. Galione.
    Mr. Steinhardt.

                  STATEMENT OF BARRY STEINHARDT

    Mr. Steinhardt. Thank you, Mr. Stearns and members of the 
committee, for the invitation to testify today.
    My testimony this morning is going to focus on the 
government use of RFID. In my written testimony I also address 
the use by the private sector.
    RFID chips can be used for good or ill, as you've heard so 
far. But their attributes are worth focusing on for a moment.
    First, as already indicated, the chips----
    Mr. Stearns. I'm going to have you pull the mic, bring it 
down and just closer to you.
    Mr. Steinhardt. Is that better?
    Mr. Stearns. Yes, that's better.
    Mr. Steinhardt. The chips can track not just goods, but 
people. Chips emit a signal which enables a remote, even 
surreptitious identification. You had a demonstration of that 
this morning.
    Many deployments of RFID will require the creation and use 
of data bases containing personal, sometimes sensitive personal 
information. RFID use is easily integrated into those data 
bases and with other technologies.
    The government use of RFID is virtually--I apologize, it's 
cutting of here.
    Mr. Stearns. That's okay.
    Mr. Steinhardt. The government use of RFID is burgeoning. 
The Pentagon, for example, plans to use RFID to track physical 
objects, the use that raises relatively modest privacy 
concerns. Other proposed used raise more serious concerns. The 
San Francisco Library would like to put RFID chips in its 
books, raising the specter of third parties being able to track 
our reading choices.
    More troubling are proposals to put RFID chips into 
government-issued identity documents. The example which has 
perhaps the most profound implications and has largely gone 
unnoticed by the press and many public policymakers that's been 
alluded to here this morning is that at the urging of the 
United States government, indeed, the instruction of the 
Congress as part of the Border Security Bill. The International 
Civil Aviation Organization, ICAO, which is U.N.-affiliated 
agency has been developing the global standards for passports 
and other travel documents. ICAO's current proposal which 
developed a process in which the public was excluded, and 
indeed in my written testimony I detail our futile attempts to 
even engage ICAO in a discussion, but their current proposal is 
a passport that is ladened, not only with biometrics like a 
finger scan or a digital photograph, but with RFID chip or what 
ICAO calls a ``remotely readable contact-less integrated 
circuit'', but in fact, they mean RFID chip.
    ICAO proposes to create a whole new class of identity 
document that could be used to identify us anywhere, any time. 
Like most processes with limited input, the standards developed 
by ICAO are equally flawed. The RFID chips under consideration 
can be read from up to a meter away, roughly three feet and 
have enough memory to hold full biometric information such as 
fingerprints and photographs.
    The potential uses and abuses of such a chip raise profound 
questions. Imagine, for example, the uses that could be put to 
by a dictator like Fidel Castro. Every Cuban citizen, indeed, 
every American traveling to Cuba, perhaps to visit a relative 
would be under a new and powerful surveillance regime.
    And the misuse is not likely to be limited to dictatorial 
regimes. RFIDs would allow for convenient at a distance 
identification. RFID tag IDs could be secretly read through a 
wallet, pocket, backpack or purse by anyone, an inappropriate 
reader, including marketers, identity thieves and pickpockets.
    Pocket ID readers could be used by government agencies to 
sweep up the identities of everyone at a political meeting, 
protest march or religious service. A network of automated RFID 
listening posts on the sidewalks and the roads could even 
reveal the location of people using those sidewalks and roads.
    Now indeed, there are two possible paths by which RFID 
powered-passports could become tools for tracking the every day 
lives of Americans. First is in passports that are being 
developed by ICAO, could be seen as the gold standard of 
identity verification around the world. More and more, as they 
are demanding proof of identity, not only abroad, but within 
the United States, they could displace driver's licenses, 
primarily form of identification in every day life. Or those 
ICAO passports could become a template for standardized 
versions of the driver's license, turning them into a de facto 
national ID card, but in effect, a super charged national ID 
card.
    Congress needs to focus attention on its development and 
have a serious debate about how and when Americans will be 
identified and tracked both here and around the world. At the 
outset, Congress will need to decide whether we're wiling to go 
down this path incorporating RFID into our identity documents 
or choose a less invasive technology, like the two-dimensional 
bar code. We, of course, prefer to choose the latter.
    Over the longer term, Congress needs to consider how the 
fair information principles, some of my fellow panelists have 
discussed be applied to RFID. This debate needs to be held now 
before the technology and its uses become a runaway train. If 
RFID is to be employed, it must be carefully controlled, yet 
none of these controls currently exist.
    Since we regard this debate as so important, we'll be 
sending copies of my testimony this morning to the other 
committees of Congress that may have jurisdiction over some of 
these matters.
    The ACLU urges you to be vigilant in monitoring these 
developments and creating legal controls to protect American 
privacy, both domestically and internationally.
    Thank you.
    [The prepared statement of Barry Steinhardt follows:]

   Prepared Statement of Barry Steinhardt, Director, Technology and 
            Liberty Project, American Civil Liberties Union

    My name is Barry Steinhardt and I am the director of the Technology 
and Liberty Program at the American Civil Liberties Union (ACLU). The 
ACLU is a nationwide, non-partisan organization with nearly 400,000 
members dedicated to protecting the individual liberties and freedoms 
guaranteed in the Constitution and laws of the United States. I 
appreciate the opportunity to testify about Radio Frequency 
Identification (RFID) tags on behalf of the ACLU before the Commerce, 
Trade and Consumer Protection Subcommittee of the House of 
Representatives Committee on Energy and Commerce. Today, I will explore 
with you the risks to privacy of governmental uses of RFID tags in 
identification documents, and the risks to consumer privacy of use of 
RFID tags by the private sector. I will close by suggesting that 
Congress play an active role in deciding whether to authorize 
governmental use of RFID tags in U.S. passports.
    RFID tags are tiny computer chips connected to miniature antennae 
that can be placed on or in physical objects. The chips contain enough 
memory to hold unique identification codes for all manufactured items 
produced worldwide. When an RFID reader emits a radio signal, nearby 
tags respond by transmitting their stored data to the reader. With 
passive RFID tags, which do not contain batteries, read-range can vary 
from less than an inch to 20-30 feet, while active (self-powered) tags 
can have a much longer read range.

                  DRIFT TOWARD A SURVEILLANCE SOCIETY

    The privacy issues raised by RFID tags are vitally important 
because they are representative of a larger trend in the United States: 
the seemingly inexorable drift toward a surveillance society. As 
Congress considers the privacy issues posed by RFID chips, I urge you 
to view them in the larger context--a world that is increasingly 
becoming a sea of data and databases, where the government and private 
corporations alike are gathering more and more details about our 
everyday existence.
    The explosion of computers, cameras, sensors, wireless 
communication, GPS, biometrics, and other technologies in just the last 
10 years is feeding what can be described as a surveillance monster 
that is growing silently in our midst. Scarcely a month goes by in 
which we don't read about some new high-tech method for invading 
privacy, from face recognition to implantable microchips, data-mining 
to DNA chips, and now RFID identity tags. The fact is, there are no 
longer any technical barriers to the creation of the surveillance 
society.
    While the technological bars are falling away, we should be 
strengthening the laws and institutions that protect against abuse. 
Unfortunately, in all too many cases, even as this surveillance monster 
grows in power, we are weakening the legal chains that keep it from 
trampling our privacy. We should be responding to intrusive new 
technologies by building stronger restraints to protect our privacy; 
instead, all too often we are doing the opposite. (The ACLU has written 
a report on this subject, entitled Bigger Monster, Weaker Chains: The 
Growth of an American Surveillance Society, which is available on our 
Web site at www.aclu.org/privacy.)
    We hope that this will not happen with RFID chips, which promise 
great new efficiencies and conveniences, but also hold the potential to 
enable the most Orwellian kinds of surveillance. RFID tags enable 
remote, even surreptitious identification; their use generally requires 
the creation of databases containing identity information; and RFID use 
is easily integrated into database systems and other technologies.
    Congress must act to lay to rest the privacy fears surrounding this 
technology so that it will be smooth sailing for us all to enjoy its 
benefits.
    There are two primary areas where RFIDs raise privacy issues: their 
use in retail and elsewhere in the commercial sector, and their direct 
adoption by government.

      THE MOST FRIGHTENING USE OF RFID CHIPS: GOVERNMENT TRACKING

    Government use of RFID is burgeoning. The Pentagon plans to use 
RFID to track physical objects--a use that raises relatively modest 
privacy concerns. Other proposed uses raise more serious concerns. The 
San Francisco Library, for example, is proposing to put RFID chips in 
its books, which raises the specter of third parties being able to 
track our reading habits without our knowledge.
    Most troubling of all are proposals to incorporate RFID tags into 
government identity documents.
    RFIDs would allow for convenient, at-a-distance verification of ID. 
RFID-tagged IDs could be secretly read right through a wallet, pocket, 
backpack, or purse by anyone with the appropriate reader device, 
including marketers, identity thieves, pickpockets, oppressive 
governments, and others. Retailers might add RFID readers to find out 
exactly who is browsing their aisles, gawking at their window displays 
from the sidewalk--or passing by without looking. Pocket ID readers 
could be used by government agents to sweep up the identities of 
everyone at a political meeting, protest march, or Islamic prayer 
service. A network of automated RFID listening posts on the sidewalks 
and roads could even reveal the location of all people in the U.S. at 
all times.
    This may sound far-fetched, and I hope that it stays that way. But 
if we at the ACLU have learned anything over the past decade, it is 
that seemingly distant privacy invasions that sound right out of 
science fiction often become real far faster than anyone has 
anticipated. I give you this scenario as something that I think most 
Americans would agree is something that should be avoided, and yet is 
now entirely possible as far as the technology that is available to us. 
That means that our future is now going to be decided by policy.

                  RFID-POWERED DOCUMENTS: ALL-TOO REAL

    We need not end up in the frightening situation that I have just 
described to suffer privacy invasions from RFID technology. In fact, 
worries about RFID-enabled identity documents are far from an abstract 
concern. Already, deliberations are underway to encourage governments 
to include RFID chips in the passport carried by citizens of every 
nation including the United States.
    Largely unnoticed by the press and many public policy makers, an 
obscure UN-affiliated group called the International Civil Aviation 
Organization (ICAO) has been developing global standards for passports 
and other travel documents. This effort grows out of the Enhanced 
Border Security and Visa Entry Reform Act (EBSA), which mandated that 
the passport of every visa waiver country ``issue to its nationals 
machine-readable passports that are tamper-resistant and incorporate 
biometric and document authentication identifiers;'' any nation that 
fails to comply with this requirement will lose its status as a ``visa-
waiver'' country.<SUP>1</SUP> The Act mandates that the standards for 
these passports be created by ICAO.
---------------------------------------------------------------------------
    \1\ 8 U.S.C. 1732.
---------------------------------------------------------------------------
    Under ICAO's current proposal, passports around the world would not 
only incorporate biometrics like fingerprints or face recognition, 
but--as we only recently learned--also remotely readable ``contact-less 
integrated circuits,'' or RFID tags. Nothing in EBSA requires the 
inclusion of an RFID chip on passports.
    While we'll be making this testimony available to other committees 
that would have a strong interest in whether RFID tags go on passports, 
we believe that a wholistic approach to the use of RFID tags by 
Congress may be called for.
    ICAO has been developing these passport standards over a period of 
months in meetings held around the world. Because of the serious 
implications of creating an RFID-enabled identity document, the ACLU 
and the London-based group Privacy International tried to arrange 
attendance of a representative at a March 2004 meeting held in Cairo. 
This effort was unsuccessful. An open letter to the ICAO on privacy 
concerns over the biometric standards likewise met with no 
response.<SUP>2</SUP> The ACLU again wrote to ICAO asking to attend a 
May 2004 meeting in Montreal, and once again received no response.
---------------------------------------------------------------------------
    \2\ See ACLU et. al., ``An Open Letter to the ICAO,'' March 30, 
2004; online at http://www.aclu.org/Privacy/Privacy.cfm?ID=15341&c=130.
---------------------------------------------------------------------------
    In short, despite the importance of technical and interoperability 
standards--which can mean the difference between a use of biometrics 
that poses enormous problems for privacy, or one that poses little--
ICAO has ignored attempts by privacy and civil liberties groups to join 
in their process. To a degree that would not be possible with a 
domestic government decision-making body, it has rebuffed NGO attempts 
to provide input on the privacy implications of the particular 
standards being considered, or even simply to observe the meetings.
    Like the results of most processes with limited input, the 
standards developed by the ICAO are deeply flawed. The RFID chips under 
consideration can be read from up to a meter away and have enough 
memory to hold full biometric information such as fingerprints or 
photographs. The potential uses and abuses of such a chip could be 
revolutionary. A retail store or restaurant, for example, might gain 
the ability to capture the identities of those who walk through a 
portal; a government official could instantly sweep the room to 
discover who is attending a political meeting. Imagine the uses to 
which a dictator like Fidel Castro could put such technology. Every 
person in Cuba--including Cuban-Americans carrying U.S. passports while 
visiting family members in Cuba--could be put under surveillance and no 
one would be safe.''
    If the United States mandates the creation of an international 
standard for passports, it will face enormous pressure to conform its 
own passports to that standard. For instance, when the US instituted 
the US Visit Program one nation, Brazil, reacted swiftly by putting 
similar measures into effect for just their American 
visitors.<SUP>3</SUP> In fact, far from being concerned that such 
systems would lead to the retaliatory creation of systems for tracking 
Americans elsewhere in the world, Bush Administration officials have 
embraced such reciprocation. ``We welcome other countries moving to 
this kind of system,'' Department of Homeland Security undersecretary 
Asa Hutchinson declared. ``We fully expect that other countries will 
adopt similar procedures.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ See e.g. Kevin G. Hall, ``Brazil ratifies fingerprinting, 
photographing of U.S. visitors,'' Knight Ridder, Feb. 12, 2004; 
available online at http://www.miami.com/mld/miamiherald/news/world/
americas/7934565.htm.
    \4\ Rachel L. Swarns, ``Millions More Travelers to U.S. to Face 
Fingerprints and Photos,'' New York Times, April 3, 2004.
---------------------------------------------------------------------------
    By instituting RFID chips in passports, the US government could 
skip right over the politically untenable proposals for a National ID 
card, and set a course toward the creation of a global identity 
document--or, at least, toward a set of global standards for identity 
that can be incorporated into a wide variety of national identity 
documents. There are two possible paths by which RFID-powered passports 
could become tools for tracking the everyday lives of Americans:

 These passports come to be seen as the gold standard of identity 
        verification around the world. More and more, they are demanded 
        as proof of identity not only abroad but within the United 
        States as well, displacing driver's licenses as the primary 
        form of identification in everyday life.
 They become the template for standardized versions of the driver's 
        license, turning them into a de facto National ID card.
    Features such as the inclusion of a remotely readable RFID chip 
would greatly enhance the private sector's tendency to piggyback on the 
perceived ``trust value'' of these documents. Although theoretically 
optional, like driver's licenses and credit cards before them, they may 
quickly become what are for all practical purposes requirements for 
navigating through the modern world. The result would be a situation 
where the government gains a tremendous new power to track and control 
the movement of citizens.
    Or innocent citizens, at any rate. We must always keep in mind that 
as the perceived ``trust value'' of such documents rises, and as their 
adoption becomes more widespread, the payoff for counterfeiting them 
also rises--perhaps even more steeply--with the result that counterfeit 
or fraudulently acquired real documents will continue to remain 
available to determined and well-financed wrongdoers. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ See James Moyer, ``Security Document Theory White Paper,'' 
online at http://www.
cfp2004.org/spapers/moyer-sdt.pdf.
---------------------------------------------------------------------------
    While we understand the desire of the ICAO to increase confidence 
in travel documents, reduce fraud, combat terrorism, and protect 
aviation security, the inclusion of RFID tags will have 
disproportionate and unnecessary effects on privacy and civil 
liberties. Developed without outside input, the ICAO passport has 
morphed from a simple identity document to become a de facto monitoring 
device. Worse, this monitoring device threatens to be foisted on the 
American public with little or no debate. Because of the power and 
potential of RFID chips, the actions of the ICAO threaten the rights of 
Americans and people around the world.

                            CONSUMER ISSUES

    The second major area where privacy concerns are raised by RFID 
tags in addition to government uses is the commercial side. Major 
retailers are engaged in a major push to advance adoption of RFID 
technology, and many envision RFIDs eventually replacing UPC bar codes 
on products.
    Such a pervasive adoption of RFID technology raises profound 
privacy questions. The most detailed and often intimate picture of 
Americans' lives can be constructed through their consumer purchases. 
The issues were well explained in a position statement issued by a 
coalition of 30 consumer and privacy organizations.<SUP>6</SUP> They 
include:
---------------------------------------------------------------------------
    \6\ ``RFID Position Statement of Consumer Privacy and Civil 
Liberties Organizations,'' November 2003, available online at http://
www.aclu.org/SafeandFree/SafeandFree.cfm?ID=1555
9&c=207.

 Hidden placement of tags. RFID tags can be embedded into/onto objects 
        and documents without the knowledge of the individual who 
        obtains those items. As radio waves travel easily and silently 
        through fabric, plastic, and other materials, it is possible to 
        read RFID tags sewn into clothing or affixed to objects 
        contained in purses, shopping bags, suitcases, and more.
 Unique identifiers for all objects worldwide. The Electronic Product 
        Code potentially enables every object on earth to have its own 
        unique ID. The use of unique ID numbers could lead to the 
        creation of a global item registration system in which every 
        physical object is identified and linked to its purchaser or 
        owner at the point of sale or transfer.
 Massive data aggregation. RFID deployment requires the creation of 
        massive databases containing unique tag data. These records 
        could be linked with personal identifying data, especially as 
        computer memory and processing capacities expand.
 Hidden readers. Tags can be read from a distance, not restricted to 
        line of sight, by readers that can be incorporated invisibly 
        into nearly any environment where human beings or items 
        congregate. RFID readers have already been experimentally 
        embedded into floor tiles, woven into carpeting and floor mats, 
        hidden in doorways, and seamlessly incorporated into retail 
        shelving and counters, making it virtually impossible for a 
        consumer to know when or if he or she was being ``scanned.''
 Individual tracking and profiling. If personal identity were linked 
        with unique RFID tag numbers, individuals could be profiled and 
        tracked without their knowledge or consent. For example, a tag 
        embedded in a shoe could serve as a de facto identifier for the 
        person wearing it. Even if item-level information remains 
        generic, identifying items people wear or carry could associate 
        them with, for example, particular events like political 
        rallies.
    Given the potential for widespread commercial use of RFID chips, we 
believe that Congress ought to step in and require privacy protections 
surrounding the use of this technology--in particular, the 
incorporation into law of the fair information principles that are 
recognized around the world.
        government privacy and consumer privacy: not so separate
    Although I have distinguished the privacy issues raised by the 
government's adoption of RFID tags and the private sector's, the 
difference between the two is quickly eroding from the perspective of 
individual privacy. Government security agencies are increasingly 
making an effort to make use of private sector information in anti-
terrorism efforts that are oriented around vast sweeps through 
Americans' data in the hunt for terrorists. And the government's power 
to access private data is rapidly expanding through the Patriot Act and 
other measures.
    In general, privacy concerns are more serious when they involve the 
government. But increasingly, the information that is collected about 
people by a retailer or other private-sector corporation can and is 
ending up in the hands of the government.

                               CONCLUSION

    I believe that all the testimony you hear today will make clear 
that RFID chip technology is growing rapidly and has incredible 
potential for both use and abuse. I hope that my testimony has 
amplified two further points: this growth is taking place largely 
outside of the control of the US government and it will have 
significant impact on every American. What that impact will be has yet 
to be decided.
    Congress must be vigilant and involved in how RFID technology is 
deployed. What is at stake is no less than how and when Americans will 
be identified and tracked here and around the world. We are at a 
pivotal juncture, where technology has presented us with the ability to 
implant monitoring devices on everything. And their use is being 
contemplated on perhaps the most fundamental travel document in the 
world. All without any guidance or direction from Congress or the 
American people.
    The decisions Congress makes on RFID chips will affect the 
direction of this technology around the world. You must decide whether 
we want to go down the path of incorporating RFID into our identity 
documents or to choose a less invasive technology like the two-
dimensional bar code. Over the longer term, the Congress needs to 
consider how the fair information principles that my fellow panelists 
have discussed can be applied to RFID and the many other new 
technologies that have placed us on the edge of becoming a surveillance 
society.
    The debate must begin right now. If RFID technology is to be 
employed it must be carefully controlled, yet none of those controls 
currently exist. A fait accompli, presented by an unelected 
international body, is a real possibility. We urge you to be vigilant 
in monitoring these developments and creating legal controls to protect 
American privacy both domestically and internationally. Thank you.

    Mr. Stearns. I thank the gentleman.
    Mr. McLaughlin.

                  STATEMENT OF MARK McLAUGHLIN

    Mr. McLaughlin. Thank you, Mr. Chairman. Good afternoon, 
Mr. Chairman, and members of the subcommittee. My name is Mark 
McLaughlin. I serve as the Senior Vice President for VeriSign's 
Naming and Directory Services Division. I'm very appreciative 
to have the opportunity to be here this afternoon. By way of 
background, VeriSign is the leading provider of critical 
infrastructure services for the internet and telecommunications 
networks.
    Every day, VeriSign processes 10 billion domain name 
lookups and e-mails, provides internet security for thousands 
of corporations, processes 25 percent of all North American 
electronic commerce and facilitates billions of daily phone 
calls and millions of daily SMS messages.
    I am here today to talk about VeriSign's role in the EPC 
network which is our selection as the root operator for the 
Electronic Product Code network. As mentioned, an Electronic 
Product Code embedded on an RFID tag provides a unique number 
that could be assigned to cases and pallets within the supply 
chain for identification. With the EPC network, computers that 
use RFID technology to identify objects can acquire associated 
information about that object, enabling manufacturers to track 
items and materials throughout the supply chain.
    VeriSign was selected to operate this network by EPCglobal, 
a nonprofit joint venture of the Uniform Code Council which 
manages the allocation of bar codes and EAN International, 
which provides similar services internationally. They are 
responsible for driving the global adoption and implementation 
of the EPCglobal Network across various industry segments.
    VeriSign's role in making the network work is building and 
operating the Object Name Service, ONS. Building and operating 
the EPC network is a very comfortable fit for VeriSign. We have 
over a decade of experience operating a proven, secure, global 
platform for the .com and .net domain name naming system. 
VeriSign also brings a strong record of securing internet 
commerce and communications. These will be critical to the 
success of the EPC network.
    The EPC system works very much like the internet's Domain 
Name System. VeriSign, as I mentioned, operates the system 
worldwide for .com and .net. Like the Domain Name System which 
appoints web browsers to a server where they can download the 
websites for any particular web address, ONS will point 
computers looking up EPC numbers to detailed product 
information stored on the distributed network. The system 
leverages the power of today's internet, through a distributed 
architecture that will enable individual companies to share 
information about products in more than one secure data base on 
the web.
    VeriSign's experience will help the EPC network deliver 
integrated services that allow each company in the supply chain 
to authenticate themselves on to the network, allowing 
producers, wholesalers and retailers to share secured product 
data in real-time.
    Through the use of the EPC network, businesses can become 
more efficient and productive in logistics, inventory 
management and product placement. To support this new model for 
supply chain management, thousands of enterprises need to be 
able to securely access, in real-time, potentially billions of 
unique EPCs from a highly available global ONS directory. As 
other people have mentioned, the cost savings and efficiencies 
throughout this system are vast. VeriSign's involvement with 
EPC network will help ensure that the system is run with real-
time accuracy and security.
    Around the issue of consumer privacy, an important thing to 
do note is about the tag itself, as other people have 
mentioned. Much has been said and written about concerns that 
somehow reading a tag on a product will give away sensitive 
information about a consumer. That's not the case. The tag 
simply does not supply any information about a consumer. As a 
matter of fact, the tag doesn't contain any information about 
the product itself. That information is stored on data bases. 
Having said that, VeriSign is committed to working with all 
groups, especially privacy groups, to ensure secure and 
reliable network. That is our legacy on the internet that we 
are excited to bring to the EPCglobal network as well. More 
specifically, we will provide our leading digital certificate 
technology to help ensure that only authorized parties will be 
allowed access to information on the network. These are exactly 
the same kind of certificates that we use to protect billions 
of online transactions every day. Additionally, our encryption 
technologies are employed to encrypt transmission of any 
information that is deemed to be sensitive. This technology 
will also be used to help prevent snooping and hijacking and 
other forms of intrusive behavior.
    VeriSign takes our role in RFID technology as seriously as 
have taken our role in supporting the internet's continued 
growth. I appreciate the opportunity to testify before the 
subcommittee this morning and I'd be happy to answer questions 
later.
    [The prepared statement of Mark McLaughlin follows:]

 Prepared Statement of Mark McLaughlin, Senior Vice President, Naming 
                 and Directory Services, VeriSign, Inc.

    Good morning Mr. Chairman and Members of the sub-committee. My name 
is Mark McLaughlin and I serve as Senior Vice President for VeriSign's 
Naming and Directory Service division. VeriSign is the leading provider 
of critical infrastructure services for the Internet and 
telecommunications networks.
    Every day VeriSign supports 10 billion domain name lookups and 
emails, provides Internet security for thousands of corporations, 
processes 25 percent of all North American e-commerce and facilitates 
billions of daily phone calls and millions of daily SMS messages.
    I am here today to talk about VeriSign's selection as the root 
operator for the Electronic Product Code network. An Electronic Product 
Code (EPC) embedded on an RFID tag provides a unique number that can be 
assigned to individual items in cases and pallets within the supply 
chain for identification and tracking. With the EPC network, computers 
that use RFID technology to identify objects can acquire associated 
information about that object, enabling manufacturers to track items 
and materials throughout the supply chain. This technology will 
revolutionize the way products are manufactured, sold and bought.
    VeriSign was selected to operate this network by EPCglobal, a non-
profit joint venture of the Uniform Code Council (which manages the 
allocation of bar codes) and the EAN International (which provides 
similar services internationally) responsible for driving the global 
adoption and implementation of the EPCglobal Network across industry 
sectors.
    VeriSign's role in making the network work is building and 
operating the Object Name Service, or ONS. Building and operating the 
EPC network is a comfortable fit for VeriSign. VeriSign has over a 
decade of experience operating a proven, global platform for the .com 
and .net domain name system. VeriSign also brings a strong record of 
securing Internet commerce and communications that will be critical to 
the success of the EPCglobal Network.
    The EPC system works much like the Internet's Domain Name System 
VeriSign operates as the authoritative directory for all .com and .net 
internet addresses.
    Like the Domain Name Addressing system (DNS), which points Web 
browsers to the server where they can download the Web site for any 
particular Web address, ONS will point computers looking up EPC numbers 
to detailed product information stored on the network . The system 
leverage the power of today's Internet, through a distributed 
architecture that will enable individual companies to share information 
about products in more than one secure database on the Web.
    VeriSign's experience will help the EPC Network deliver integrated 
services that allow each company in the supply chain to authenticate 
themselves onto the network; allowing producers, wholesalers and 
retailers to share secured product data in real-time.
    Through the use of the EPC Network, businesses can become more 
efficient and productive in logistics, inventory management and product 
placement. To support this new model for supply chain management 
thousands of enterprises need to be able to securely access, in real-
time, potentially billions of unique EPCs from a highly available 
global ONS directory. The possible cost savings and efficiencies 
through out the system are vast with this technology. VeriSign's 
involvement with EPCglobal will help ensure the system is run with 
real-time accuracy on a secure platform.
    Around the issue of consumer privacy, the most important thing I 
can tell you is about the tag itself. Much has been said and written 
about concerns that somehow reading a tag on a product will give away 
sensitive information about a consumer. That is not the case. The tag 
does not supply any information about a consumer. Having said that, 
VeriSign is committed to working with all groups, especially the 
privacy groups, to ensure a secure and reliable network. That is our 
legacy on the Internet that we are excited to bring to the EPCglobal 
network.
    More specifically, we will provide our leading digital certificate 
technology to ensure that only authorized parties will be allowed 
access to information on the network. These types of certificates are 
also used to protect billions of online transactions. Additionally, 
encryption technologies can be employed to encrypt transmission of any 
information that is deemed to be sensitive. This will prevent snooping 
and hijacking.
    VeriSign takes our role in RFID technology as seriously as we have 
taken our role is supporting the Internet's continued growth. Thank you 
for the opportunity to testify before the sub-committee this morning.
    I am happy to answer any questions you may have today or in the 
future as we move forward with this important technological innovation.

    Mr. Stearns. I thank the gentleman.
    Mr. Laurant.

                   STATEMENT OF CEDRIC LAURANT

    Mr. Laurant. Good afternoon, Mr. Chairman, and members of 
the subcommittee. My name is Cedric Laurant. I'm Policy Counsel 
with The Electronic Privacy Information Center or EPIC which is 
based in Washington and is a public interest research and 
advocacy organization that focuses on emerging civil liberties 
issues.
    I appreciate the opportunity to testify before the 
subcommittee today on RFID technology. I will talk about the 
impact that the RFID technology has on people's privacy, new 
risks that are created by this technology, what opinion polls 
show on consumers' perception of RFID, legislative developments 
in the United States and the world, the need for legal 
framework based on fair information practices and finally, our 
recommendation to the subcommittee.
    The debate over RFID technology touches upon many 
controversial policy issues. At it's most fundamental, 
widespread use of RFID tags could enable corporations to track 
every move consumers make. Corporations which compile data 
which is submitted by the tags could determine which product a 
consumer purchases, how often products are used and even where 
the product, by extension of the consumer travels. By 
aggregating data to form consumer profiles, corporations could 
make inferential assumptions about a consumer's income, health, 
lifestyle, traveling habits, buying habits, etcetera. This 
information could then be sold to governments to create a 
dossier of individual citizens or simply sold to other 
corporations for marketing purposes.
    With the ability of RFID readers to collect data from tags, 
once a consumer has left the store moves beyond the reader's 
range is currently limited. RFID technology is quickly 
advancing, while measures to protect individual privacy by 
limiting the amount and type of information corporations can 
collect about consumers is lacking.
    There have been several cases in the past year where the 
technology of RFID has been used without informing consumers. 
In the retail industry, for example, some retailers have 
collected information from customers without providing them 
with the most basic notice. But an even more significant 
problem then, the notification of the presence of tags to 
customers in stores, what may happen is the possibility of 
consumers being covertly tracked, profiled and in other ways 
monitoring the tags they purchased outside the store premises.
    It's also important to note that RFID systems of all kinds 
are capable of generating a volume of consumer data several 
orders of magnitude greater than has been possible before. 
Numerous retail industry white papers refer to the coming 
bonanza of high resolution information and the ease with which 
this information could be shared with third parties and 
aggregated for further data-mining. The indiscriminate use of 
personal identifiable information is already a significant 
issue to consumers as numerous surveys have shown. As the RFID 
application moves into widespread use, this problem will only 
become serious.
    Public opinion polls consistently find strong support among 
Americans for privacy rights and law to protect their personal 
information from government and commercial entities. Opinion 
polls have also demonstrated that there is clear support for 
the meaningful protection that clear privacy principles like 
the fair information practices provide. Several recent polls 
show that Americans are highly concerned about their privacy 
and that legislation is preferred over self-regulated programs.
    In the case of RFID, despite growing media coverage, 
consumers are generally not aware of RFID. A recent study 
conducted by Cap Demme Group and the National Retail Federation 
found that 77 percent of the more than 1,000 consumers surveyed 
were not familiar with RFID. Of those that were familiar, less 
than half had a favorable perception of the technology.
    The on-going support for the right of privacy is not 
surprising. Privacy protection has a long history in the United 
States. The United States has a strong tradition of extending 
privacy rights to new forms of technology. Congress has 
repeatedly sought to protect people against new privacy risks 
that new technologies brought.
    It was never the intent to prohibit the technology when 
Congress legislated or to prevent the growth of affected 
business models. Instead, the purpose was to establish public 
trust and confidence in the use of new technologies that had 
the ability to gather a great amount of personal information 
and if used improperly to undermine the right of privacy.
    I will skip the part about recent legislative development 
in the U.S. and the world, but I suggest you take a look at the 
full version that is in the record.
    Legislation is needed because consumers have shown in polls 
that they view self-regulation is insufficient to effectively 
protect their privacy and the RFID industry needs simple, 
predictable and uniform rules to regulate the collection and 
use of information through the user of RFID technology. This 
legal framework could be based on the fair information 
practices.
    I won't detail what those fair information practices are 
since a witness, Paula Bruening, has already talked about them.
    The public debate about whether to regulate RFID technology 
raises the same questions that previous new technologies 
collecting personal information had raised in the past. 
Congress, by regulating RFID technology and by adapting the 
fair information practices to this new technology would follow 
the tradition of providing people with basic rights to protect 
their privacy and the use of their personal information.
    We recommend basically that Congress should first rule on 
legislation specifically targeting the use of RFID in the 
retail sector and require clear labeling and easy removal at 
item level, rather than tagging on individual consumer product. 
Then Congress should legislate in a way that protects consumers 
from improper use and sharing of data in both the public and 
private sector by establishing a legal framework based on clear 
information practices.
    Thank you very much for your attention.
    [The prepared statement of Cedric Laurant follows:]

   Prepared Statement of Cedric Laurant, Policy Counsel, Electronic 
                       Privacy Information Center

    My name is Cedric Laurant. I am Policy Counsel with the Electronic 
Privacy Information Center (EPIC) in Washington. EPIC is a public 
interest research and advocacy organization that focuses on emerging 
civil liberties issues.<SUP>1</SUP> I also am the editor of the 2003, 
and upcoming 2004, Privacy and Human Rights report <SUP>2</SUP>, an 
annual survey of privacy laws and privacy-related developments in over 
65 countries in the world.
---------------------------------------------------------------------------
    \1\ More information about EPIC is available at the EPIC web site 
http://www.epic.org.
    \2\ http://www.privacyinternational.org/survey/phr2003/.
---------------------------------------------------------------------------
    I appreciate the opportunity to testify before the Subcommittee 
today on RFID technology.
1. Impact of RFID technology on people's privacy
    Radio Frequency Identification (RFID) is a type of automatic 
identification system that enables data to be wirelessly transmitted by 
portable tags to readers that process the data according to the needs 
of a particular application. Tags in use today are small enough to be 
invisibly embedded in products and product packaging. The data 
transmitted by the tag may provide identification or location 
information, or specifics about the product tagged, such as price, 
color, or date of purchase. RFID readers are often connected to 
computer networks, facilitating the transfer of data from the physical 
object to databases and software applications thousands of miles away 
and allowing objects to be continually located and tracked through 
space. RFID may also be used to identify documents and currency. RFID 
may even be deployed to identify individuals. Today, major uses of RFID 
include supply chain management, animal tracking, and electronic 
roadway toll collection.
1.1. New risks for privacy
    The debate over RFID technology touches upon many controversial 
policy issues. At its most fundamental, widespread use of RFID tags 
could enable corporations to track every move consumers make. 
Corporations which compile the data transmitted by the tags could 
determine which products a consumer purchases, how often products are 
used, and even where the product--and by extension the consumer--
travels. By aggregating data to form consumer profiles, corporations 
could make inferential assumptions about a consumer's income, health, 
lifestyle, buying habits, and travels. This information could be sold 
to governments to create dossiers of individual citizens, or simply 
sold to other corporations for marketing purposes. While the ability of 
RFID readers to collect data from tags once a consumer has left a store 
or moved beyond the readers' range is currently limited, many consumer 
groups and privacy advocates note that RFID technology is quickly 
advancing, while measures to protect individual privacy by limiting the 
amount and type of information corporations can collect about consumers 
is lacking.
    There have been several cases in the past year where the technology 
of RFID has been used without informing consumers. In the retail 
industry, for example, some retailers have collected information on 
their customers unbeknownst to them without providing them with the 
most basic notice.
    Between March and July of 2003, shelves in a Wal-Mart store in 
Broken Arrow, OK, were equipped with hidden electronics to track 
lipstick products. Consumers at the store were unaware of the RFID tags 
contained in the lipstick and that they were being viewed 750 miles 
away by Procter & Gamble researchers in Cincinnati who could tell when 
the lipsticks were removed from the shelves and could even watch 
consumers in action thanks to a system of video surveillance installed 
in the store. Researchers had concealed the RFID readers in contact 
paper placed under the shelves and had embedded RFID antenna chips in 
the lipstick packaging.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ ``Chipping away at your Privacy,'' Chicago Sun Times, November 
9, 2003, available at http://www.suntimes.com/output/lifestyles/cst-
nws-spy09.html.
---------------------------------------------------------------------------
    Gillette, the razor manufacturer, has tested smart-shelf technology 
in conjunction with major retailers such as Tesco in which a hidden 
camera took pictures of shoppers whenever they picked up razor blades 
from the shelf, and again when they pay for the item at the check-out 
counter. The smart shelves were tested at a Tesco store in Cambridge, 
England.<SUP>4</SUP> Planned testing in Brockton, MA, was publicly 
canceled by Wal-Mart after consumer protest.<SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Alok Jha, ``Tesco Tests Spy Chip Technology,'' Guardian, July 
9, 2003, http://www.guard
ian.co.uk/uk--news/story/0%2c3604%2c1001211%2c00.html.
    \5\ Alorie Gilbert and Richard Shim, ``Wal-Mart Cancels 'Smart 
Shelf' Trial,'' ZDNet.com, July 9, 2003, http://zdnet.com.com/2100-
1103--2-1023934.html.
---------------------------------------------------------------------------
    But an even more significant problem than what may happen in stores 
is the possibility of consumers being covertly tracked, profiled and 
otherwise monitored via live RFID tags in products they own. There are 
already a number of RFID applications in use worldwide which offer 
tracking and monitoring of individuals as part of their explicit 
feature set. Many of these applications make use of passive RFID tags 
similar to what might be used in consumer products. A significant 
portion of data generated over a product's lifetime will be stored in a 
centrally-managed, Internet-accessible database known as the Object 
Name Service (ONS). If information in this database is associated with 
personally identifiable information, the potential for abuses of 
consumer data and individual privacy will dwarf any technology 
previously in use.
    Moreover, it is important to note that RFID systems of all kinds 
are capable of generating a volume of consumer data several orders of 
magnitude greater than has been possible before. With in-store 
deployment, it is predicted that Wal-Mart will generate more than seven 
terabytes of RFID data a day.<SUP>6</SUP> Numerous retail industry 
white papers refer to the coming bonanza of high-resolution consumer 
information and the ease with which this information could be shared 
with third parties and aggregated for further data mining.<SUP>7</SUP> 
The indiscriminate use of personally identifiable information is 
already a significant issue for consumers in the US, as numerous 
surveys have shown. As RFID applications move into widespread use, this 
problem will only become more serious.
---------------------------------------------------------------------------
    \6\ Mark Palmer, ``Overcoming the challenges of RFID,'' ZDNET.com, 
February 27, 2004 <http://zdnet.com.com/2100-1107--2-5165705.html>.
    \7\ See, for example, ``Sponsored Feature: A Vision for RFID In-
Store Consumer Observational Research,'' RFIDNews.com, October 20, 
2003, available at http://www.rfidnews.org/weblog/2003/10/20/sponsored-
feature-a-vision-for-rfid-instore-consumer-observational-research/.
---------------------------------------------------------------------------
1.2. Consumer surveys
    Public opinion polls consistently find strong support among 
Americans for privacy rights in law to protect their personal 
information from government and commercial entities.<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ See EPIC's Public Opinion on Privacy web page reviewing those 
opinion polls on a regular basis at http://www.epic.org/privacy/survey.
---------------------------------------------------------------------------
    Opinion polls have also demonstrated that there is clear support 
for the meaningful protections that clear privacy principles, like the 
Fair Information Practices (FIPs) provide. A number of recent polls 
show that Americans are ``highly concerned'' about their privacy and 
that legislation is preferred over self-regulatory ``trust'' programs.
    When polled Americans indicate that:

 Individuals should be in control of both initial collection of data 
        and data sharing. The public considers opt-in--the principle 
        that a company should obtain an individual's affirmative 
        consent before collecting or sharing data--as one of the most 
        important privacy rights.
 Individuals want accountability and security. Individuals report that 
        they want the ability to obtain redress for privacy violations 
        and think that it is important that access to data within an 
        entity be limited.
 Individuals want comprehensive legislation, not self-regulation. 
        Americans report that the current self-regulatory framework is 
        insufficient to protect privacy and favor new federal 
        legislation to protect privacy online.
 Individuals value anonymity.
 Individuals do not trust companies to administer personal data and 
        fear both private-sector and government abuses of privacy.
 Users want notice of how their personal information is collected, 
        used, and with whom it is shared.
    In the case of RFID, despite the growing media coverage, consumers 
are generally not aware of RFID.
    A recent study conducted by Capgemini Group and the National Retail 
Federation found that 77% of the more than 1,000 consumers surveyed 
were not familiar with RFID.<SUP>9</SUP> Of those that were familiar 
with RFID, less than half (42%) had a favorable perception of the 
technology, while 31% had no opinion.
---------------------------------------------------------------------------
    \9\ Beth Bacheldor, ``Study: RFID Not Well-Known By Consumers,'' 
InformationWeek, June 24, 2004, available at http://
www.informationweek.com/story/showArticle.jhtml?articleID=22101950.
---------------------------------------------------------------------------
    An internal Proctor & Gamble survey, not intended for public 
dissemination, found strong negative reaction to RFID use.<SUP>10</SUP> 
A document describing the November 2001 survey was located on an 
unsecured Auto-ID center server and publicized by CASPIAN. 317 
consumers participated in Internet-based survey sponsored by Auto-ID 
center and Proctor & Gamble. 78 percent of respondents reacted 
negatively. The major findings were as follows:
---------------------------------------------------------------------------
    \10\ Auto-ID Center/Proctor & Gamble Survey, available at http://
cryptome.org/rfid/pk-fh.pdf.

 More than half claimed to be extremely or very concerned;
 ``Big Brother'' is used in 15 separate cases to describe the 
        technology;
 Consumers did not want ``smart tags'' in their homes;
 The reassurance that the ``tags'' could be turned off and privacy 
        guaranteed was not compelling.
    This ongoing support for the right of privacy is not surprising as 
privacy protection has a long history in the United States. The US has 
a strong tradition of extending privacy rights to new forms of 
technology. Congress has repeatedly sought to protect people against 
the new privacy risks that new technologies brought. Congress enacted 
privacy laws for the telephone network, computer databases, cable 
television, videotape rentals, automated health records, electronic 
mail, and polygraphs. In each case, it was never the intent to prohibit 
the technology or to prevent the growth of effective business models. 
Instead, the purpose was to establish public trust and confidence in 
the use of new technologies that had the ability to gather a great 
amount of personal information and, if used improperly, to undermine 
the right of privacy.
    The new technology of RFID raises important privacy risks for 
people. Those risks point to the urgent need to establish protections 
for personal information collected by RFID to safeguard consumers' 
privacy interests.
2. Recent legislative developments
2.1. In the United States
    There is currently no federal law applicable to the collection and 
further processing of personally identifiable data gathered through 
RFID technology. Legislative developments in various States indicate 
that state legislatures are aware of their constituents' concerns for 
the privacy risks that RFID technology raises.
    Some state legislation has been proposed, but not yet passed, in 
several state legislatures over the past year. Most of this legislation 
includes provisions for clear labeling of consumer products bearing 
RFID tags, a requirement originally proposed for federal legislation 
drafted by consumer advocacy group CASPIAN (Consumers Against 
Supermarket Privacy Invasion and Numbering), the ``RFID Right to Know 
Act of 2003.'' <SUP>11</SUP> RFID bills drafted in the US, (except for 
a Virginia bill which merely calls for a general review of RFID 
practices and privacy <SUP>12</SUP>) all share a ``notice'' clause 
first articulated in RFID expert Simpson Garfinkel's RFID Bill of 
Rights and CASPIAN's RFID Right to Know Act of 2003.<SUP>13</SUP> This 
clause requires any consumer products bearing RFID tags to be 
conspicuously labeled. A bill introduced, and still being debated, in 
the California senate requires that tags be destroyed or removed at 
checkout.<SUP>14</SUP> A bill in the Utah legislature, which failed, 
and bills in Missouri and Maryland require tags be labeled 
only.<SUP>15</SUP> There is no legislation currently being considered 
at the federal level, although the FTC recently conducted a workshop to 
debate the current and potential impact of RFID on consumers and 
individual privacy. Privacy advocates cautioned that without a 
framework of protection for personal information RFID use could have 
significant, negative impact on individual privacy.<SUP>16</SUP>
---------------------------------------------------------------------------
    \11\ CASPIAN, ``RFID Right to Know Act of 2003'', available at 
http://www.nocards.org/rfid/rfidbill.shtml.
    \12\ Virginia House Bill 1304, available at http://
leg1.state.va.us/cgi-bin/legp504.exe?
041+ful+HB1304.
    \13\ See Simson Garfinkel, ``An RFID Bill of Rights,'' Technology 
Review, October, 2002, at page 35, available at http://www.simson.net/
clips/2002.TR.10.RFID_Bill_Of_Rights.pdf and the ``RFID Right to Know 
Act of 2003,'' available at http://www.nocards.org/rfid/rfidbill.shtml.
    \14\ California Senate Bill 1834, available at http://
info.sen.ca.gov/pub/bill/sen/sb_1801-1850/
sb_1834_bill_20040401_amended_sen.pdf.
    \15\ Utah House Bill HB 251, available at http://
www.le.state.ut.us/2004/htmdoc/hbillhtm/hb0251.htm; Missouri Senate 
Bill 867, available at http://www.senate.state.mo.us/04INFO/bills/
SB867.htm; Maryland House Bill 32, available at http://
mlis.state.md.us/2004rs/-billfile/HB0032.htm#Exbill.
    \16\ Radio Frequency Identification: Applications and Implications 
for Consumers, Federal Trade Commission Workshop, June 21, 2004, 
available at http://www.ftc.gov/bcp/workshops/rfid/.
---------------------------------------------------------------------------
2.2. International landscape
    Other nations already have regulations or guidelines that can help 
protect consumers against major privacy risks raised by RFID 
technology. Europeans have regulated privacy with an omnibus law that 
comprehensively protects the use and processing of personal 
information. Rules protecting personal information processed through 
the use of RFID technology are therefore already in place with two data 
protection directives (enacted in 1995 and 2002) that apply to both the 
issue of individual tracking and the association of data with personal 
identification. As a result, any use of RFID tags that involves the 
processing of personal data is likely to be subject to a number of data 
protection obligations.<SUP>17</SUP> Further, the more recent Directive 
on Privacy and Electronic Communications states that ``location data 
may only be processed when it is made anonymous or with the consent of 
the individual.'' <SUP>18</SUP>
---------------------------------------------------------------------------
    \17\ Eduardo Ustaran, ``Data Protection and RFID Systems,'' Privacy 
& Data Protection Volume 3, Issue 6, at page 6, available at http://
www.berwinleighton.com/download/PDP-RFIDtag
simplications.pdf. Article 8 of the EU Data Protection Directive of 
1995, for example, prohibits the processing ``personal data revealing 
racial or ethnic origin, political opinions, religious or philosophical 
beliefs, trade-union membership, and the processing of data concerning 
health or sex life.'' EU Data Protection Directive 95/46/EC, Official 
Journal of the European Communities of 23 November 1995 No L. 281 p. 
31, available at http://europa.eu.int/smartapi/cgi/sga_doc?
smartapi!celexapi!prod!CELEXnumdoc&lg=EN&numdoc=31995L0046&model=guichet
t>.
    \18\ EU Directive on Privacy and Electronic Communications 2002/58/
EC, Official Journal, OJ L 201, 31.07.2002, p. 37, available at <http:/
/europa.eu.int/eur-lex/pri/en/oj/dat/2002/l_201/
l_20120020731en00370047.pdf.
---------------------------------------------------------------------------
    Over the past year there has been widespread activity on the part 
of governments and NGOs to begin the process of regulating the use of 
RFID to protect individual privacy. Data protection and privacy 
commissioners in Sydney, Australia, adopted an international resolution 
on RFID. Several individual countries, including Italy, Canada, 
Australia and Japan, have outlined guidelines for domestic industry to 
follow in their use of RFID.
    The approach of regulatory movements worldwide varies considerably. 
Although it does not explicitly call for labeling (instead, it calls 
for openness and transparency), the joint resolution of international 
data protection and privacy commissioners in Sydney, Australia in 
November 2003 is similar to the California bill in that it requires 
tags on consumer items to be able to delete data and destroy or disable 
tags.<SUP>19</SUP> Joint guidelines released by Japan's Ministry of 
Public Management, Home Affairs, Posts and Telecommunications (MPHPT) 
and the Ministry of Economy, Trade and Industry (METI) on June 8, 2004, 
call for consumers to be given options on how they might interfere with 
the reading of tags but appear to say nothing about rights to have the 
tag removed or destroyed.<SUP>20</SUP>
---------------------------------------------------------------------------
    \19\ See International Conference of Data Protection & Privacy 
Commissioners ``Resolution on Radio-frequency Identification,'' Final 
Version, 20 November 2003, available at http://
www.privacyconference2003.org/resolutions/res5.DOC.
    \20\ ``Japanese RFID Privacy Guideline Released,'' June 8, 2004, 
RFIDBuzz.com, available at http://www.rfidbuzz.com/news/2004/
japanese_rfid_privacy_guideline_released.html; see also Nikkei BP news 
article, June 8, 2004, available at http://nikkeibp.jp/wcs/leaf/CID/
onair/jp/flash/312386 (in Japanese).
---------------------------------------------------------------------------
3. Need for a legal framework based on Fair Information Practices
    Legislation is required because consumers have shown in polls that 
they view self-regulation as insufficient to effectively protect their 
privacy, and the RFID industry needs simple, predictable and uniform 
rules to regulate the collection and use of information through the use 
of RFID technology. This approach is consistent with US privacy 
legislation.
    This legal framework could be based on the Fair Information 
Practices. The Fair Information Practices are a set of rights and 
responsibilities developed in the early seventies. They help ensure 
personal information is not used in ways that are inconsistent with the 
purpose for which they were collected. Fair Information Practices 
typically include the right to limit the collection and use of personal 
data, the right to inspect and correct information, a means of 
enforcement, and some redress for individuals whose information is 
subject to misuse. Fair Information Practices are in operation in laws 
that regulate many sectors of the US economy, from companies that grant 
credit to those that provide cable television services. Your video 
rental store is subject to Fair Information Practices as are public 
libraries in most states in the country. The government itself is 
subject to the most sweeping set of Fair Information Practices: the 
Privacy Act of 1974, that gives citizens basic rights in the collection 
and use of information held by federal agencies and imposes on these 
same agencies certain obligations not to misuse or improperly disclose 
personal data.
    The current debate about whether to regulate RFID technology raises 
the same questions that previous new technologies collecting personal 
information had raised in the past. Congress by regulating RFID 
technology and by adapting the Fair Information Practices to this new 
technology would follow the tradition of providing people with basic 
rights to protect their privacy and the use of their personal 
information.
    The Fair Information Practices would provide clarity and promote 
trust for consumers and businesses. They would also encourage the RFID 
industry and retailers using RFID technology to develop better 
techniques to protect privacy. If all stakeholders can rely on a set of 
clear and stable rules to guide their use of RFID, it is likely, in the 
long term, to reduce the need for government intervention.
3.1. Recommendations
    Legislation should protect consumers from improper use and sharing 
of data in both the public and the private sector. The legislation 
would address all forms of RFID-based services, from travel security to 
employee monitoring, child tracking and amusement park patron 
management. Congress should rule on legislation specifically targeting 
the use of RFID in the retail sector and require clear labeling and 
easy removal of item-level RFID tagging on individual consumer 
products. Clear labeling and easy removal of tags will ensure that 
consumers receive proper notice of RFID systems and are able to 
confidently exercise their choice whether or not to go home with live 
RFID tags in the products they own. Notice and choice are in fact two 
key components of the Fair Information Practices and elements that 
consumers value, as shown in many opinion polls. Consumers without high 
levels of technical capability have no way of knowing if a ``killed'' 
tag is merely disabled, physically destroyed, or in fact still fully 
functional. Tag removal, on the other hand, is transparent and 100 
percent effective.
    In our comments to the Federal Trade Commission (attached as an 
appendix to this testimony), we limit our recommendations to the 
private sector and to the use of RFID technology in the retail 
industry. We recommend a comprehensive assessment of RFID technology 
and global practice and recommend the FTC to publish and disseminate 
documents that educate the general public about RFID technology and 
with the purpose of educating businesses about RFID technology and the 
importance of protecting individuals' privacy.
3.2. EPIC's RFID Guidelines
    EPIC has drafted a set of industry guidelines which adapt the Fair 
Information Practices to RFID technology. The guidelines allow 
businesses in the manufacturing and retail sectors to adopt the 
technology in a wide range of applications while protecting consumer's 
basic privacy interests. The guidelines require users of RFID systems 
to refrain from linking personally identifiable information to RFID tag 
data whenever possible and only with the individual's written consent. 
The guidelines also prohibit the tracking or profiling of individuals 
via RFID in the retail environment; require tags and tag readers to be 
clearly labeled; and stipulate that tag reading events be perceptible 
to the consumers through their association with a light or audible 
tone. We suggest that these guidelines serve as a basis for new federal 
legislation governing the use of RFID in the retail sector.
    Failure to establish strong safeguards in law has generally 
resulted in economic harm to commerce and growing public concern on 
privacy. The key to protecting people from the new challenges the RFID 
technology raises for their privacy is to ensure the effective 
enforcement of Fair Enforcement Practices or similar privacy 
principles. We suggest you to consult the RFID guidelines provided in 
the appendix to this statement when considering privacy legislation for 
RFID.
    Thanks you for your attention to the privacy implications of RFID. 
We look forward to working with the Committee on this and other issues.

    Mr. Stearns. I thank the gentleman.
    Mr. Molloy.

                    STATEMENT OF JOHN MOLLOY

    Mr. Molloy. Good afternoon, Mr. Chairman and subcommittee. 
Thank you very much indeed.
    I am John Molloy. I'm the Managing Director of a company 
called ViaTrace. We provide global traceability solutions to 
government and industry throughout the world.
    What I would like to share this morning is real life of 
RFID can do, what I believe RFID can do and why it is good.
    At the moment, within agriculture in the U.S., there's an 
issue, the identification and tracking of animals. And first 
let me say, U.S. is leading the way by its early adoption of 
RFID in this area. Eight years ago in Parliament in EU, the EU 
addressed a similar issue as to how do we do this, how do we 
trace it? Luckily, I was in the Parliament that day and we 
started a consortium and we researched the issue for 55 man 
years. The largest research project ever. How do we do this? 
How do we move control? Even then RFID was suggested as being 
the way forward.
    Subsequent to that, we've actually commercialized and made 
a product, ViaHerd which is available which will address some 
of the issues that USDA have.
    RFID and why it's good. We have an issue and I'm going to 
quote some numbers. They're not exact numbers, but we have a 
real business issue. The business issue is we have 96 million 
head of cattle, okay? And we need to know who they are. Very 
simple thing. So we have the following, simple traceability. 
We're going to identify the animal. His name is John, he's born 
today. That animal is going to be fed for 3 months. He's going 
to be sold to another farmer who is going to feed him for 3 
months and he's going to be sold to another farmer and so it 
goes on and eventually he ends up in slaughter. It's very 
simple. Okay?
    But we've got 96 million. And that 96 million is going to 
move over 2 years, so we've actually got 288 million 
transactions per year. Okay? We've got to do it because there's 
a problem. So we're going to do what we do in Europe and in a 
lot of cases this is what we do in Europe. We employ a lot of 
people. We go out into the field. We say hello, cow, here's a 
tag, here's a number, it's unique. We fill in a piece of paper, 
we bring it back in and we bring that piece of paper to a 
bureau and they type it, like that. Ninety-six million.
    And then another 30 million, and then another 30 million 
because you have to record the movement, otherwise you can't 
trace. We can't report. And that's actually what happens.
    I'm going to give you another idea. You go out and 
electronically--put a chip in his ear, we're doing it. Put a 
chip in his ear. The animal moves, a reader reads it, the 
record is sent. The animal moves, the reader reads it, the 
animal is sent. Why do we do it? God forbid, there is disease 
within the animal kingdom. We know this. This is an issue. We 
want to protect health. We want to protect business, but there 
is disease.
    In a paper-based system and this is proven, 2 weeks ago in 
the U.K., the U.K. Commons Committee slammed their own internal 
system. Bad data. Inaccurate data. They lost 1.2 million 
animals in 2 years. That's a lot of animals to lose in 2 years.
    Three weeks ago in France we all of a sudden discovered 
30,000 BSE cases in the last 10 years. Never recorded, because 
it's paper. Everything points to its paper.
    Mr. Stearns. BSE is Mad Cow?
    Mr. Molloy. Yes, BSE is Mad Cow Disease. In the scenario 
that I want to build you, you can only build traceability based 
on when you need it, okay? It's 9 o'clock in the morning in 
Nebraska and a veterinarian has just discovered that an animal 
has foot and mouth disease. It's another disease. We don't want 
to eat it. It's bad, okay? At 10 o'clock in the morning in 
Chicago an animal walks into the abattoir. This guy has already 
been notified and this guy is all together. This animal will be 
turned away in an RFID situation because the data is flowing. 
If I'm waiting for paper, I'm waiting 3 weeks.
    Three weeks, 4 weeks, this is fact. Fifty two million 
pounds foot and mouth cost to the U.K. Because they had paper. 
I urge you, America, this is the opportunity to lead the world 
in traceability and animal identification. RFID is good. We 
would not run a business on inaccurate data. We wouldn't run a 
healthcare system on inaccurate data. Data collection, RFID is 
the greatest enabling technology for the collection of data, 
for the betterment of business and the betterment of people.
    Thank you.
    [The prepared statement of John Molloy follows:]

     Prepared Statement of John Molloy, Managing Director, ViaTrace

    Good Morning. I am John Molloy, Managing Director of ViaTrace--a 
provider of traceability solutions to government and industry 
worldwide.
    As a father and businessman who is personally involved with, and 
affected by, the privacy and technology issues being addressed by the 
Committee today, I applaud the Committee's leadership in examining 
them.
    I would also like to thank the Committee for the opportunity to 
offer my thoughts this morning, and will begin by briefly sharing my 
first-hand experiences in developing and implementing a multi-national, 
RFID-enabled traceability system across Europe's Agriculture sector.
    In response to several widespread disease outbreaks that put the 
lives and wellbeing of tens of thousands of families and farmers at 
risk--not to mention a crucial, multi-billion dollar agriculture 
sector--the European Union embarked on the most extensive research and 
development initiative ever undertaken into livestock movement and 
disease control. This European Commission funded project leveraged the 
resources of six nations, and took the equivalent of 55 person-years to 
complete.
    Our company, ViaTrace, was selected to utilize the research from 
this project to design and implement a pan-European animal traceability 
system known today as ViaHerd.
    The singular purpose of ViaHerd is to protect the public health and 
the agriculture sector that every citizen depends on.
    Designed as a multi-national, ``farm-to-fork'' traceability system, 
ViaHerd's success ultimately rests on the successful collection and 
cataloging of terabytes of information.
    The information that ViaHerd collects is available to a variety of 
users based on their credentials, roles, and responsibilities. For 
example, a farmer can quickly access and analyze information about his 
herd, but he cannot access information about his neighbors herd.
    Whereas, veterinary officials would have access to a much more 
limited data set and only for specific reasons, like during the time of 
an emergency, or crisis situation (when the need to quickly and 
accurately reconstitute a herd can mean the difference between life and 
death).
    An emergency situation would be declared based on two scenarios: an 
airborne disease outbreak, (like FMD) or the identification of a 
genetic disease (like BSE).
    In order to effectively locate all of the animals a single cow came 
in contact with requires that a host of information is recorded in a 
standardized format each time the animal is moved, or medicated.
    For example, in the US there are roughly 96 million cattle, of 
which about one third are brought to slaughter each year.
    An effective system would capture information about where the 
animal was born, where it was raised, which medications it received, 
when and by which veterinarian. 1Considering the providers of this 
information--generally farmers and veterinary officers--are often ``in 
the field,'' the business challenge for us was to make the collection 
of this information as timely, accurate, and efficient as possible.
    ViaTrace often relies on RFID technology to achieve this objective.
    Once the data is accurately captured, it must be formatted into a 
standardized structure, like the product classification a bar code 
provides. The structure has to be both rigid and dynamic. Rigid in the 
sense that, like the debit and credit structure of the banking world, 
there must be full accountability and compliance. For example, if an 
animal were sold from one producer to another, the system must show 
that it was both sold and purchased. Dynamic in the sense that it must 
show who transported it and by what route (this can vary based on any 
number of conditions).
    Therefore, considering the billions of animals bought and sold each 
year for human consumption, coupled with the increased risk of bio-
terror, airborne and genetic diseases, efficient, comprehensive data 
capture tools--like RFID tags--are practically a global trade 
requirement.
    The EU plans to implement a pan-European electronic animal 
identifier system by 2006.
    At that point, the system will not only gather information from 
electronic readers of individual animal tags, but will also include an 
electronic identifier management module. Say for example the electronic 
identifier is in the form of an ear tag. In addition to registering the 
tags themselves, ear tag suppliers and distributors could be 
registered, along with the individuals authorized to apply ear tags to 
animals (farmers, veterinarians, control assistants, etc).
    The system would then monitor the distribution and use of ear tags 
prior to their application to animals, assisting in the audit, control 
and the re-ordering process to help prevent fraud and loss of revenues 
to government agencies.
    This layering of information is important because the sheer volume 
of transactions in a 40 nation trade zone invites the possibility for 
both inaccurate data and increased fraud--both issues are in direct 
conflict with ViaHerd's intended objective of protecting the public 
health and welfare.
    ViaHerd 's sophisticated data capture and authentication 
technologies balance business needs with privacy concerns and 
legislative requirements.
    Today, any nation, producer, or veterinarian that uses our system, 
is automatically fully compliant with all EU agriculture, trade, and 
privacy laws. This is good for business--but it is even more important 
for the protection of public health.
    Therefore, it is our belief that RFID is a critical component of 
any system that relies on timely and accurate data.
    I would like to offer a few lessons we have learned through the 
development and implementation of ViaHerd, which I believe may be 
relevant to your inquiry:

 Protecting the public's health while safeguarding global trade--is a 
        delicate balance that can be and has been realized
 Cooperative action involving government and industry is the ideal 
        model for action, since it is critical to protect the public 
        health in a way that strengthens rather than burdens the 
        agriculture sector
 Preparatory action--taken before the specter of mad cow disease 
        infects our supermarkets, school lunchrooms, and homes--is 
        possible and vital.
    A fully evolved RFID-enabled animal registration system is one of 
the keys to providing stable and sustained international commerce. The 
United States has an opportunity to embrace this technology to the 
benefit of all stakeholders.
    In light of its intentional design to meet public health, business, 
legislative and privacy priorities, I hope the ViaTrace technology will 
serve as a useful model for your consideration.
    In closing, I thank the Committee again for its leadership and hope 
the Committee finds the experiences of ViaTrace to be of value. All of 
us at ViaTrace stand ready to be a resource as you work through this 
challenging issue.
    I appreciate your time and attention, and would be happy to answer 
any questions you may have at this time.

    Mr. Stearns. I'll start the questions here.
    Mr. Laurant, you know, I think the hearing is to find out, 
we all agree that the future is enormous for this technology, 
but the question would be is the pervasiveness of the privacy 
of the individual and how to be protected.
    Mr. Laurant, on your webpage, privacy webpage, it says 
``RFID systems enable tagged objects to speak to electronic 
readers over the course of a product's lifetime from production 
to disposal, providing retailers with an unblinking, 
voyeuristic view of consumers' attitude and behavior, purchase 
behavior.''
    My question is to Dr. Sarma, is that true, do you think 
that's true what they have on their website? Is that possibly--
--
    Mr. Sarma. The range of RFID tags is extremely limited as 
you saw today.
    Mr. Stearns. And in fact, without the intent of the piece 
of sand, the grain of sand, it's not going to work, is that 
true?
    Mr. Sarma. So without the antenna, the tag doesn't work. 
The range is very limited.
    Mr. Stearns. And the antenna, you take off?
    Mr. Sarma. If you want to reactivate the tag when you 
purchase it, in any case you couldn't read it and more 
fundamentally, we are--this is an evolving technology. And 
companies that are using RFID in the U.S. today are just on the 
threshold of starting to make it work. It's got to be 
engineered. You've got to engineer your truck and then you can 
get it to work.
    Pervasiveness assumes a certain technology performance that 
we're really years and years away from.
    Mr. Stearns. That statement is probably not accurate today, 
from a technological standpoint.
    Mr. Sarma. I would consider it an exaggeration.
    Mr. Stearns. Do you want to answer? We're saying the MIT 
scientist says exaggeration.
    Mr. Laurant. It's an exaggeration if you apply it to 
current technology, but as Mr. Sarma said, the technology is 
evolving every day. So it wouldn't be----
    Mr. Stearns. Then Dr. Sarma, how far are we away from this 
statement being possibly accurate?
    Mr. Sarma. The range of RFID tags is always going to be 
limited because very fundamentally, tags we're talking about 
EPC tags and I can only speak for EPC, in the supply chain are 
passive tags. In other words, they have no battery.
    Mr. Stearns. Right.
    Mr. Sarma. And they're limited to physics on how much power 
you can--there are also legal limits from the FCC on how much 
power a reader can put out. In a passive tag, it can only 
respond physically from a certain distance. So unless you 
carpeted a city, a State with readers, your visibility into 
these things is going to be very limited. And even if you 
carpeted a city or a State with readers, your ability to read 
through water, through metal, as you saw in the demonstration 
through fabric also makes it such an unreliable way of 
tracking. There are other means you would prefer if you wanted 
to do that.
    Mr. Stearns. Can it--like in bad weather, like you have 
snow or ice, does it read through that?
    Mr. Sarma. It is very difficult to do it reliably.
    Mr. Stearns. Okay. Now someone has mentioned to me that 
China is at the threshold starting an EPC global network, that 
China would set the standard. So any of you would like to 
comment on the idea that we in the United States probably 
should work to set the standard immediately or we'll be left 
with China setting the standard for the world and what does 
that mean?
    Mr. Sarma. I have not seen anything official from China, 
but I've heard about speculation that China may do something 
and it is very important, I think, on two fronts. First of all, 
it's very important that there be a single global standard 
because if Procter & Gamble makes a product and it wants to 
sell it in Egypt or in the United Kingdom, it will be good and 
very efficient for Procter & Gamble if the standards are the 
same, first of all.
    The second thing is that RFID is a technology that 
fundamentally endows an enterprise with efficiency. And it's 
very important for the United States and its economy to be 
efficient and to take the lead in efficiency. So from both 
points of view, it will be better if (a) the U.S. took a lead; 
and (b) if all countries around the world use the same 
standard.
    Mr. Stearns. Mr. Steinhardt, can you give me what current 
government uses of RFID technology raise privacy concerns in 
your opinion? Are they actually being implemented and just, in 
general, if there's not any on the present horizon, what do you 
fear in the government uses?
    Mr. Steinhardt. The current, as I said in the testimony, 
the current uses are--by the government are fairly limited. 
They are, for example, the use in libraries or proposed use in 
libraries of book----
    Mr. Stearns. Let's say we go ahead and have it in the 
libraries. Then everybody would have a record of everything--or 
if we had it at Blockbusters or a video store that everybody 
had, that would be in the private sector. But in the 
government, if you go to the Library of Congress and they have 
it, then everybody has an idea of what you're----
    Mr. Steinhardt. It means, for example, that if we don't 
take the proper precautions, that anyone can determine what it 
is that you are carrying out of the library and can track you, 
for example, at a political rally. It could track what you have 
in your pocketbook or have in your backpack. But the thing that 
I tried to focus on this morning was really, I think, the 
question, the issue that the Congress would look at very 
carefully is the proposed use of RFID chips in identity 
documents and specifically at the proposed use in the passport. 
The ICAO process, International Civic Aviation Organization, is 
a process that the United States government set forward. This 
is not hypothetical. It's not--it's a little obscure, but it's 
not exotic. This is a process we set forward. Our government is 
actively engaged in it. That issue is going to come back to the 
Congress at some point. It will have to come back to the 
Congress at some point, but it may come back as a fait 
accompli. You may be hearing well that's the global standard. 
The global standard is now we have passports and passports 
contain RFID chips. It's too late for the United States 
government to do anything about it. What we're urging is that 
the Congress get out ahead of the curve and look carefully at 
the use of RFID in identity documents.
    Mr. Stearns. Okay, my time has expired.
    The gentlelady.
    Ms. McCarthy. Thank you, Mr. Chairman. I'm honored to fill 
in for Ms. Schakowsky and follow up on some of the issues that 
we both share. I want to thank everyone for being here today. 
This has been very illuminating for all of us.
    I'd like to follow up with Ms. Hughes and Ms. Bruening on 
where we go from here.
    In your testimony, Ms. Hughes, you talk about the pilot 
testing on pallets and shipping, but you don't mention the 
testing with lipstick. And I am aware of the article from the 
Chicago Sun Times last year about the lipstick issue at the 
Wal-Mart. And it is of concern to me that we explore that just 
a little bit more.
    Ms. Bruening, you call for consumer privacy concerns being 
addressed in a baseline privacy legislation which I agree. The 
government has been wise to stand back and let all of you 
experts grapple with this, but I think we need, Mr. Chairman, 
further conversation about what a baseline privacy bill might 
do to address some of the good things that are going on, as 
well as some of the things that are not in the best interest of 
consumers or the privacy laws that we all cherish.
    So let me start with you, Ms. Bruening. Would you expand a 
little bit on what you'd like to see in a baseline privacy 
legislation.
    And then back to Ms. Hughes on how do we do the testing 
that industry needs that will help the consumer without 
infringing on privacy issues that I know you respect as well?
    Ms. Bruening. Thank you. In calling for baseline privacy 
legislation, CDT is acknowledging that we have been involved in 
this conversation, all of us, repeatedly over the last few 
years. Every time there's a new emerging technology that 
involves data collection, we find ourselves back in these 
hearing rooms talking about how to specifically address privacy 
and that specific technology.
    Our belief is that if we have legislation that addresses 
collection of information no matter what the technology, we 
will be way ahead of the curve when it comes to the next 
technology that emerges. Businesses will have a better sense of 
what the responsibilities are in terms of putting privacy--
implementing policies that are privacy respectful and consumers 
will have a better sense of what they can expect in terms of 
their rights and responsibilities and their own information.
    What we're calling for is baseline legislation that 
incorporates elements of fair information practices. These 
well-established principles that have formed the basis of our 
U.S. Privacy Act of 1974, that have been the basis of industry 
guidelines, international agreements on data flows and data 
protection, these are well established, well trusted now and we 
think that they should form the basis of any privacy 
legislation going forward.
    And I think what we would do is reduce the need to keep 
having to come back and have this discussion repeatedly every 
time there's a new technology that comes out.
    Ms. McCarthy. Thank you very much, Ms. Bruening.
    Ms. Hughes?
    Ms. Hughes. Yes, thank you, Congresswoman, I appreciate the 
opportunity to really set the record straight on this lipstick 
test. You were referring to a test that P&G and Wal-Mart 
conducted in a store in Oklahoma in the spring of 2003. The 
purpose of this test was to really test the technology for 
supply chain management on the shelf. If you think about 
lipstick packages, they're in a little tray by color and to be 
able to find them in the right place when the consumer wants 
them is really important. So we were testing the accuracy of 
the technology.
    The tag was actually on the lid of the carton that the 
lipstick goes into, so it would be thrown away as the lipstick 
was removed. There was full notice at the shelf about 
electronic surveillance and that tags would be used on the 
shelf in the Wal-Mart store.
    We also had webcams that were looking at the shelf so that 
we, in Cincinnati, could actually see the accuracy of the 
technology. It was focused at the shelf, at the trays of 
lipstick and frankly, when a consumer got their head or their 
hand in the way it really interrupted our test. So there was no 
other readers in the store. It was just for that particular 
test. There was no way to know if a consumer was there, who 
they were or anything else about it. So for us, it was really 
an opportunity to test that technology.
    And the point is that the camera was in full view and with 
that notice, we feel that there would be any opportunity if a 
consumer had a question, they could go to the customer service 
center, there's a customer service desk at Wal-Mart, but over 
that 4-month period, not a single consumer raised a question.
    Ms. McCarthy. Let me ask since I didn't do opening remarks, 
I'm still not clear, what is the purpose of knowing what color 
of lipstick that particular consumer is buying? Is this a 
marketing tool now?
    Ms. Hughes. It's really a supply to demand. So it's like 
what are the--to make sure that the products are in the right 
place when the consumer wants them and at the right price. So 
if you're looking for a particular color that you were used to 
having, but you couldn't find it because it wasn't in the slot 
where it's supposed to be, you might go elsewhere or you would 
purchase another lipstick that was from another manufacturer.
    So in this case it was to test the technology to see if we 
could actually see whether those lipsticks were where they were 
supposed to be on the shelf the way that the consumer wanted 
them. You know, if you've bought lipstick sometimes people will 
look at them and they'll put them in different places, so it's 
not where that color is supposed to be. It gets a little 
frustrating.
    Ms. McCarthy. I understand now better the intent. In the 
good old days we had real human beings that checked the shelves 
from time to time and made sure they would answer questions 
that consumers had on the spot and make sure the products were 
available.
    I hope you realize that what we're trying to look at is the 
fine line between good intentions and not so good intentions 
that really do trample upon those things that we view as 
important such as privacy.
    Ms. Hughes. And I think if I may just agree with Ms. 
Bruening that for us what's really important is to give that 
notice to consumers when there is an EPC tag in place and part 
of the EPC global usage guidelines that we've put in place do 
have that as one of the mainstays following the information 
practices. In addition, that there would be choice for 
consumers where they can discard it and in this case with the 
lipsticks it was very easy because it was on the carton.
    Ms. McCarthy. Well, I think what we're about here is to 
make sure that in the good old days when you sought out someone 
with a question so you could get an answer and better choose 
your product, that was willful. A camera which they may or may 
not take the time to read the print that says it's watching you 
is not the same effect on an individual. That fine line is what 
we're trying to grapple with in the legislative process of how 
to do the best for the people that we all want to serve.
    I thank you for your explanation. Thank you.
    Mr. Stearns. I thank the gentlelady.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I probably have a little 
different perspective than some of the members and my questions 
may be a little toward that history of my company has used 
barcodes for decades. We've used RFID. And I'll just run 
through something and then pose it as a single question.
    Since RFID has been used by the CIA, the FBI, all of our 
intelligence organizations for decades, obviously, not a small 
piece, but generally a transceiver or some other product, we've 
tracked fish and other wildlife using RFID. My own company and 
UPS and others have used various both RF and non-RF schemes for 
pallet and individual shipping information. Containers at sea 
right now are being mandated by the Federal Government to be 
tracked so that we can determine that they have not been opened 
and where they are at all times.
    Since RFID is in all the new Toyotas and Lexuses that are 
out there and since package information as anti-theft product 
from many companies has been around for a long time and as we 
all know, having walked in and out of places, isn't always 
disabled when you leave because the next time you go in 
somewhere you go whoops!
    And since our very own spyware legislation that's being 
worked on this committee speaks to a similar situation of 
identity and private information being gathered and trying to 
prohibit it, are we legitimately dealing with your problem 
relative to all the other collection data, all the other 
storage information and now my question, if so, isn't this 
really more a matter of us legislating what you do with the 
information, how long you can keep it and what is appropriate, 
rather than the question of whether or not you can initially 
collect it?
    I'd like to hear from pro and con because that's obviously 
my view is that this is part of a bigger picture. There is 
nothing unique about what you're doing and there's nothing new 
about what you're doing. We're simply talking about it being 
easier and greater in more numbers and thus data bases--we have 
to ask how long can data bases be kept linked to individuals?
    Ms. Hughes, I'd like to include you in this.
    Ms. Hughes. Well, for us, we have as part of our privacy 
policy that we keep data only as long as it's needed. So to 
create the transaction, to fulfill it or whatever. This is for 
consumer information that we would collect to better understand 
consumers' needs and desires for products and services. For 
example, if they have signed up to be a matter of one of our 
newsletter subscriptions or some other type of service that we 
provide on one of our brands, then we would keep it as long as 
they decide that they want to be part of that. So it's a pure 
opt-in and when they want out, then we take them out and we do 
not keep that longer.
    Mr. Issa. And you would consider that if we codified that 
in the law, that would be fine?
    Ms. Hughes. Yes, although as far as legislation, I think as 
far as RFID it's premature for that, but if that would be the 
case, yes.
    Ms. Dillman. Just the only thing I would add is I'd 
absolutely support what you had to say. Our greatest concern, 
we absolutely support protection of private information, 
personal information, but we don't believe that data collected 
by RFID should be different. We believe there needs to be a 
single standard for all personal information, no matter how 
it's collected. And if we created an environment where every 
new technology or every medium has a different requirement, it 
will be a nightmare to actually support and maintain.
    Mr. Issa. Anyone else want to weigh in, particularly on the 
question of whether this is unique and different and requires 
specific legislation or more broadly should be addressed as 
harvested information, personal identity?
    Mr. Steinhardt. If I can, Congressman, I think there are 
two questions there. First is whether or not this is unique. I 
think that as Paula Bruening said earlier, every time a new 
technology come down the pike we have this conversation. I 
don't think that RFID--it has some unique properties to it, but 
I do think it's part of the larger mosaic of technologies that 
enable the surveillance of individuals, a collection of data 
about individuals, not simply about cows or shipping pallets; 
and that over-arching legislation is necessary here. We can no 
longer take the approach that we've taken in the United States 
which is the sectoral approach where a particular issue comes 
before the Congress and you do or don't legislate, so we have, 
for example, very good legislation that deals with our video 
rental records which was the result of the disclosure of Judge 
Bork's records during his confirmation hearing. We don't have 
particularly good legislation in this area and many other 
areas.
    I do think we need over-arching legislation. I agree with 
industry that they need one set of standards that may apply 
differently in different circumstances and may reach different 
results in different circumstances, but I do agree with the one 
set of standards, but they need to be in laws. It's too late 
for us to simply say that we're going to wait until every 
technology comes down the pike is mature because every day we 
face a new technology and we need to set the standards now.
    Mr. Issa. Mr. Chairman, I know my time has expired.
    Mr. Stearns. Does anyone else wish to answer his question?
    Ms. Bruening. I'd just like to comment that I think that 
from the perspective of the development of technology, you end 
up with a better result if you have that kind of baseline 
privacy legislation that focuses on the information itself. 
I've been peripherally involved in the discussions about 
spyware and I think it's a really clear demonstration of how 
difficult it is to do the kind of line drawing you need to do 
in writing legislation whereas if we had that kind of baseline 
law we could avoid a lot of this sort of tortured conversations 
that go on to try and figure out what falls in and what falls 
outside of the line of what's covered by the law.
    I think that in the instance of RFID, we would be very 
concerned about implementing legislation specific to RFID too 
early because it would impact the development of the 
legislation and skew the way it progressed. But if we had that 
kind of privacy law in place, we could feel a lot more 
confident as the new technology goes forward, that it was being 
developed in a privacy respectful fashion. Thank you.
    Mr. Stearns. Anyone else like to answer the question?
    Mr. Laurant. Yes, I would like to point to the European 
rules on privacy. The European regulator did not need to redraw 
a new law to address the specific privacy issues raised by 
RFID. They have a directive that they enacted in 1995 that can 
take care of the problem and can answer most privacy issues 
that consumers may have regarding RFID.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Stearns. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. I want to thank 
the committee. This has been very interesting and a thoughtful 
discussion. I think the reference to the spyware legislation is 
appropriate because I have been concerned that as we consider 
spyware legislation we focus on legislation that limits 
technology rather than limits bad or inappropriate behavior. 
And it seems to me that we're facing perhaps the same kind of 
choice when it comes to this discussion this morning.
    I'm also sitting here wanting to give a commercial to a 
bill that my colleague, Dr. Norwood, and I have introduced in 
an attempt to stop the diversion of drugs, prescription drugs. 
We've introduced what we are calling the Prescription Drug 
Abuse Elimination Act which would mandate the use of RFID track 
or trace or some other technology for Schedule I and Schedule 
II controlled substances by the year 2008. And it seems to me 
that this could be a very helpful and appropriate application 
of this technology, because of the horrendous problem we have 
in this country of Oxycontin and other controlled substances 
being diverted from their intended prescribed appropriate 
usage.
    So I would just like to ask you, Ms. Hughes, I know that 
Procter & Gamble is involved in this pilot project and I talked 
with Cardinal Health earlier this morning about their concerns, 
another great Ohio company, as well as Procter & Gamble and 
could you just say a little more about the pilot project and 
what you hope you can learn from it?
    Ms. Hughes. Yes, for us, as you, we feel like it's very 
important to be able to manage the inventories and prevent drug 
shortages, as well as the counterfeit drug program that's going 
on. So in this test along with a number of other drug 
manufacturers and retailers, we're supported by the FDA, as you 
know, for this test. And we feel like it's a powerful tool to 
deal with expiration date management, for example, diversion, 
reduction in medication errors, product security, etcetera. So 
we feel like there's a real opportunity for this and that's why 
we're testing the technology.
    We appreciate your enthusiasm for introducing legislation.
    Mr. Strickland. and I would encourage my colleagues here. 
It's a very bipartisan bill. Dr. Norwood, as you know, has a 
medical background. He's a dentist by training and this is a 
huge problem and I think this could be a partial solution 
certainly.
    If I can just ask Mr. Steinhardt a question. Your testimony 
was very interesting and taken to I guess what I would use the 
word extreme, alarming. You talked about eventually being able 
to track where every American citizen was and so on. I'll ask 
something that may be not terribly germane to this 
circumstance, but I've been concerned that we've had so many of 
our soldiers taken hostage and I've wondered why we can't 
develop some technology, maybe related to this technology or 
some use of this technology that would enable us at last to 
soldiers who are in combat areas or places of extreme danger 
for abduction to somehow be tracked so that we can know where 
they are if they are taken hostage and would you just comment 
on that or anyone else that knows this technology well enough 
to indicate to me or to us if such an approach would be 
feasible or possible.
    Mr. Steinhardt. Let me reassure you, Congressman, that I 
don't think anybody on this panel, including the representative 
of the ACLU, none of us is suggesting that this is technology 
that should be smashed in its infancy. There are legitimate 
uses of RFID. One legitimate use may be to use it with our 
military so that they can, in fact, be tracked.
    I saw a news article just this morning that raised some 
interesting questions that the Attorney General of Mexico has 
chosen to have an RFID chip implanted under this skin, along 
with members of his staff, apparently, because there are 
kidnappings of high government officials in Mexico. That may be 
an appropriate use of the technology and there are other 
technologies that might make sense.
    The question that I raise by my testimony is whether we 
want to put it in an identity document that is carried by 
millions of Americans or potentially if it were going to 
driver's licenses by the vast majority of adult Americans.
    Mr. Strickland. And I appreciate your answer and then if I 
can just ask the good doctor, as the academic expert here, do 
you think such a technology could, in fact, be helpful in the 
situation such as I described with our soldiers?
    Mr. Sarma. I think that's a very good question, Congressman 
Strickland. I think the challenge, however, is that the 
particular tags we're talking about, the EPC tags that I 
described, unfortunately have a very limited range.
    Mr. Strickland. Sure.
    Mr. Sarma. Only about ten feet as we demonstrated. So it 
wouldn't be applicable in that scenario. However, other 
technology like Lowjack, car theft device, active technology 
which have tags which have batteries and can actually transmit, 
could be adapted. But I think that's a different technology 
than the one we're talking about here.
    Mr. Strickland. I was assuming that was probably the case. 
And if I can just ask one more quick question----
    Mr. Stearns. The gentleman is entitled to 3. You waived 
your opening statement, so you are entitled to 2 more minutes.
    Mr. Strickland. I appreciate you being so gracious. There 
have been references made here to a global or an international 
standard on how EPC could or should be utilized and I'm just 
wondering if any of you would like to offer a suggestion as to 
where you think those standards should be developed and how 
they would be developed and enforced?
    Mr. Sarma. I'd be happy to address that, Congressman. I 
think that like the internet which is a way of transmitting 
data, RFID is a way of lubricating the supply chain and keeping 
track of material in the supply chain. Today, an item might 
spend months, 30 weeks in the supply chain, and if you're going 
to keep track of things in the supply chain, for example, if 
Procter & Gamble manufactures something in the U.S. and it's 
being sold offshore in some country, and Procter & Gamble wants 
to make sure that there is no counterfeit, there is no theft, 
wants to make sure that it keeps its inventories low, but at 
the same time it can meet the demand in this foreign country, 
it would be ideal if all the standards were exactly the same so 
that, in fact, global commerce could operate in a very similar 
way to the internet or the worldwide web. And this is something 
that EPC Global has spent a great deal of time internationally 
through its member organizations around the world promoting and 
we're very close to clinching the deal, if you will, of a 
single global standard.
    Now the U.S. has always been an innovator in the barcode 
community and in RFID and it has played a very important role 
in this and much of the initial sponsorship came from the U.S. 
but some of it came from around the world, but it is a global 
standard we're shooting for.
    Mr. Strickland. You've been very gracious, Mr. Chairman, I 
yield back.
    Mr. Stearns. All right, the gentleman from Arizona, Mr. 
Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman, and I would like to 
echo the comments of Mr. Strickland. This has been a 
fascinating discussion. Actually, the entire concept of having 
this type of technology in the consumer product line and 
throughout our economy is fascinating and to some of us who 
aren't as technologically as advanced as we might be comes as 
king of a whole new shock.
    I want to talk a little bit about some things that I think 
are similar and some things that I think are different between 
that and which the technology that's out there right now. For 
years now, many of us have gone to the grocery store and been 
offered the choice of taking advantage of this little discount 
if we're willing to surrender a degree of privacy by saying 
yes, you can keep track of what groceries John Shadegg and his 
wife and his family buy. That's a choice we make.
    It seems to me this is a challenge because this does not 
involve my control of that circumstance. This now involves 
somebody else's control of that circumstance. And even though 
the technology, Dr. Sarma, suggests that this is only going to 
be readable for 10 feet or so and once I'm out the door it's 
not readable, one of my concerns is that if we do not educate 
the public of that fact, they're going to resent this or fear 
it, perhaps even irrationally fear it. And so it seems to me 
that although the technology has great advances, we need to 
carefully look at it so that we provide consumer assurance that 
their privacy is not invaded to too great a degree.
    So I guess I'm inclined to go along with Mr. Issa's 
suggestion that perhaps a part of this is looking at control of 
the data.
    One of my concerns about your comment, Ms. Hughes, so long 
as needed, I'm afraid that for those who have a distrust of 
commerce, then they conclude as needed as too vague a 
definition for each to make.
    Let me ask both you, Ms. Hughes, and Dr. Sarma and also I 
guess, Mr. Molloy, given the tremendous value of this type of 
technology, what are the things that we should do to facilitate 
it coming to the market and not see the technology squashed by 
an over-reaction to the invasion of privacy issues?
    Ms. Hughes. Well, let me just start first, Congressman. I 
appreciate the question and just to clarify when I said before, 
the collection that I mentioned of data and how long we keep it 
is for our consumer marketing area when consumers have opted in 
to give us their information and how long we keep it is based 
on how long they want to stay in or if we're fulfilling a 
transaction for them.
    Mr. Shadegg. I only think that you have to have a clearer 
definition of what ``as needed'' is because if you were allowed 
to define ``as needed'' and I'm not precisely sure when that 
means I'm out, I may--that may leave people more skeptical who 
may say look, I'm not going to get in. I'm afraid you're not 
going to reasonably define ``as needed.''
    Ms. Hughes. We also have as backup for that, you know, a 
period of time where we say we would keep it for 2 years, for 
example. So if we haven't heard back from a consumer or we 
haven't had any interaction, then we would delete that. So 
we've got a period of time that's our backup then for 
retention.
    But in this particular area for RFID and EPC, in 
particular, we wouldn't be collecting or having any information 
on consumers anyway as a manufacturer or for Procter & Gamble 
we have no need or no interest for that and----
    Mr. Shadegg. So you would not keep the information by 
consumer?
    Ms. Hughes. No.
    Mr. Shadegg. You'd keep gross data?
    Ms. Hughes. Right. All we are interested in is the 
aggregation of what products are being used, how often they're 
being used, the turnover for that so that we can better improve 
our supply chain and make sure that that product is where it 
needs to be. So as far as consumers for RFID and EPC, we 
haven't got any reason and no plans to have any consumer 
information.
    Mr. Shadegg. But I assume that you, or at least others on 
the panel would say if we were to disallow the retention of any 
personally identifiable information that would be overly 
restricting the data or is that not the case?
    Ms. Hughes. I'm sorry, could you rephrase?
    Mr. Shadegg. In other words, if we said yes, you may 
collect it, but only in the aggregate, not that John and 
Shirley Shadegg bought whatever it is, this Procter & Gamble 
product, but that this store sold these many units of that 
product----
    Ms. Hughes. Right.
    Mr. Shadegg. If that were the restriction, I believe that 
would be going too far in restricting the use of this type of 
technology. Or would you not agree with that?
    Ms. Hughes. Right, I mean as far as aggregation of data, 
you know, keeping data for some purpose that we're doing that, 
whether it's to do analysis or whatever, and we don't have any 
consumer information there, so as far as retention of that 
information it's for doing that analysis and we'll keep it 
for----
    Ms. Hughes. I think Safeway either keeps or uses it on my 
family for marketing purposes so they can sell me other 
products.
    Dr. Sarma?
    Mr. Sarma. Congressman, I think your comments are 
absolutely spot on. I think the key thing here is education 
because there are a lot of misunderstandings about what this 
technology is and it isn't. And the reason is it fits into a 
larger continuum of similar technologies that----
    Mr. Shadegg. As Mr. Issa pointed out.
    Mr. Sarma. Right.
    Mr. Shadegg. When he started to say well, it's been around 
forever, I thought well, that's crazy and then you think about 
it for a moment he's absolutely right. It has been around for a 
very long time.
    Mr. Sarma. And EPC is actually a very small and actually a 
very unsophisticated technology. Now for example, there are 
some who might say this can spy on me. What does a spy do 
listens to what I'm saying and then tells somebody else. EPC 
tag, all it does is I'm a bottle of shampoo. It goes to someone 
else. I'm a bottle of shampoo. It doesn't actually repeat 
anything.
    Another misunderstanding is it knows where I am. The tag 
doesn't. The tag only knows it's a bottle of shampoo. It 
doesn't know where I am. It doesn't know where I've been. Now I 
think that education is very key. The second comment is the tag 
by itself actually doesn't gather any personal data. That's an 
independent thing.
    Mr. Shadegg. Right.
    Mr. Sarma. I think that that clarification and these 
clarifications are very important because then people 
understand, consumers understand why this is very important.
    Now finally, I'll say that when information is kept about 
individuals, it may be necessary for regulatory reasons, for 
example, to recall a medicine or to recall a packet of meat 
that's suspect and that's why I think that this sort of 
legislation, the discussions come up. It's premature to talk 
about it. It's really far away from figuring out how this 
technology is going to impact the world. It's a much simpler 
technology than people, I think, think it is.
    Mr. Shadegg. Mr. Molloy, did you want to comment Mr. 
Molloy. Yes, personally, technology is good and technology is 
bad and I actually do see the conflict. But I physically and 
personally believe that RFID is good because it allows you to 
react to situations. One of the examples, the example I gave of 
food, there was a report this morning that says America's beef 
industry is open to bioterrorism. That's a very vague report, 
but it may be true, but if we have something that can actually 
react to that, that actually saves lives. My feeling is that's 
good. Saving lives is good. Not eating meat that's going to 
kill you is good.
    I understand then that how much data do you actually want 
to store. I'll give you a simple example. You want to store 
enough data to actually react. That's my argument. How long do 
you want to keep it for, that's entirely up to what's agreed. 
Thank you.
    Mr. Shadegg. I appreciate that. Mr. Chairman, I appreciate 
your indulgence. I want to conclude by simply saying on spyware 
one of the issues I was concerned about was the issue of stroke 
recording which truly is just like eavesdropping, it's like 
listening to your phone conversation because you can go into my 
computer and see every stroke I make on my computer. You are, 
in fact, eavesdropping on me and it's very much different than 
this technology which just says this is a bottle of shampoo 
that's going out the door at this moment.
    Thank you, Mr. Chairman.
    Mr. Stearns. We're probably going to do another quick 
second round here. So my colleagues are welcome to stay. I'm 
just going to do a couple of questions and then we'll be able 
to go to you.
    Ms. Dillman, the cost of implementing RFID, it's in the 
collection of the data, I guess. These exceptionally large 
amounts of data that's being collected, what happens to this 
data and is not the true cost impediment, not the tags, but the 
data tracking itself?
    Ms. Dillman. That tends to be a common discussion, even in 
the industry and among our suppliers. And what I can tell you 
is how we have--what our implementation looks like and how 
we've addressed that issue.
    If you actually recorded every single read and tried to 
store it somewhere locally, it would be a massive undertaking.
    We don't need all of that data. We need an interpretation 
of the data to actually add value. So we don't need to know 
every point a case was read. We need to know where it ended up, 
that it's out on the sales floor or it's in the back room. And 
what we do is we filter the data and only pass through the 
conclusions that we really need.
    We've encouraged every one we deal with to take a 
simplistic approach like that and that means it's a very doable 
implementation. It makes it very reachable for anyone.
    Mr. Stearns. Now Mr. McLaughlin, I just had a question. You 
talked about counterfeiting. Will RFID technology, we know it's 
useful in counterfeiting, but is it also that you can copy a 
tag and thereby counterfeit a package?
    Mr. McLaughlin. It would be possible to copy a tag, but 
actually the network itself then would have a misread. There 
would be one extra in the system that would shop up as an 
aberration. It would actually be very helpful in drug diversion 
if an extra item showed up where it wasn't supposed to be. 
You'd see that.
    Mr. Stearns. Mr. Molloy, is there any harm to the RFID in 
terms of the signals or anything, I guess this is a question 
for Dr. Sarma, too? I mean should consumers be concerned about 
having all this----
    Mr. Molloy. Radiation in the air?
    Mr. Stearns. Radiation?
    Mr. Molloy. I don't believe so. We've been using it for 
many, many years. I'm definitely not an expert on the whole 
technology.
    Mr. Stearns. Dr. Sarma?
    Mr. Sarma. Mr. Chairman, I'm not a metal expert, but I can 
make a comment on the physics. RFID operates in three bands 
designated by the government called industrial, scientific, 
medical bands. The power and the frequency is regulated by the 
FCC for use in industry and scientific endeavors and medical 
endeavors. A lot of medical equipment actually operates on this 
band.
    Mr. Stearns. Mr. Galione, can you encrypt these chips? In 
other words, a lot of people are concerned about the privacy 
and they talked about protection of privacy, but can't all 
these chips or these tags be encrypted?
    Mr. Galione. As I mentioned in my testimony, the smart 
cards are very much, there's some very sophisticated levels of 
encryption that exists today in order to protect that 
information about people. So now you're talking about, if 
you're talking about some encryption at the item level or for 
logistics, yeah, it can be done, but the economics probably 
don't justify doing it.
    Mr. Stearns. Could you kill the encryption too? Could you 
send a signal to the tag and then kill the encryption too?
    Mr. Galione. Theoretically, that's possible, sure.
    Mr. Stearns. Mr. Molloy, does the government need to 
subsidize as we move beyond cows and things--who is doing it in 
Europe? Who is paying for all of this?
    Mr. Molloy. In Europe, Europe and U.S. are obviously very 
different states. In Europe, it's paid for by the state, it's 
funded by the E.U. Having said that----
    Mr. Stearns. So the E.U. pays for all this, the tags, the 
collection of data and everything?
    Mr. Molloy. Yes, that's a European funded project. Having 
said that, in Europe, it's been very slow to adopt RFID. 
There's legislation on the way that says we must have RFID and 
there's pilots going on in the U.K. and various other countries 
across Europe but in that way America is way ahead because you 
said this is the way they do it.
    Mr. Stearns. All right.
    Mr. Molloy. Paid for by the government.
    Mr. Stearns. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and perhaps to answer 
your question on the passive devices that most of these 
products are going to use, they don't really put anything out. 
It's going to be just like any time you walk pass an electric 
motor or any number of other devices that put out radio 
frequency, so that's the good news.
    On the other hand, at 134 megahertz, you've got a 
proliferation of power from things like the new Lexus and 
Toyotas where they're trying to have a transponder type 
environment. So that is a great question for our subcommittee 
on that because we have a lot of bandwidth utilization. There 
is a question of how much additional noise flow we are raising.
    I think I would just like to make sure that I'm clear on 
the benefit side of this. We've been talking completely about 
the problem side of it with the exception of a few who show how 
they could use them.
    I look at this as obviously the example of tainted beef, 
the fact that Safeway can contact me and say you have a pound 
of meat that came from this State code where right now what 
happens is if you happen to be watching your local cable break-
in from CNN every 15 minutes on the hour or whatever, you're 
going to get an opportunity to hear that there's a bad batch of 
meat and it's number such and such and if you write it down and 
go look, you might find out that you're about to have e. coli 
or something.
    So I view that as a great asset. And it's an asset that's 
only possible if we do collect and retain for a period of time 
very specific information that includes that Mrs. Shadegg 
bought that pound of beef and took it home or that can of tuna 
and that's a tradeoff that I think the committee is going to 
have to weigh.
    As someone who is a consumer electronics manufacturer with 
Philips on the board of the consumer electronics industry with 
me over the years and so on, I would love nothing better as a 
manufacturer than to know that Circuit City 4 days ago sold to 
Mrs. Carstayrs an installed Viper car alarm and thus that now 
becomes the registered user of that product and I don't have to 
wait for a warranty card. There is a concern about what I do 
with it. On the other hand, I view that as a plus.
    Last, but not least, we mentioned software. The whole idea 
that every single CD and DVD in the very foreseeable future 
could, in fact, have a unique embedded serial number and thus 
the registration would be automatic and there would only be at 
any given time on the net one copy or whatever the Congress 
decides is fair use, another issue that this committee is 
dealing with.
    So I for one am delighted to hear that across the panel 
there are concerns, but there's also a recognition that these 
and thousands of other uses make this a technology that we'd 
like to see happen. We'd like to see that two cent item inside 
a pair of socks, if we can get passed the other concerns.
    And Mr. Chairman, it wasn't a question there, but I thank 
you for giving me a second round.
    Mr. Stearns. I thank my colleague for staying over and it's 
nice to have someone who actually has real world experience on 
the subcommittee and participating.
    We're ready to close. Is there anything that all of you 
would like, anyone would like to add, anything that members 
have said? If not, we appreciate the patience in all the 
witnesses and I think we've had a very good hearing.
    We are adjourned.
    [Whereupon, at 1:27 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]

       Prepared Statement of the Grocery Manufacturers of America

    The Grocery Manufacturers of America (GMA) appreciates the 
opportunity to provide the food, beverage and consumer product 
manufacturers' perspective on the use of Radio Frequency Identification 
(RFID) technology. GMA and its member companies believe this technology 
offers benefits for consumers and acknowledge and share concerns 
regarding consumers' privacy as it relates to the use of this emerging 
technology. We are committed to working with the technology providers, 
consumers, the Administration and the Congress as RFID technology is 
implemented and more widely adopted.
    GMA is the world's largest association of food, beverage, and 
consumer product companies. With U.S. sales of more than $500 billion, 
GMA members employ more than 2.5 million workers in all 50 states. The 
organization applies legal, scientific, and political expertise from 
its member companies to vital food, nutrition, and public policy issues 
affecting the industry. Led by a Board of 42 Chief Executive Officers, 
GMA speaks for food, beverage and consumer product manufacturers at the 
state, federal and international levels on legislative and regulatory 
issues.

The Technology
    For more than four years, the Auto-ID Center at Massachusetts 
Institute of Technology (MIT) has been developing supply chain 
applications for RFID technology that promise to deliver significant 
benefits to the economy and consumers. RFID has been around since WWII 
and is already used in many applications from the Speed Pass at the gas 
station to EZ pass at toll booths. RFID is the name given to the 
technology that involves tags that emit radio signals and devices 
called readers that pick up the signal. The electronic product code or 
EPC establishes a standards-based approach to using RFID technology to 
uniquely identify an entity or object that has an EPC tag attached to 
it. The EPC is essentially a radio enabled bar code, which can be read 
wirelessly. Other pieces of the EPC network enable the information from 
the tag to be analyzed and shared between supply chain partners.
    The Auto-ID Center's work on the development of the EPC stands out 
as one example of how public, private, and academic interests can unite 
to support research and development, and help move technology forward 
to benefit society. The Auto-ID Center (now known as the Auto-ID Labs) 
is supported by many of the world's leading companies and organizations 
including many in the food, beverage and consumer products industry. 
EPCglobal, a joint venture between EAN International and the Uniform 
Code Council, was chartered last September to develop open, global 
standards for use of the EPC Network and currently has a subscriber 
base of more than 200 companies representing a cross section of major 
industries around the world. EPCglobal is responsible for the orderly 
adoption and implementation of the EPC system worldwide.
    Similar to the license plate on a car, an Electronic Product Code 
(EPC) is a way to uniquely identify a pallet, case or individual 
product. It is the next generation of today's Universal Product Code 
(UPC), known commonly as the ``bar code.'' Instead of the familiar 
printed strip, a tiny silicon chip holds a unique number that 
identifies a product. The tag, like today's barcode, cannot be read and 
understood without passing by a reader that is connected to a data 
infrastructure. The major improvement of EPC over the barcode is that 
it does not need ``line of sight'' to be read, but instead uses radio 
waves which makes the reading of transactions much faster.
    Connected to a network, EPC technology will allow companies for the 
first time to manage their global supply chain in real time, at any 
time--offering never before available benefits. Some of those benefits 
include:

 Streamlining inventory control on a global scale;
 Deterring theft and counterfeiting;
 Keeping shelves stocked with products desired by consumers;
 Speeding the placement of new products; and
 Easing removal of expired products.
    Though much of the research is focused on business and supply chain 
applications of the technology, the EPC ultimately promises consumer 
benefits as well. Consumers may see improved checkout procedures and 
customer service. Other benefits could include:

 Better availability of products; and
 Swifter and more effective food and product safety recalls.
    It is also important to note that EPC technology can offer 
solutions to government, such as:

 Improved customs handling and border controls;
 Enhanced Department of Defense (DoD) logistics management; and
 Better security for moving luggage through airport terminals.
    Within the food, beverage, and consumer products industry, RFID is 
a part of a broad range of e-commerce activities designed to make the 
supply chain more effective and efficient. From a manufacturer's 
perspective, some of the benefits of EPC/RFID include the elimination 
of manual counting and recounting of products in distribution. 
Warehouses, trucks, backrooms, and shelves will contain readers that 
will automatically and continually track products and maintain 
perpetual and accurate inventory data. Out-of-stocks--a problem which 
plagues the consumer packaged goods industry--could be virtually 
eliminated through preset triggers which would automatically call for 
replenishment. This would also allow for theft to be measured and 
controlled in real time, and will increase the ability to identify 
counterfeit products. Additionally, product recalls will be conducted 
in a much more efficient and effective manner through continuous 
monitoring of products throughout the supply chain.

Status of EPC/RFID Implementation
    Currently, manufacturers are conducting pilot studies on the use of 
EPC/RFID in select warehouses, backrooms, trucks and manufacturing 
plants. While it is clear that broad implementation of EPC/RFID on 
individual items tracked to the store level is still years away, many 
retailers are eager to adopt case and pallet level tagging to enhance 
supply chain efficiencies. In addition, several manufacturers have been 
leading initiatives to use EPC/RFID to reduce theft in the supply 
chain, especially for high value goods, and look forward to realizing 
benefits from the day-to-day use of the technology.
    As with any new technology, many hurdles stand between current 
capabilities and ultimate implementation. These include:

 Difficulty in reading radio frequencies through metals and liquids.
 Upgrading chip quality and consistency to improve read rates.
 Avoiding interference with other radio frequency technologies, such 
        as those used in warehouses, manufacturing plants, stores, etc.
 Developing software to help sort vast amounts of data into meaningful 
        information.
 Improving the ability to read all cases on a pallet.
 Making RFID affordable for many consumer product manufacturers.
    These issues must first be addressed in a reliable and cost-
efficient manner before we are likely to see widespread adoption of 
EPC/RFID.

Public Policy Issues
    While EPC/RFID can produce major benefits, the technology also 
raises public policy issues that must be addressed in a proactive and 
responsible way. Chief among those issues are concerns about consumer 
privacy, which some legislators and advocacy groups are already trying 
to address by proposing legislation that specifically regulates RFID. 
GMA believes RFID-specific legislation is unnecessary because the 
existing legal framework, industry self-regulation, and market forces 
provide consumers ample protection against potential abuses of the 
technology. In addition, premature legislation could also inadvertently 
stifle many of the beneficial uses of this technology (food security, 
bioterrorism) as well as technological solutions to public policy 
concerns.
    Under Section 5 of the Federal Trade Commission Act, the FTC has 
authority to regulate unfair or deceptive practices in and affecting 
commerce. In recent years, the Commission has used this authority to 
develop a substantial body of law regulating the manner in which 
businesses collect and use consumers' personal information, 
particularly online. In addition, the Commission enforces specific 
privacy laws such as the Children's Online Privacy Protection Act, the 
Fair Credit Reporting Act, and the Gramm-Leach-Bliley Act. This body of 
law is readily applicable to consumer privacy concerns about 
potentially unfair or deceptive uses of RFID technology.
    The protections of Section 5 of the FTC Act and other statutes 
enforced by the Commission are not technology-specific. Section 5 was 
not amended with the advent of radio or television, nor during the 
emergence of concerns about online consumer privacy. While there have 
been some laws enacted to deal with certain aspects of emerging 
technologies, FTC consumer protection enforcement, including 
enforcement of general consumer privacy protections, stems primarily 
from existing prohibitions against deception and unfairness. 
Specifically, the FTC has brought several consumer privacy cases on the 
theory that a company's failure to abide by its stated privacy policies 
constitutes a deceptive practice under the Act.
    In conjunction with its enforcement activities, the FTC has long 
encouraged companies to make privacy policies available to consumers. 
Many of the retailers and manufacturers, who are at the forefront of 
implementing EPC/RFID, already publish and abide by privacy policies 
that provide consumers protection against misuse of their personal 
information. Retailers and manufacturers know that consumers, as well 
as the FTC, hold them to the promises made in their privacy policies. 
They recognize that it will be necessary to update these policies to 
notify consumers when EPC/RFID technology is in use, how they collect 
and use information from EPC tags, and any choices consumers have. 
Given that consumer trust is paramount in the branded consumer products 
business, it is very much in the manufacturers' interest to ensure that 
consumers are comfortable with this new technology and fully understand 
the privacy policies by which they abide.
    State law enforcers and the plaintiffs' bar have also been active 
in the consumer privacy arena. Their cases, while arising from consumer 
protection principles similar to those found in Section 5, have often 
focused on violations of unstated policies, for example, the failure to 
disclose that consumer personal information has been shared with 
another company.
    These precedents demonstrate that basic consumer protection 
principles such as deception and failure to disclose were able to 
evolve to protect privacy in the online context. With the framework 
already in place, these principles are readily applicable in the 
context of RFID. There is no reason to believe, even in the absence of 
a law that specifically mentions ``radio frequency identification,'' 
that the Commission, state law enforcers, and the plaintiffs' bar will 
stand by in the face of abuses of RFID technology. Like the internet, 
RFID is simply another method by which consumers and businesses can 
share information. Any privacy concerns it raises are virtually 
identical to those raised by information collection on the internet, 
and the same solution should apply; market forces and government 
encourage businesses to provide privacy policies, and the promises 
contained in those policies are enforced.
    Self-regulation has an important role in encouraging responsible 
use of EPC/RFID. In January 2004, the GMA Board of Directors formally 
adopted privacy guidelines established by EPCglobal. They are available 
at www.epcglobalinc.org. The guidelines will continue to evolve as 
technological applications and consumer opinions develop, but they 
already address important aspects of a sound privacy policy--consumer 
notice, choice, and education, as well as records use, retention and 
security. Specifically, the guidelines focus on the need for consumer 
notification and choice when RFID tags are present in or on products 
available for purchase. In addition, they affirm companies' commitment 
to use, maintain, and protect records generated though EPC/RFID in 
compliance with all applicable laws, including privacy laws.
    Of course, even in the absence of legal and self-regulatory 
incentives, retailers and manufacturers have ample incentives to deal 
fairly with their customers. Retailers and manufacturers of brands rely 
on repeat business. Repeat business depends on consumer confidence in 
the seller. Thus, when a shopper goes into a supermarket for a favorite 
brand of food, the whole supply chain recognizes that the shopper's 
trust in the businesses that brought that brand to the market is 
critical to his or her decision to return again and again. In addition, 
manufacturers have invested hundreds of millions of dollars to create 
consumer confidence, trust and loyalty to their brands. It is, 
therefore, in the industry's interest to act responsibly when 
implementing this new technology in order to maintain that trust.
    Some believe that we need new laws to address RFID. Enacting laws 
and promulgating regulations now would likely do more harm than good. 
New laws specifically regulating RFID could stifle development of the 
technology before its benefits are fully recognized. Since the 
currently-known benefits of the technology arise in interstate 
commerce, a patchwork of state regulations of RFID would be 
particularly problematic. The appropriate approach is to monitor the 
situation and assess whether there are privacy concerns that 
legitimately arise as this technology develops and then ask whether 
they are concerns that cannot be addressed through industry self-
regulation and the application of the unfairness and deception 
principles of the FTC Act.
    Thank you for the opportunity to provide our perspective on this 
emerging technology. As the industry adopts EPC/RFID, we are committed 
to doing so in a way that protects consumer privacy and offers consumer 
benefits. We look forward to working with the Committee on this and 
other important issues in the future.

                                 ______
                                 
     Prepared Statement of the Retail Industry Leaders Association

    The Retail Industry Leaders Association (RILA) appreciates the 
opportunity to provide the committee with an overview on the state of 
adoption of Radio Frequency Identification (RFID) in the retail sector.
    By way of background, The Retail Industry Leaders Association 
(RILA) is an alliance of the world's most successful and innovative 
retailer and supplier companies--the leaders of the retail industry. 
RILA members represent more than $1 trillion in sales annually and 
operate more than 100,000 stores, manufacturing facilities and 
distribution centers nationwide. Its member retailers and suppliers 
have facilities in all 50 states, as well as internationally, and 
employ millions of workers domestically and worldwide. Through RILA, 
leaders in the critical disciplines of the retail industry work 
together to improve their businesses and the industry as a whole. The 
mission of RILA is to lead and serve the most successful and innovative 
retailers and suppliers through the delivery of world-class education, 
innovation and advocacy.
    The promise of RFID is nothing less than revolutionary for the 
retail and supplier community. While RF technology has been used for 
decades, the retail and supplier communities are beginning to implement 
RFID as a new tool in supply chain management and distribution. Global 
supply chain total annual spending is a staggering $3 trillion. Total 
estimated annual loss due to poor supply chain visibility is estimated 
between six and 10 percent--an annual loss of $180--$300 billion.
    RFID offers significant benefits to the retailer and supplier 
community as well as their customers. Providing retailers with 
continuous access to the location of merchandise in the supply chain, 
RFID will allow them distribute merchandise more efficiently, reduce 
costs associated with holding large inventories, or ``safety stock,'' 
increase sales through reduced out of stocks, and allow for more 
accurate forecasts and stock replenishments. The application of RFID in 
the supply chain could reduce transportation costs and shipping volumes 
and increase stock visibility and availability at the point of 
shipment. In addition, RFID can help curb theft and ``shrink'' in the 
supply chain.
    The supply chain applications for RFID also hold important customer 
benefits including better in-store stock--the products customers want 
on the shelf when they want them. More efficient inventory management 
will lead to improved product selection, product freshness for dated 
goods, and easier identification on recalls. In short, RFID will help 
retailers get product to their stores in a more effective manner 
ensuring that consumers have access to a wide range of merchandise when 
and where they want it.
    RFID deployment by the retail industry is still very much in its 
infancy. As a whole, the industry is in a discovery and exploratory 
mode focusing on supply chain applications. A number of retailers and 
suppliers are engaged in RFID test pilot initiatives, and are focused 
predominately on RFID tagging at the case and pallet level to increase 
supply chain efficiencies. Implementation of RFID at any level is an 
extremely high-cost proposition. While much of the RFID discussion has 
focused on the item-level tagging of consumer products, most industry 
experts and market analysts agree that wide spread item-level RFID 
tagging is a decade or more in the future. In fact, the proposition is 
so costly that a leading technology firm does not foresee widespread 
tagging of individual items costing less than $10 until 2017 at the 
earliest.
    While widespread item-level tagging is years in the future, much of 
the focus on RFID implementation at the retail has been related to 
tagging individual consumer product. RILA members view RFID technology 
is the next generation of the bar code and like the bar code RFID tags 
contain product information, not customer information. It is new 
product management devices that can more efficiently track inventory 
and product throughout the retail supply chain.
    RILA is working actively to maintain a public policy environment 
that will foster innovation and adoption of RFID technology and ensure 
that retail and supplier applications are allowed to mature. While some 
have suggested that new laws, RILA members believe legislation in this 
area would be premature and would unnecessarily stifle innovation and 
deployment. Retailers are focused on enhancing the customer's in-store 
experience. They spend millions of dollars each year to make their 
stores more inviting to the consumer and to enhancing customer loyalty. 
Retailers recognize that customers vote with their feet everyday and 
are committed to implementing RFID technology in a way that respects 
our customers, provides added value and enhances the shopping 
experience.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
